<html>
<title> - DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR 2012</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
        DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR 2012 
=======================================================================




                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS
                              FIRST SESSION
                                ________

                    SUBCOMMITTEE ON HOMELAND SECURITY

                  ROBERT B. ADERHOLT, Alabama, Chairman
 JOHN R. CARTER, Texas                DAVID E. PRICE, North Carolina
 JOHN ABNEY CULBERSON, Texas          LUCILLE ROYBAL-ALLARD, California
 RODNEY P. FRELINGHUYSEN, New Jersey  NITA M. LOWEY, New York
 TOM LATHAM, Iowa                     JOHN W. OLVER, Massachusetts
 ANDER CRENSHAW, Florida
 CHARLES W. DENT, Pennsylvania      

 NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
Committee, and Mr. Dicks, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
               Ben Nicholson, Jeff Ashford, Kris Mallard,
                   Kathy Kraninger, and Miles Taylor,
                            Staff Assistants
                                ________

                                 PART 3

                     DEPARTMENT OF HOMELAND SECURITY
                                                                   Page
 Immigration and Customs Enforcement..............................    1
 Transportation Security Administration...........................  195
 Southwest Border Enforcement.....................................  439

                                   S

                                ________

         Printed for the use of the Committee on Appropriations


















                                 PART 3

                                  ICE

                                  TSA

                               SW Border

        DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR 2012
                                                                      













        DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR 2012
=======================================================================

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS
                             SECOND SESSION
                                ________

                    SUBCOMMITTEE ON HOMELAND SECURITY

                  ROBERT B. ADERHOLT, Alabama, Chairman
 JOHN R. CARTER, Texas                DAVID E. PRICE, North Carolina
 JOHN ABNEY CULBERSON, Texas          LUCILLE ROYBAL-ALLARD, California
 RODNEY P. FRELINGHUYSEN, New Jersey  NITA M. LOWEY, New York
 TOM LATHAM, Iowa                     JOHN W. OLVER, Massachusetts
 ANDER CRENSHAW, Florida
 CHARLES W. DENT, Pennsylvania      
                                    
                                    

 NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
Committee, and Mr. Dicks, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
               Ben Nicholson, Jeff Ashford, Kris Mallard,
                   Kathy Kraninger, and Miles Taylor,
                            Staff Assistants
                                ________

                                 PART 3

                     DEPARTMENT OF HOMELAND SECURITY
                                                                   Page
 Immigration and Customs Enforcement..............................    1
 Transportation Security Administration...........................  195
 Southwest Border Enforcement.....................................  439

                                   S

                                ________

         Printed for the use of the Committee on Appropriations
                                ________

                     U.S. GOVERNMENT PRINTING OFFICE

 67-979                     WASHINGTON : 2011
















                        COMMITTEE ON APPROPRIATIONS

                    HAROLD ROGERS, Kentucky, Chairman

 C. W. BILL YOUNG, Florida \1\        NORMAN D. DICKS, Washington
 JERRY LEWIS, California \1\          MARCY KAPTUR, Ohio
 FRANK R. WOLF, Virginia              PETER J. VISCLOSKY, Indiana
 JACK KINGSTON, Georgia               NITA M. LOWEY, New York
 RODNEY P. FRELINGHUYSEN, New Jersey  JOSE E. SERRANO, New York
 TOM LATHAM, Iowa                     ROSA L. DeLAURO, Connecticut
 ROBERT B. ADERHOLT, Alabama          JAMES P. MORAN, Virginia
 JO ANN EMERSON, Missouri             JOHN W. OLVER, Massachusetts
 KAY GRANGER, Texas                   ED PASTOR, Arizona
 MICHAEL K. SIMPSON, Idaho            DAVID E. PRICE, North Carolina
 JOHN ABNEY CULBERSON, Texas          MAURICE D. HINCHEY, New York
 ANDER CRENSHAW, Florida              LUCILLE ROYBAL-ALLARD, California
 DENNY REHBERG, Montana               SAM FARR, California
 JOHN R. CARTER, Texas                JESSE L. JACKSON, Jr., Illinois
 RODNEY ALEXANDER, Louisiana          CHAKA FATTAH, Pennsylvania
 KEN CALVERT, California              STEVEN R. ROTHMAN, New Jersey
 JO BONNER, Alabama                   SANFORD D. BISHOP, Jr., Georgia
 STEVEN C. LaTOURETTE, Ohio           BARBARA LEE, California
 TOM COLE, Oklahoma                   ADAM B. SCHIFF, California
 JEFF FLAKE, Arizona                  MICHAEL M. HONDA, California
 MARIO DIAZ-BALART, Florida           BETTY McCOLLUM, Minnesota
 CHARLES W. DENT, Pennsylvania
 STEVE AUSTRIA, Ohio
 CYNTHIA M. LUMMIS, Wyoming
 TOM GRAVES, Georgia
 KEVIN YODER, Kansas
 STEVE WOMACK, Arkansas
 ALAN NUNNELEE, Mississippi
   
 ----------
 <SUP>1}}</SUP>Chairman Emeritus    

               William B. Inglee, Clerk and Staff Director

                                  (ii)


        DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR 2012

                              ----------                              

                                            Friday, March 11, 2011.

                  IMMIGRATION AND CUSTOMS ENFORCEMENT

                                WITNESS

JOHN MORTON, ASSISTANT SECRETARY, U.S. IMMIGRATION AND CUSTOMS 
    ENFORCEMENT, DEPARTMENT OF HOMELAND SECURITY

                  Opening Statement: Chairman Aderholt

    Mr. Aderholt. Good morning. The hearing is called to order.
    This morning we would like to welcome John Morton, who is 
the Director of U.S. Immigration and Customs Enforcement, 
better known as ICE, as we consider the President's FY12 budget 
request. This is the Nation's second largest Federal 
investigative agency. Director Morton, we thank you for being 
here this morning; and we look forward to hearing your 
testimony before the Subcommittee.
    Let me take just a moment to express this Subcommittee's 
condolences for the loss of Special Agent Zapata. Our thoughts 
and our prayers go out to his family and friends, his 
colleagues, and all those who knew him. His death is a stark 
reminder of the risks law enforcement officers face in the line 
of duty each and every day. I want to thank the men and women 
of ICE for their service, in recognition that it comes with 
great personal sacrifice.
    Turning to today's hearing, we want answers to three main 
questions:
    Number one, how does the FY12 request stabilize ICE's 
budget in terms of eliminating waste and improving 
efficiencies; two, how does the budget match resources to 
operational needs; and, three, how does ICE demonstrate real 
results in terms of the best possible security at the lowest 
possible cost?
    ICE has come a long way in its relatively short history. 
Eight years ago, field offices were rationing vehicle use due 
to shortfalls in equipment and other accounts. ICE's mission 
expanded and contracted multiple times, as the Office of Air & 
Marine, the Federal Air Marshal Service, and the Federal 
Protective Service were transferred in and then out of ICE. As 
a new agency, ICE has had to distinguish itself among other law 
enforcement agencies to carve out its mission space.
    To see the progress ICE has made, one only has to look at 
the news over the past few weeks. On March 1st, ICE led 173 
Federal, State, and local law enforcement partners in 168 U.S. 
cities in Project Southern Tempest, resulting in 678 gang-
related arrests. 447 were charged with criminal offenses, 231 
were administrative arrests, 322 had violent criminal 
histories, and 421 were foreign nationals.
    On February 24, an ICE-led investigation in Virginia 
resulted in indictments against 22 individuals involved in one 
of the largest document fraud rings in United States history. 
In 2 years, the criminal organization sold 15,000 fraudulent 
drivers' licenses, social security cards, and other IDs, the 
proceeds of which were wired to Mexican drug cartels, and that 
was more than $1 million.
    Also on February 24th, a joint ICE-FBI investigation led to 
the arrest of a 20-year-old Saudi student in Texas who was 
amassing chemicals for a WMD attack.
    These cases demonstrate the breadth of ICE's authority and 
why the agency must use all available tools, including 
administrative arrests on immigration violations, to disrupt 
illegal and dangerous activity.
    Congress has consistently provided robust resources to meet 
ICE's mission needs and support its personnel. Today we are 
challenged not only to meet our national security needs, but to 
do so in a way that is responsible and disciplined with respect 
to our Nation's mounting debt.
    Director Morton, in a time of fiscal crisis, the American 
people are demanding responsible budgets that demonstrate 
accountability for every dollar that is spent, and that means 
this Subcommittee will do its part to prevent waste or misuse 
of funds. In light of these priorities--national security and 
fiscal responsibility--the House passed H.R. 1. It provides an 
increase to ICE operations above the current levels of $57.8 
million. H.R. 1 fully funds ICE agents and the minimum 33,400 
detention beds that Congress expects ICE to maintain this 
fiscal year. This Subcommittee has always put a priority on 
operations and the needs of frontline personnel, and H.R. 1 
continues to uphold that commitment.
    Turning to the FY12 request, I am pleased that your budget 
pledges to fully fund agents and the authorized minimum 
detention beds. However, as ICE continues to mature, we need to 
see that resources are responsibly applied to meet operational 
needs and deliver real results for security.
    The FY12 priorities raise longer-term issues about bed 
space utilization. The focus on criminal alien removal means 
longer average stays, and expansion of Secure Communities will 
put pressure on detention space. We need to understand the 
right resource level within this fiscally constrained 
environment to adequately support custody operations.
    The FY12 request also includes reductions that cause some 
concerns. I will be asking about the nearly $100 million in 
undefined professional services and administrative savings 
across operational accounts, as well as the $114.6 million cut 
from information technology that reduces modernization efforts 
by 85 percent. These so-called savings and reductions will 
likely reverse some of the progress ICE has made as an 
organization as well as impact operations.
    Director Morton, the American public demands 
straightforward answers on Immigration and Custom Enforcement 
efforts. Truth in budgeting, discipline, and transparency with 
respect to operational needs are essential in this fiscal 
climate, and this Subcommittee will demand no less.
    I do appreciate you appearing before the Subcommittee. I 
appreciate your candor in helping understand ICE's budget 
request for FY12.
    At this time I would like to recognize Mr. Price, who is 
the distinguished Ranking Member of this Subcommittee, for his 
opening remarks. Mr. Price.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                 Opening Remarks: Ranking Member Price

    Mr. Price. Thank you, Mr. Chairman.
    Today, I am happy to join you in welcoming back Assistant 
Secretary John Morton from the U.S. Immigration and Customs 
Enforcement, or ICE, to discuss his agency's $5.51 billion 
budget request for fiscal 2012. This is basically a ``current 
services'' budget, with a 1.4 percent increase from 2010, 
generally permitting the agency to operate at the same level 
from 2010 through 2012. But, Mr. Assistant Secretary, as with 
the rest of DHS, you have been asked to tighten your belt with 
regard to a number of your agency's programs.
    Since you have taken the leadership at ICE, I have enjoyed 
our good working relationship. I am pleased that we share the 
goal of focusing ICE's investigative and removal resources on 
the individuals who pose the greatest danger to our 
communities--gang members, drug traffickers, weapons smugglers, 
and other serious criminals.
    It was 4 years ago when this Subcommittee first brought 
attention to the large population of criminally convicted 
aliens who were being ignored by the previous administration in 
favor of low-level offenders. We enacted statutory language in 
ICE appropriations requiring ICE to devote a large portion of 
its enforcement budget to criminals. The results have been 
significant. ICE removals of criminal aliens rose by 12 percent 
in 2008, by 24 percent in 2009, and by 37 percent in 2010.
    Part of ICE's response to our directive was to establish 
the Secure Communities program. I have been impressed with the 
results of the rapid build-out of Secure Communities and 
support your request to increase the program's funding in 2012. 
The shift in removals from mostly non-criminals before your 
time to mostly criminals now has, in large part, been a result 
of this effort. Nonetheless, your implementation of the program 
can always improve, including the sharpness of your focus on 
the criminal population and your interaction with local 
authorities. I look forward to exploring that with you today.
    For years we have also pushed ICE to expand its 
Alternatives to Detention program, which allows ICE to keep 
track of low-risk individuals in the immigration court removal 
process. It is more humane, it is more cost-effective than 
penal detention for individuals who pose no danger to society. 
So I am pleased to see an increase in alternative to detention, 
however modest, which would allow thousands more individuals to 
be enrolled in this program. And while this does not have 2012 
monetary implications, I am pleased that ICE has implemented 
the detainee locater system, making it easier for people to 
locate someone detained or released from ICE custody.
    While these are areas I applaud, I have a number of 
concerns.
    First, despite some recent remarkable seizures of both bulk 
cash, narcotics, and weapons that ICE should be proud of, the 
power of the Mexican cartels is not significantly degraded. I 
am concerned that the budget does not request any new funds to 
dismantle drug trafficking and human smuggling operations along 
the Southwest border. I will reserve further comments and 
questions on this issue until the hearing we have next week 
specifically devoted to Southwest border enforcement.
    The budget also greatly reduces ICE automation programs by 
85 percent and eliminates funding for many critical activities 
such as the electronic health records and financial systems 
modernization. The 2012 budget eliminates all funding for 
construction activities and rescinds previously appropriated 
construction funds, leaving only a small amount of funds for 
emergency maintenance needs. If this means that we are 
deferring construction now only to accrue greater costs down 
the road, this course would be penny wise and pound foolish.
    Finally, the budget has no funding to expand the visa 
security units overseas, even though ICE is only operating in 
40 percent of the countries we have defined as high risk. As we 
learned from the Christmas Day bombing attempt 15 months ago, 
it is better to deny a visa overseas based on derogatory 
information than to have to stop an attack while it is 
occurring. So, Mr. Secretary, we will need to discuss this 
further, both to understand the pace at which ICE is expanding 
this program and what is delaying the establishment of the visa 
security units in more countries.
    Mr. Morton, we value the work ICE does day in and day out. 
Many of your personnel operate in very dangerous areas, as seen 
most recently when ICE Agent Zapata lost his life and another 
agent was seriously wounded at the hands of the drug cartels in 
Mexico. It is a tough job. I am glad we have a tough prosecutor 
like yourself at the agency's helm.
    We look forward to continuing to work with you to help you 
fulfill its mission, beginning with this review of your 
proposed budget.
    Thank you.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Aderholt. Thank you, Mr. Price.
    Again, Director Morton, we welcome you today. We turn it 
over now for your testimony for the FY 12 budget request.

              Opening Remarks: Assistant Secretary Morton

    Mr. Morton. Well, thank you very much, Chairman Aderholt, 
Ranking Member Price, members of the committee.
    I obviously appear before you today to talk about the 
President's proposed budget for fiscal year 2012.
    Let me start by recognizing and thanking you for the kind 
words about our special agents. As everyone here knows, two of 
them were stopped on a highway in San Luis Potosi in Mexico 
while driving between Monterey and Mexico City. Two cars of 
armed men forced them off the road and fired into their 
vehicle, killing Jaime Zapata and wounding Victor Avila. Our 
thoughts and prayers remain with Mr. Zapata's family and with 
Victor, who I am happy to report is making a remarkably speedy 
recovery, notwithstanding having been shot twice.
    While the investigation is ongoing, I note that Mexican law 
enforcement officials have arrested several individuals that 
they feel were involved in the shooting. This is welcome news; 
and I can tell you we will continue to work very, very closely 
with the Mexicans to see that justice in this particular case 
is swift and firm.
    Let me also note my condolences for the families who lost 
loved ones in Japan as a result of the earthquake and tsunami. 
We have searched the records both in Japan and in Hawaii; and 
all of our people are safe and accounted for, thankfully.
    Turning to the budget, let me note first how much I 
appreciate the bipartisan and consistent support we have had 
from the Subcommittee. Our enforcement efforts have steadily 
grown over the past few years, notwithstanding the fact that we 
are a relatively young agency, and this simply would not have 
been possible without the important appropriations we have 
received from the Congress.
    As the Chairman noted, we have become the second-largest 
criminal investigative agency in the entire Federal Government. 
We are the principal investigative arm of the Department of 
Homeland Security, and I look forward to working with the 
Committee to solidify these gains, and I commit myself and my 
staff to a relationship marked by professionalism and candor.
    The President has proposed an appropriated budget of $5.5 
billion, which is roughly an increase of slightly over 1.3 
percent, or $155 million, over our enacted 2010 budget.
    The emphasis of the budget is very simple. First, we seek 
to maintain full enforcement operations; second, we seek to 
fully fund our detention program at the levels previously 
directed by Congress; and, third, we seek to continue the 
expansion of Secure Communities so that we reach over 3,000 
jurisdictions by the end of the fiscal year, which will roughly 
be 96 percent of all the eligible jurisdictions in the United 
States.
    The main enhancements are $157 million for increased 
detention funding and $64 million for the expansion to Secure 
Communities. We are also seeking modest enhancements for data 
center consolidation and 2,500 more Alternatives to Detention 
positions.
    Recognizing the top-line fiscal constraints, our budget 
does recommend delaying facility consolidation plans, it does 
significantly reduce the scope of many of our automation 
initiatives, it eliminates construction projects and expenses 
to address only emergency health and safety requirements, and 
it identifies additional efficiencies of $100 million in 
management and administration costs. I know these are of 
concern to the Committee, and I look forward to discussing them 
with you. They are just hard but necessary causes. We seek to 
maintain enforcement operations and results while observing 
some fiscal restraint.
    So what are our enforcement priorities going to be for the 
coming fiscal year? The same as now: aggressive investigation 
of national security threats and cross-border crime, and smart, 
effective immigration enforcement.
    Let me just deal with each very quickly, starting with 
criminal investigations.
    We have become a very, very large investigative agency. We 
have 7,000 special agents posted in every single State of the 
Union and 47 foreign countries, including Mexico, where we will 
be increasing our staff to 40, making it by far the largest 
overseas office we have in the world.
    Through our agents, we investigate a wide variety of 
crimes. I think most people and the public have no idea how 
broad ICE's reach is, everything from the illegal smuggling of 
drugs and guns, money laundering, bulk cash smuggling, human 
smuggling and trafficking, child pornography, child sex tours 
and child labor, illegal exports of sensitive weaponry and 
technology, counterfeiting and piracy, and, of course, 
immigration visa and document frauds. We are going to stay 
focused on those things.
    With regard to immigration enforcement, we have over 6,000 
officers and 900 attorneys dedicated to the removal process. 
You will see a continued use of these resources to maintain our 
key priorities and keep focus on strong overall enforcement.
    To that end, I would note that we have removed more people 
in the last 2 years than in any similar period in our history. 
We also prosecuted more people for illegal reentry. We put more 
people on the border. We audited more companies than we ever 
have before. And I note that just last month we reached an 
important milestone of our 20,000th gang member or associate 
arrest. We will stay focused on the removal of criminal 
offenders and national security threats.
    Mr. Price is entirely correct. The agency through this 
Committee had its attention sharpened and focused on criminal 
offenders. It was the right thing to do, and we are going to 
continue to do that through the Secure Communities program.
    We are going to continue to focus on the removal of border 
violators. Our support of CBP and the Border Patrol in 
particular along the border is strong and increasing. And we 
are going to focus on people who game the system. If you come 
back here after being previously deported, you are a fugitive 
in the face of a final order, or you obtain your status by 
fraud, we are going to focus on you.
    Finally, we will continue our strong emphasis on work, site 
enforcement, focused on employer compliance.
    With that, let me thank you again for your support and 
welcome any questions that you may have. I will do the best to 
answer them with transparency and candor; and if I don't know 
something or need a detail to get back to you, I will tell you 
so.
    Thank you.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Aderholt. Thank you, Director.
    Before we start the questioning, let me say there is a 
chance that we could have votes this morning during the 
hearing, so we will move as quickly as possible through the 
first round of questions and then hope to get through a second 
one after that.

                              COST SAVINGS

    While the FY 12 request prioritizes agents and bed space 
needs, we still lack truth in budgeting. We need a responsible 
request from the Administration for operations with clear 
results and impacts. I know you have concerns about the 
reductions proposed: the approximately $100 million in 
undefined savings, cuts in information technology of $114 
million, and other reductions. Can you tell us, the 
Subcommittee, today how you plan to identify these savings and, 
given the reductions, how you will continue to provide your 
agents and officers with the tools they need to do the job?
    Mr. Morton. Mr. Chairman, we are going to do it primarily 
through two ways, our professional services contracts and our 
administrative activities, travel, supplies, conferences, with 
roughly about the same amount of money for each, $45 million 
for the professional services and $54 million for the 
administrative activities.
    We are going to go down program by program. We have a 
number of contracts where private contractors provide us 
administrative support. If we can do that more cost-effectively 
with Federal employees, either existing or new, we will do 
that. If there are some of these contracts that ultimately in 
the grand scheme of things are not critical, we will eliminate 
them.
    Then with regard to the administrative activities, we are 
just going to do some good old-fashioned belt tightening on 
travel, copying, conferences, printing, and the like. We have 
already done a fair amount of that this year. We have 
drastically reduced the number of conferences that we hold. We 
will look at video teleconferencing instead of in-person 
meetings.
    I don't want to suggest that this is easy. It is not. I 
appreciate the fact that these are very difficult budget times. 
These are hard calls. I know the Committee has concerns about 
them. I am more than willing to continue to work through them 
as the budget process unfolds. And all I can say is we are 
going to do the very best we can to identify the savings so we 
can maintain an emphasis on operations and detention budgeting.
    Mr. Aderholt. One thing that the Subcommittee would like to 
see is a detailed list of proposed reductions compared against 
what ICE currently spends on these activities to help us better 
understand where these savings would come from.
    Mr. Morton. Again, I think we can actually provide that for 
you, Mr. Chairman. Why don't I commit to doing so here, 
actually by program, the amount by program within the agency. 
We will give you a full list of what we are looking in each 
program to save and how we plan on saving it.
    Mr. Aderholt. Thank you.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                       DETENTION BED SPACE: COST

    Mr. Aderholt. Congress has provided every request that ICE 
has made for detention bed space. It is a significant 
investment, accounting for nearly $1.4 billion, or a quarter of 
ICE's total budget. As we discussed last week, ICE will meet 
the minimum authorized level of 33,400 beds in FY 11 if 
provided additional funds in H.R. 1.
    Fiscal year 2012 priorities raise longer-term issues about 
bed space utilization. The continued emphasis on criminal alien 
removal means longer stays, and expansion of Secure Communities 
will also put pressure on detention space. Let me say that we 
cannot go back to the days of catch and release. The gains that 
have been made in terms of border control and the integrity of 
the immigration system would be completely lost if we did.
    That brings me to your FY 12 request for bed space. Dollars 
are scarce in Washington these days, budgets are being cut, but 
I am proud to say that this budget request does not cut funds 
for illegal immigrant detention space. As Chairman of this 
Subcommittee, I pledge to you that we will fund every dollar 
needed to house and detain illegal immigrants in order to keep 
them off the streets. However, we can't do a penny more. It is 
incumbent on you, Director Morton, to ensure that these dollars 
are used wisely and that we get the most out of each and every 
dollar.
    I would ask you, what steps are being made to ensure that 
we are indeed getting the best possible security at the best 
possible cost? How are we going to get the most out of every 
bed space dollar while also meeting mission needs?
    Mr. Morton. Mr. Chairman, you have identified a very 
important management issue for us that we spent a lot of time 
on in the last 2 years. The truth of the matter is, we spend a 
lot of money on detaining people. It is an expensive prospect, 
and we operate an extraordinarily large system.
    One of the things we are trying to do in this budget is to 
fully meet what Congress has required us to do in the past and 
we have not met for a full fiscal year to date. Part of the 
problem was our original estimates that we provided to the 
Committee many years ago were not accurate, and that was the 
agency's fault. It cost us far more money to actually detain 
people than we were estimating at the time.
    So one of the first things that I did when I came into 
office, that we needed to have, to use your phrase, was truth 
in budgeting, and we figured out what does it really cost? So 
that has meant that we have identified a significant gap year 
after year in trying to meet our mandate of 33,400, and for the 
first time in this budget we tell you up front this is what it 
costs.
    Now, that said, we are always looking to save money, and 
there are a couple of ways we have been doing it and we can do 
it in the future.
    One, in past years, the agency entered into some contracts 
that, let me say, I don't think were the most sharply 
negotiated, and we have been steadily trying to get out of 
those contracts as they come up for renewal to get something 
that is a better value for the taxpayer. In many instances, we 
can find and use detention facilities that are not only an 
improvement over the facility we are using but we can do it at 
less cost. So that is an important part, and we are going to 
continue to do that as all of our various contracts turn over.
    The other thing that we can do is to be as efficient as we 
can in cycling people through the beds. The more we can reduce 
the length of stay in our beds, it is, in effect, an increase 
in the number of beds that we have available to us. So we can 
increase our bed space by either going out and getting more, or 
we can be more efficient with the bed space that we have.
    We are focused on that, trying to use the full authorities 
that we have under the statute to move people quickly where an 
administrative process is permissible, working on getting 
better travel documents. We have had a sustained problem with a 
number of foreign countries who are what we call recalcitrant 
countries, they don't take their citizens back in a timely 
manner, and that means that we have to detain people longer. We 
are working hard with the State Department to really start to 
push some of these countries who have been dragging their feet 
on giving us travel documents. Because it is a requirement, it 
is an international obligation for people to take their 
citizens back, and we shouldn't have to fuss around for 2 or 3 
months to get a travel document. And that really affects the 
amount of time that we spend in detention.
    Then we have a small but hard core number of people that we 
cannot remove that are so violent and so dangerous that we 
can't release them, and that is just--we are between a rock and 
a hard place on them. But that is a relatively small number.
    I completely agree with your sentiments. It is a work in 
progress. We are going to stay at it, and wherever we can 
identify inefficiencies so the taxpayer doesn't have to spend 
one more dollar but we can increase our enforcement operations, 
we will do it.
    Mr. Aderholt. Thank you.
    Mr. Price.
    Mr. Price. Thank you, Mr. Chairman.

                            CRIMINAL ALIENS

    Mr. Secretary, I would like to return to the question of 
identifying and removing criminal aliens. We have recalled how, 
over the past 4 years, this Subcommittee has pressed for as an 
emphasis for ICE the identification and removal of criminal 
aliens, and part of the response has been, the Secure 
Communities program, which we fully supported. Since 2008, 
resources have consistently grown for ICE to make progress in 
finding aliens in penal custody and removing them at the 
completion of their criminal sentence. I am pleased you are 
requesting these funds for growth, an additional $64 million. 
The program got off to something of a slow start, but you 
appear to be on track now for nationwide deployment by 2013. So 
there is much to tout, but I do have some concerns, and I would 
like to focus on these briefly today.
    I am sure you are well aware of the recent case of the 
suspected gang member who had been previously deported and was 
recently arrested then in Loudoun County, Virginia. But he 
wasn't flagged through the Secure Communities program. He was 
allowed back into the community, only to commit a heinous crime 
in neighboring Fairfax County. Secure Communities should have 
flagged him as someone who had been deported, and he should 
have remained jailed. However, fingerprints of many of the 
deportees that were obtained before 2005 were not taken 
electronically, as I understand, and therefore are not in the 
database. What is it going to take to fix this deficiency?
    Mr. Morton. You are exactly right in that particular case. 
And the challenge for us is that the recent fingerprints are 
all digital, but going back we have fingerprints, but they are 
not digitized. So what we have to do is steadily and 
aggressively go back and digitize all of the older print cards 
that have the fingerprints and get those into Secure 
Communities. Otherwise, you risk missing the identification.
    The other thing we have to do is work with our State and 
local partners to make sure they understand and we support 
clearly those instances in which there is what is called a no-
match, so that even where the fingerprints aren't a perfect 
match, if there is evidence of foreign birth or an unclear 
status, that they call us and we do a manual search to figure 
out what is going on. That didn't happen in this case and, as a 
result, the person fell through the cracks and, as you noted, 
went out and committed a serious crime.
    That case also highlights why it is important that Secure 
Communities identify all offenders. We need to have an emphasis 
on identifying and removing the serious offenders. But many 
people, as in this instance, come into the criminal justice 
system for a lower level offense and ultimately commit a more 
serious offense. We need to make sure that we are identifying 
all of the offenders and then using our resources appropriately 
in, as the committee has required, a thoughtful, ranked way.
    Mr. Price. What can you tell us about the pace of this 
digitization program and is that affected by the low-balling of 
your automation budget?
    Mr. Morton. I don't know the answer to that, so let me find 
out the answer and get back to the Committee with how many of 
the old records we go through each year and whether our present 
budget is sufficient to allow that or it hurts it in any way. I 
will let you know that.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                           SECURE COMMUNITIES

    Mr. Price. Now let me turn to another issue regarding 
Secure Communities. Advocates of targeted immigration 
enforcement have raised concerns, as you well know, in some 
cases that the goal of Secure Communities to identify and 
remove serious criminals, has not always resulted in the 
prioritization of serious criminals. ICE's own data shows that 
27 percent of the individuals removed after being identified 
through Secure Communities in fiscal 2010 had never been 
convicted of a crime, and in certain individual jurisdictions a 
majority of the people apprehended under the program had no 
criminal record.
    What can you tell us about your efforts to more effectively 
target enforcement where it really needs to be targeted, on the 
most dangerous people? What kind of management and oversight 
are in place to ensure that program outcomes are in line with 
the program's stated objectives?
    Mr. Morton. All right, let me address those in turn.
    First of all, we do prioritize by seriousness of offense, 
and we just last year reclassified the Secure Communities 
level. So Level 1 are aggravated felonies as defined by the 
Congress, Level 2 are all other felonies, and Level 3 are 
misdemeanors.
    The challenge for us is that we do identify and prioritize 
serious offenders. The question becomes what do we do with 
lesser offenders who are identified, and our position is, 
obviously, Federal law requires us to remove individuals, 
provided that resources permit it. So Secure Communities has 
allowed us to identify and remove more serious offenders than 
we ever have before in the history of the country, and that is 
going to continue as Secure Communities rolls out to more and 
more places.
    It has also identified a large number of lesser offenders, 
and that is because the single largest class of individuals 
convicted in the United States is, obviously, misdemeanors. 
That is the biggest pool that you would expect to be identified 
by a fingerprint program. So we do very much prioritize our 
efforts, but we also don't look away on other people who are 
referred to us. That is true with non-criminals. That is why we 
do in fact remove non-criminals through the Secure Communities 
program.
    But it is important to remember, first of all, you don't 
get into Secure Communities unless you are arrested for a 
criminal offense, and many of these people had a prior 
immigration history. For example, they had been previously 
deported, they had an outstanding deportation order, multiple 
criminal arrests. So we will receive and process for removal 
those individuals. We don't detain everybody, but we will focus 
on removal.
    Mr. Price. If I could interrupt you, my time is about to 
expire here, and I want to make sure that we address the 
question of local variation. It is troubling when the numbers 
we see in terms of these various categories vary a whole lot 
from community to community. Are you really making an adequate 
effort, do you think, to make sure that this program is 
executed in accordance with guidelines in local jurisdictions?
    Mr. Morton. You are absolutely right that that is something 
that we need to pay very serious attention to as we now move 
beyond the initial implementation where we were in 80 or 90 
jurisdictions to where by the end of this fiscal year we are 
going to be in 1,500 jurisdictions, half the jurisdictions of 
the United States. And we are very cognizant of the 
possibilities of local variation, whether benign or more 
sinister, and we feel that we have a responsibility to 
proactively look for variances that don't make sense.
    So what we are doing is we are going to run every quarter 
statistical analyses of all of the people who are identified 
and removed. We are going to work with civil rights and civil 
liberties--as a matter of fact, we are right now--to develop a 
program where we look at the results. If we need to go drill 
down to a case-by-case approach, we are going to do that. We 
are going to work with the Civil Rights Division in the 
Department of Justice so that we can be assured as we go out 
and roll this program out nationwide that the necessary 
oversight is in place. So we are working on that.
    I would be happy to lay out the specifics for you and your 
staff, if you would like.
    Mr. Price. Thank you, sir.
    Mr. Aderholt. Mr. Frelinghuysen.
    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    Director, I note your Scotch roots.
    Mr. Morton. Thank you.
    Mr. Frelinghuysen. I have some, shall we say, Mexico-
centric questions, and let me preface the questions by saying 
Mexico is a great ally. It is among our largest trading 
partners.
    I would like you to tell the Committee more about our 
largest overseas office there. There certainly are parts of 
Mexico which seem to be in a fairly chaotic state with drug 
cartels dominating the landscape.

                        U.S.-MEXICO COOPERATION

    I would like to hear from you how you interact with your 
counterparts in Mexico. I am not unfamiliar with programs like 
Operation Phalanx, but, given all the things that we hear about 
drug mules, gunrunning, and human trafficking, how do you 
interact with your Mexican counterparts? And since this is the 
Appropriations Committee, you obviously are concentrating more 
resources into Mexico. That must be done at perhaps the expense 
of other things.
    Mr. Morton. It is without question a challenging 
environment from a law enforcement perspective, and there is a 
strong correlation between the organized crime cases we 
investigate along the Southwest border and what is going on in 
Mexico. In practice, most of our investigations along the 
Southwest border have a Mexican component to them.
    Mr. Frelinghuysen. Let me just say for the record, too, we 
obviously have a number of U.S. citizens who are very proud of 
their Mexican heritage and, obviously, a reputation for hard 
work. So I am sure everybody watches what happens with a state 
of alarm.
    Mr. Morton. So we have agents, special agents, assigned to 
Mexico. What they are there to do is to coordinate with Mexican 
law enforcement, in particular the Federal police, the Federal 
Attorney General's office, and the Customs officials, to pursue 
criminal investigations, to help Mexican authorities with 
criminal investigations in Mexico and then to assist us with 
some on our side and increasingly to explore doing joint 
investigations. We also work a lot on capacity building and 
training.
    It is a work in progress. The one thing that has changed 
dramatically is our ability to talk frankly with our Mexican 
counterparts. Even our conversations of 5 years ago were very, 
very different. You have seen a level of candor in Mexico on 
corruption issues, on the need to build up their capacities and 
experience. So we are trying very hard to do that.
    I don't want to suggest that the light is at the end of the 
tunnel. It is a tough row to hoe. But we are making significant 
progress in particularly going after a number of the cartel 
leaders. We have helped Mexico to bring their first human 
trafficking cases ever, and ICE did that with them. We showed 
them how to do that, provided some investigative support.
    We are going to start working with the Mexicans to identify 
the international smuggling organizations that bring people not 
just from Mexico but from many other places through Mexico to 
the United States. The more we can do to apprehend and 
intercept and disrupt in Mexico means far fewer people for the 
Border Patrol to have to try to catch at the border. So we are 
working hard on that.
    We are doubling down in Mexico. We are going to go from 20 
people to 40 people, as I mentioned. It will be by far our 
largest office. And working very closely with DEA, we are just 
going to keep going after it hammer and tong.
    Mr. Frelinghuysen. Lastly, you share resources with the 
DEA, FBI, and other Department of Justice agencies, so it is 
not just you. It is a combined effort of a lot of different 
agencies.

                        VETTING OF COUNTERPARTS

    Mr. Morton. Very much so. The DEA has a significant 
presence. ICE is the next largest. FBI is there. CBP is there. 
The one thing about ICE is our jurisdiction is so broad that we 
end up partnering with just about all of the law enforcement 
agencies down there. So we are doing drug work, we are doing 
money work, we are doing JTTF work.
    Mr. Frelinghuysen. Lastly, since my time is almost up, 
there is a vetting issue. Can you talk about that? We can't 
assume always that our counterparts, your counterparts are who 
they are.
    Mr. Morton. That is right.
    Mr. Frelinghuysen. There are some investigations?
    Mr. Morton. That is right. So we typically operate, and we 
do in Mexico, through what are called vetted units. So we work 
with Mexican officials to establish trusted units of Mexican 
law enforcement authorities that we work with. We do the same 
in Colombia and Ecuador and many of the other Central American 
countries. We have eight vetted units, and we are going to try 
to add four more. Panama. They are very successful.
    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    Mr. Aderholt. Thank you, Mr. Frelinghuysen.
    Mr. Olver.
    Mr. Olver. Thank you, Mr. Chairman.

                     DETENTION BED SPACE: SPECIFICS

    Director Morton, this is the first time I have had the 
opportunity to serve on this Committee, so my questions will 
probably be very rudimentary but also some impressions.
    I have been a bit surprised by the sense of body counts as 
very important in the comments that have been made by members 
of the Subcommittee and by you in your testimony. On the 
detention beds, this budget is fully funded for 2012 for 33,400 
beds?
    Mr. Morton. Per day, on an average, per day.
    Mr. Olver. How many are funded in 2011? How much of an 
increase is that for 2012?
    Mr. Morton. The way it works is that the Committee for the 
last few years has directed the agency to maintain a minimum 
level of 33,400 beds. For a whole host of reasons, which good 
people can agree and disagree on, the agency has been unable to 
actually meet that figure.
    Mr. Olver. What is it this year?
    Mr. Morton. This year, for the first time, we are meeting 
through the first two quarters the detention mandate. Last 
year, we only maintained an average of a little over 30,000.
    Mr. Olver. Last year it was 30,000.
    Mr. Morton. That is right.
    Mr. Olver. So there is no increase in the proposed budget.
    Mr. Morton. We are trying to meet our obligation.
    Mr. Olver. That answers something. I was thinking to 
myself, are these owned or are these contracted, and are they 
1-year or long-term contracts or what?
    Mr. Morton. It is a mix. We have over 250 different 
facilities that we use. They fall into three categories. There 
are government-owned facilities, a very small number; there are 
contract facilities run by private contractors; and then there 
are facilities that are run by State and local authorities, and 
we rent space in those.
    The challenge for us is our population is very diverse, so 
we have to detain everybody from women, non-criminals, to very, 
very serious violent offenders like a penal institution. So we 
need a wide variety of facilities, and obviously we have a 
national reach. We have to be able to detain people throughout 
the United States. We are trying to reduce the number. We have 
taken it from over 300 to 250. But we still run a very large 
system.
    Mr. Olver. You have already told me you are not funding any 
more, but you were below, even though this was your sort of 
mandated capacities earlier. I was going to say, if you are 
opening more, filling--any more are included, then next year 
the question is likely to be, well, why didn't you fill them 
all? Maybe that is a question that it was thought to be funded 
for that full number earlier. Maybe you have already suffered 
from that kind of a problem.

                           REMOVAL OPERATIONS

    Let me go on to a slightly different thing then. Your 
testimony points out that the two major core operational 
programs are enforcement and removal operations, and 
``removal'' strikes me as a wonderful euphemism for 
deportation, which you have no problem using. And in all of 
your testimony you use deportation. It seems like deportation 
is the word. Other euphemisms might be termination or re-
termination or something like that. I don't know. Or 
extermination, you know.
    The two programs--I note that the two core programs, 
enforcement and removal operations and the Homeland Security 
investigations, I was puzzled, the Homeland Security 
investigations in its body count arrests 55,000 individuals, 
including 34,000 criminal arrests, and then 20,000 
administrative arrests, 21,000 administrative arrests. Now, are 
both of these core functions using these detention facilities, 
or is it only the removal operations that are using the 
detention facilities?
    Mr. Morton. They both use them. Our detention power is 
limited to the administrative arrests. So all of the ERO 
arrests that are administrative----
    Mr. Olver. Your detention power is limited?
    Mr. Morton. Limited. We only have civil detention power. We 
do not have penal power. So, unlike the Bureau of Prisons, we 
don't incarcerate people. We detain them.
    Mr. Olver. Are criminal arrests then housed in the Bureau 
of Prisons?
    Mr. Morton. In the Bureau of Prisons or the Marshals 
Service. That is right.
    Mr. Olver. So what about the administrative arrests? Are 
those civil?
    Mr. Morton. They are all civil.
    Mr. Olver. They would be involved in the detentions?
    Mr. Morton. So we do all of the civil detentions. So we run 
a uniquely civil detention system. Now, we house a lot of 
people with criminal records in them, but the reason they are 
in the detention bed is because we are trying to remove them 
from the United States, which is a civil not a criminal 
process.
    Mr. Olver. So what happens to the criminal arrests? So 
those are not in your budget? Those are in Federal prison's 
budget?
    Mr. Morton. The arresting piece. But the budget, no, that 
is either the Marshals Service for the pretrial detention or 
the Bureau of Prisons for incarceration.
    Mr. Olver. Is my time up?
    Mr. Aderholt. Yes, it is.
    Mr. Olver. I have only started, Mr. Chairman.
    Mr. Aderholt. Mr. Carter.

                             AGENTS KILLED

    Mr. Olver. Because I don't know very much.
    Mr. Carter. Thank you, Mr. Chairman.
    The two agents that were killed, that made the paper, one 
killed and one seriously injured in San Luis Potosi--first, I 
would note that San Luis Potosi is not a border town. San Luis 
Potosi is probably closer to Mexico City than it is to the 
border. They were both unarmed by order of the Mexican 
Government. I am very familiar with how harsh the Mexicans are 
on bringing guns into their country and I understand that is 
their policy.
    But it concerns me. You have just told us that you have 
added substantially more unarmed agents into the Mexico City 
office working with the folks down there. I can understand 
Mexico's government, their gun policies, because they date back 
to the revolution. But the reality is you are putting people in 
a serious harm's way unarmed who come from a country where they 
are trained to do the appropriate response when attacked.
    And San Luis Potosi is out of the war zone--and I am going 
to call the border the war zone--out of the war zone 
substantially, and yet the war is continuing south and no 
telling where it is going to stop. We all know that. We can see 
it moving in that direction, and we are just praying to God in 
Texas that it doesn't move north.
    So shouldn't you make a risk assessment where you would be 
able to argue that agents should be armed and try to negotiate 
arms for them? Are other agents of the Federal Government, like 
the FBI and the DEA, going into Mexico unarmed? That is my 
question.
    Then, finally, a story told to me by my friend Mr. 
Culberson, who normally sits right next to me, was that there 
was an ambush. This may be a Border Patrol question; it may not 
be an ICE operation. There was an ambush in Arizona where they 
issued shotguns with beanbags in them to the agents. Of course, 
the ambush was effective. The officer raised up with his 
beanbag gun and fired a round, and all of a sudden all hell 
broke loose and the guy shot back with real guns and the result 
was that two men were killed.
    Now, that seems like a really strange policy to me; and I 
would like you to address that policy.
    Mr. Morton. Let me start with the last question. That was a 
CBP case, not an ICE case. That was Border Patrol Agent Terry 
who was killed. I don't know all of the details of that 
particular case, but I do know that the Border Patrol's policy 
on the use of force is the same as ours, and they were carrying 
guns and were authorized to use their firearms if they felt 
their lives are in danger. They can skip the beanbags.
    But to give you a deeper answer, I would refer you to the 
Border Patrol on that one.
    On the other one, let me say this, on the question of 
security and the doubling of our agents. We have been doing a 
very in-depth security assessment. We are very cognizant of the 
fact that we are sending people into a place that is dangerous, 
and we are taking a number of security steps.
    What I would ask, Mr. Carter, is maybe if I could come and 
talk to you outside of the hearing room on some of what we are 
doing and thinking.
    Mr. Carter. I would be glad to.

                               RE-ENTRIES

    If I have still got time, the question about the Virginia 
case, do you have any concept of how many re-entries by violent 
criminals you are experiencing after they are deported, 
resulting in things like the Virginia case? We are a long way 
from the border here. We are a lot closer where I live.
    Mr. Morton. I don't. Let me see if we can get some hard 
numbers for you.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Morton. I will tell you, it is a real problem. Re-entry 
is a big problem, not just with people that we deport with no 
criminal records but, obviously, criminal offenders that we 
deport and come back. And given the rate of recidivism in this 
country, which is about 60 to 70 percent, you can do the math, 
and we are talking about more crimes in communities.
    We prosecuted over 7,000 people last year for re-entry, 
which is the largest number we have ever done, and the vast 
majority of those are criminals. All I can say on it is it is a 
big problem. I share your concern on it. We do everything we 
can to identify them. And it is why, again, in some instances, 
we will learn of somebody who doesn't have a criminal record. 
But if they are here after having previously been deported, the 
law is very clear on that, that you reinstate the removal 
order. You don't get another hearing. You are removed. That is 
our obligation, and we are going to do that.
    Mr. Carter. Thank you very much.
    Mr. Aderholt. Mr. Dent.
    Mr. Dent. Thank you, Chairman, and good morning, Director 
Morton.
    A couple things. In your written testimony, you said that 
ICE has increased the average daily detention population by 40 
percent while increasing annual criminal arrest also by 1,200. 
Again, I applaud you and your officers for their diligence.

                            SANCTUARY CITIES

    My main concern is about this issue of sanctuary cities. 
Last year during a hearing with the Committee on Homeland 
Security on which I served at the time, I had a dialogue with 
an ICE official on this topic. Mr. James Dinkins acknowledged 
that the lack of cooperation by sanctuary cities can be 
challenging for Federal agencies and does come at a cost when 
ICE experiences difficulties building a criminal case against 
an alien. Sir, is it fair to say that there are a variety of 
metropolitan areas across the United States that can be labeled 
sanctuary cities?
    Mr. Morton. First of all, on sanctuary cities, obviously, I 
don't support the idea. I will say that there is a wide variety 
of cities that are known to have or said to have sanctuary 
policies. There is a wide range. There are some that have 
official laws or ordinances on the books that restrict 
communication with ICE or cooperation with ICE and others it is 
more in the area of policy. It can be challenging for us in 
some jurisdictions.
    I will say that as we have increasingly focused on our 
criminal investigative efforts and gang work, we have generally 
been able to work through it. But it is something we deal with.

                  FEDERAL IMMIGRATION LAW ENFORCEMENT

    Mr. Dent. I guess I get particularly disturbed by this 
because, on the one hand, the Justice Department is suing the 
State of Arizona for assisting with the enforcement of Federal 
immigration law and, on the other hand, we have communities out 
there that are discouraging or dissuading local law enforcement 
from cooperating. And that would have to be a real challenge to 
your men and women who are trying to enforce the law. You need 
their help, do you not?
    Mr. Morton. We very much look to State and local 
coordination and cooperation as a critical part of what we do. 
We don't demand or require of any State and local law 
enforcement agency that they actually enforce Federal 
immigration law. If they want to work with us, that is welcome 
and we try to do that wherever we can. What we don't want is to 
have actual interference.
    Mr. Dent. You have a 287(g) program where you will train 
people.
    Mr. Morton. Yes, sir.
    Mr. Dent. I just think it is very disturbing to me, though, 
as you are trying to do your job, your men and women, you are 
not getting the collaboration and cooperation you need from 
some communities.
    On the issue of removal, the last time I checked, there 
were about eight countries that are causing us some problems 
with deportation. I think we have valid deportation orders 
against, the last I checked, over 150,000 people, but their 
home countries will not repatriate their citizens. I think 
those countries are China, India, Vietnam, Iran, Somalia, 
Jamaica, Eritrea, and I am probably forgetting one.
    Have we made any progress with these countries in terms of 
repatriating their citizens who have been through due process, 
it is time for them to go home?
    Mr. Morton. We have made some progress. I don't think I 
would call it complete progress. So we have reduced the delays 
in some of those instances, but they are still far too long, 
from my perspective.
    What I can tell you on that is we are really working hard 
with the State Department. We have seen demarches to some of 
those countries. I am going to be starting to get in the car 
and going to visit the ambassadors from those countries here in 
the United States, and we are just going to keep ratcheting the 
pressure. It is a real challenge. It has afflicted the system 
for decades.
    Mr. Dent. The only thing that is going to get their 
attention is you hold up visas from those countries. That will 
help settle it. That is where I think you have to apply the 
pressure point, and I have legislation on that subject.
    Also, the Federal prison population, what percentage of our 
Federal prison population today is criminal aliens? It was a 
very high percentage, again last time I checked.
    Mr. Morton. I don't know the exact percentage, but there 
are about--we estimate there is about 2 million criminal 
offenders in the United States who are removable, either 
because----
    Mr. Dent. Is that Federal and State?
    Mr. Morton. That is the entire population, yes, sir. I 
could try to break it out for you by Federal and State, but 
that is the entire.
    Mr. Dent. I had seen numbers as high as 20 percent in some 
cases of our State and Federal prison population being criminal 
aliens. I am not saying they are all here illegally. But where 
do they rank in the pecking order in terms of removal? I 
suspect they are near the top.
    Mr. Morton. Very high, very high. And it depends on the 
State, and it depends on the jurisdiction, the percentage in a 
given--you know, California, for example, the percentage will 
be much higher than if you are, say, in North Dakota. But we 
have that information if you are interested and are happy to 
give it to you.
    Mr. Dent. My time is expired. Thank you.
    Mr. Aderholt. Thank you, Mr. Dent.
    Ms. Roybal-Allard.
    Ms. Roybal-Allard. Thank you, Mr. Chairman.
    And I apologize for being late, but I have another hearing 
going on at the same time.

                        INSPECTOR GENERAL REPORT

    Mr. Morton, two recent reports by the DHS Office of the 
Inspector General have actually validated concerns raised by 
myself and the Congressional Hispanic Caucus and immigration 
advocates about the 287(g) program. The IG report found that 
the program lacks transparency, effective management controls, 
and proper oversight.
    The first report in March of 2010 was highly critical of 
the program and offered 33 recommendations to improve it. The 
October report provided an additional 16 recommendations and 
indicated that 28 of the original 33 still have not been 
implemented.
    What is preventing the agency from implementing the 28 
original recommendations that remain and the 16 subsequent 
recommendations? And also if you could answer as part of your 
question, given the seriousness of the IG finding, shouldn't 
you refrain from signing new agreements until these 
recommendations are implemented and these safeguards put in 
place, especially the proper oversight?
    Mr. Morton. You are right. The Inspector General issued two 
reports that were critical of our oversight and management of 
our 287(g) agreements. Many of the ``open'' recommendations 
from the Inspector General actually were agreed on, and it is 
just a matter of closing them out, just a few things that we 
need to do with the Inspector General.
    And so I think if you were to check with the Inspector 
General, we are down to about 10 truly outstanding issues that 
we are working through, and I don't anticipate those to remain 
open for long either. We have accepted many of--in fact, all of 
the recommendations. We have created an advisory board. Civil 
rights and civil liberties is on our advisory board now for 
287(g).
    Training, we have a much stronger oversight program, as you 
know. The Secretary directed that the program have a narrower 
focus for the task force. We have gone to a uniform memorandum 
of agreement with all of the 287(g) partners, and we had them 
all sign again. All of this has been done since the Inspector 
General report as an ongoing effort to improve our training. 
Our 287(g) agreements have remained stable, and we have had 
about 70 the entire time. There hasn't been an increase since 
then.

                       ALTERNATIVES TO DETENTION

    Ms. Roybal-Allard. After years of raising concerns, I was 
very pleased that your agency is moving forward to reform our 
immigration detention system. However, I remain concerned that 
you have made limited progress in implementing the alternatives 
to detention, which is a proven supervision and monitoring 
program for vulnerable immigrants, such as pregnant women, the 
elderly and the sick. As your budget request acknowledges, 
alternatives to detention is also cost-effective relative to 
traditional detention. What is the timeline for instituting 
your planned detention reforms, and what factors have prevented 
ICE from implementing alternatives to detention nationwide for 
these vulnerable detainees, who pose no threat to society?
    Mr. Morton. So our detention reforms are ongoing, and lots 
of things have been done. Many of the things that were in your 
bill, as a matter of fact, we have been able to address 
administratively. We have the online detainee locator system. 
We have begun a full overhaul of the medical care that we 
provide. We are moving to a new medical record system. We have 
two working groups for the advocacy communities. We have 
detention monitors in all of our major facilities, and you are 
just going to see a steady march to a design that is much more 
reflective of the diverse population that we have. There are 
some challenges that remain.
    Our reforms are subject to negotiation with our union, and 
the union has expressed some objections to the new standards 
and procedures that we want to implement. And so that is a 
matter that we need to negotiate with the union, and we are 
trying to do that. And with regard to ATD, as you can see, we 
are requesting that the Congress allow us to increase that by 
another 2,500 spots, so that would bring us to 19,500 per day, 
which is quite a large number.

                EXECUTIVE OFFICE FOR IMMIGRATION REVIEW

    The real challenge for us on ATD is that it is cost-
effective on a daily basis. But because the Executive Office 
for Immigration Review does not have an expedited docket right 
now for ATD, they treat it as if they were a nondetained case. 
The cases take a long, long time, and it actually ends up being 
cheaper when people are in detention because they will move 
much more quickly. We have two pilot programs, one in Baltimore 
and one in Miami, with EOIR.
    I think if we can prove that that works and expand it, you 
will see ATD really work the way I think we all intend it to. 
We are not quite there, but we are getting there.
    Ms. Roybal-Allard. Okay. Thank you.
    Mr. Aderholt. This Subcommittee recognizes that court 
dockets and availability of judges to hear cases can slow 
deportation proceedings in progress. Does the Administration's 
fiscal year 2012 request provide for enough immigration law 
judges to hear the case, the cases ICE is bringing forward?
    Mr. Morton. I do not know the specifics of EOIR's 2012 
budget request. There are 270 immigration judges on average. 
You are right that EOIR resources is a critical factor on how 
quickly we can hear cases and remove them.
    I would need to go back, Mr. Chairman, and see what it 
includes. I am a strong supporter of additional resources for 
EOIR. But as you have just noted, it is one of the most central 
factors in whether or not we can move cases quickly. The 
nondetained docket in particular has an enormous number of 
cases on it for a very few number of judges to handle. It has 
been a problem for many, many decades. But I can't comment on 
the specifics yet because I just don't know them.
    Mr. Aderholt. Do you know, and this is I think just as 
equally important, do you coordinate your operations with the 
Department of Justice to prevent these blockages in the 
systems?
    Mr. Morton. We work very closely with EOIR. They are very 
supportive of a number of our efforts. We have done much better 
in the last 2 years with them than we had traditionally done. 
We have encouraged them to place a greater focus on the 
detained docket, which is the one docket that does move quite 
quickly. And they have agreed to work with us on that. They do 
do video teleconferencing with us. We have explored stipulated 
removals in having quicker dockets for cases that really aren't 
contested. The nondetained docket remains a challenge. It is 
just the sheer volume of cases in the system is enormous. And 
then when you couple that with people who can appeal their case 
all the way to the Supreme Court, the nondetained docket can 
take many years for an individual case to become final.
    Mr. Aderholt. So there would be some indication there 
probably could be some more administrative law judges, but you 
are going to get with us on that and get the information to us.
    Mr. Morton. Yes. Let me see how many the Department of 
Justice is requesting.
    [The information follows:]

    Response. In FY 2012, DOJ is requesting $11,039,000 for EOIR to 
support DHS enforcement programs, most notably a high priority 
enforcement initiative currently expanding nationwide by ICE/DHS: 
Secure Communities. EOIR's 125-position increase includes 21 
immigration judges, 10 BIA staff attorneys and related immigration 
court and BIA legal support staff.

                 ADMINISTRATIVE VIOLATIONS AND REMOVAL

    Mr. Aderholt. The administration has very publicly asserted 
its immigration enforcement focus on criminal alien 
identification and removal. I strongly support this priority, 
but of course, many members of this Committee and many 
Americans, including myself, have concerns about ignored 
administrative violations.
    My understanding, the past 2 years, administrative arrests 
associated with just worksite enforcement have dropped by 80 
percent. In a worksite enforcement context, processing illegal 
aliens has uncovered fraudulent document rings and organized 
crime.
    And we cannot forget that several of the 9/11 hijackers 
were visa overstays, which were, of course, merely 
administrative violations. Finally, these individuals are 
taking jobs and breaking the law. How does letting them go 
impact the morale of immigration enforcement personnel and 
Americans in search of jobs in this current economy?
    Mr. Morton. A couple of things on that, Mr. Chairman.
    We don't let people go, and we did remove over 1,200 people 
that we encountered in worksite enforcement operations. What 
you have seen there is we did have a shift from the very large 
worksite enforcement operations that were focused on 
identifying and removing unauthorized workers at say large 
meat-packing plants to a focus on our part to really trying to 
create a culture of compliance in the employer community, and 
it is just a different approach.
    With regard to the overall or to the question of whether or 
not we are removing noncriminals, we are. We have, last year, 
removed 197,000 noncriminals. And while we have increased the 
percentage of criminals and our emphasis on criminals, we 
continue to remove noncriminals. We are, and as the numbers 
suggest, at quite a significant rate. The Committee for the 
last few years, and I completely support this, has directed 
that, you know, in the context of limited resources that we 
focus first and foremost on criminal offenders.
    I like to look at it this way, we are appropriated enough 
resources to remove about 380,000 people, and the question for 
all of us is, who are those people going to be in a world of 
limited resources? And so we start with criminal offenders, 
border cases that CBP brings us and people who game the system.
    Mr. Aderholt. Well, I think we agree that when employers 
violate the law, they need to be held accountable, but 
employees, I think, need to be held accountable as well. And I 
think the Subcommittee believes it is very important and would 
like to see a focus on that.
    Mr. Price.
    Mr. Price. Thank you, Mr. Chairman.
    Mr. Secretary, I apologize for having to run back and forth 
between two hearings this morning, but I understand in my 
absence you began to get into the subject of alternatives to 
detention, and I want to probe that further. We know it is a 
very economical and effective alternative to holding a low-risk 
individual in detention. The absconder rate is quite low, and 
the per-day costs are as low as $7 a day, compared to $122 a 
day in detention.
    Now, I understand that you have begun to explain how the 
courts treat these cases, are more likely to delay these cases, 
so those cost differences are somewhat obscure, but 
nonetheless, that is a very striking difference.

                       ALTERNATIVES TO DETENTION

    I wonder if alternatives to detention is being used 
optimally. I know you are proposing 2,500 new participants; 
that is good. But there may be another issue at play here. 
Beginning in 2010, Congress included statutory language in the 
Homeland Security Appropriations Act requiring ICE to maintain 
an average daily detention capacity of at least 33,400 beds. 
Now, I have never been a big proponent of this provision. And 
in an environment of fiscal restraint, I wonder more and more 
if we should be telling a Federal agency that they are not 
permitted to spend less than a certain amount. In this case, we 
are talking about $2 billion annually for immigration detention 
beds. That is a third of your budget. Your budget assumes 
continuing this level of detention. So I am wondering if in 
blindly adhering to keeping over 33,000 people daily in costly 
penal detention, whether we are missing a real opportunity to 
make wider use of alternatives to detention, to save some 
money, to engage in better enforcement practice. After all, of 
the 197,000 noncriminals deported by ICE in 2010, only 8.6 
percent were placed in alternatives to detention. That is 
17,000 people out of 197,000. Does that figure suggest we are 
fully utilizing alternatives to detention among noncriminal 
aliens? That is what we are talking about.
    It just stands to reason, I think, that more than the 8.6 
percent of noncriminals in custody would be eligible based on 
ICE's own criteria for alternatives to detention. How would you 
respond to that and also how do you feel about this statutory 
provision. Is it really wise to maintain a statute requiring 
you to keep 33,400 beds in play?
    Mr. Morton. On alternatives to detention, I will tell you 
that I don't think the agency has met the full promise of ATD 
for a variety of reasons, many of them are out of the control 
of the agency. But just to start by saying, I agree with you 
that there is a promise of ATD that has yet to be fully 
realized. A couple of challenges. In the past, we were using 
ATD not unreasonably to monitor some serious offenders who 
weren't otherwise removable.
    And that was a reasonable, but not the originally, intended 
use of ATD in many instances, and so we have shifted that to 
the original intent. The big challenge we face with ATD is 
that, as you note, it is cost effective on a per-day basis, and 
in many instances, it leads to a high rate of compliance. And 
again, we are talking noncriminals. It doesn't help with the 
public safety issue, but it does help with the risk of flight 
issue.
    The challenge for us is that right now, those cases go on 
the nondetained docket, and over time, the cost greatly 
exceeds. And we have two pilots, as I mentioned earlier, in 
Miami and in Baltimore, where EOIR is going to treat the ATD 
docket on an expedited basis, similar to the detained docket. 
If we can move to that model more nationally, I think we will 
start to see the savings that you recognize, the promise of ATD 
being realized in full.
    As you can tell from this budget, we are not waiting on 
that; we are asking for $2,500 more, and this is, you know, we 
are $19,500 per day. This is, again, not for the year. So we 
are moving in the right direction. There is no question that we 
can do more and make it more efficient. It holds great promise. 
We are going to do that.
    With regard to the detention mandate, of course, I never 
want to quibble with the wisdom of the Appropriations 
Committees in past years, and there has been generous 
appropriation. We are not in a situation where obviously the 
Committee has appropriated more money to us in the detention 
world than we can spend. For reasons that we mentioned before, 
the agency didn't provide the Committee with a particularly 
honest assessment of what it cost.
    You know, our focus here this year is just trying to meet, 
once and for all, in an honest way, the mandate that the 
Committee has put on us, and that is what we are trying to do.
    Mr. Price. Thank you.
    Mr. Aderholt. Mr. Carter.
    Mr. Carter. Thank you.

                               RE-ENTRIES

    Director Morton, I really appreciate your job. I have a 
bunch of questions, but I will ask as fast as I can. On the 
situation of the Virginia scripture we had from Mr. Price, 
where a convicted offender, who had been deported from our 
country, reentered our country and committed another offense. 
Would you support enhanced punishment for those convicted 
offenders who reenter and commit another crime? As a former 
prosecutor at the Federal level, if they commit a Federal 
crime, would potential punishment be enhanced with the second 
conviction?
    Mr. Morton. I would certainly support, both in terms of 
repeat offenders, that the guidelines, the sentencing 
guidelines, recognizing that if you are back again and 
committing crimes, it is time for a more serious sentence.
    Federal law does provide for a separate offense now, 
Federal offense, that is independent of the second crime of 
illegal reentry. And that is why we are really trying to 
prosecute those aggressively with regard to criminal offenders 
that we remove and come back. And gang members is a big 
problem. We have a lot of gang members that we remove, they 
come back, and they don't go to a life of pursuing further 
education and honest work, but back to a life of crime, and so 
we really try to focus on them. And you know, my view is, if 
you are back again and you are committing more felonies, it is 
time for a little more serious sentence.

                INTENSIVE SUPERVISION APPEARANCE PROGRAM

    Mr. Carter. With regard to the discussion of the Intensive 
Supervision Appearance Program that you have given, from my 
experience, I support the use of monitors and so forth. I think 
it is a good use of money, and the appropriate people have been 
placed on those things as appropriate. I would argue it may not 
be appropriate for a violent offender. I think that should be a 
decision that should be made by a judge or somebody that makes 
those decisions.

                              JURISDICTION

    And that brings up another question. I was visiting with a 
Federal judge down on the border down at Del Rio about the 
issue that some courts are so overwhelmed and other courts 
actually have space to do these things. I tried to write a 
venue law, but she explained to me it is not a venue law, but 
rather a jurisdictional issue. It is not a jurisdictional 
issue; it is a venue issue, because being in the United States 
is not against the law, being in the United States without 
papers is not against the law, but crossing the border is 
against the law. So unless you catch them crossing, it is not a 
crime. And once you catch them inside the country, they are 
locked into that venue. And we would have to--that would have 
to become a crime in order to change venues.
    Do you have any comment on that particular issue to meet 
what the chairman was talking about, the fact that we have 
overloaded courts in one place and have other courts that could 
help?
    Mr. Morton. I think you have accurately identified the 
problem. The way the illegal entry and crime is written, you 
know, oftentimes the government has to bring the case in the 
place where the illegal entry occurred, which of course is 
going to be over and over again four States along the Southwest 
border. And those states----
    Mr. Carter. And a smart criminal defendant can say, ``oh, I 
crossed in Laredo, knowing that that court is so backlogged'' 
that it could be literally years and years before he ever gets 
reached.
    Mr. Morton. Or even in the instance where there is no 
evidence of how the person, where they came in, and the 
government--you know, I came in the country illegally. Well, 
where? And the government has to try to figure out where to 
cross the border and where to bring the case. It is a 
challenge.
    Mr. Carter. I would like to work on that. Thank you.
    Mr. Aderholt. Mr. Olver.
    Mr. Olver. Thank you, Mr. Chairman.
    I am still stuck on page 1 of your testimony. I am still 
thinking about the 34,000 criminal arrests. Is my understanding 
now from what has been said earlier and then from what Mr. Dent 
talked with you about correct, that these criminal arrests must 
be detained in your operations until there is a conviction, I 
take it, and a sentencing? Or do they immediately go into some 
sort of holding pattern that is under the Department of Justice 
under the Federal prisons arrangement?
    Mr. Morton. It is very complicated. So the first thing I 
would say is I would be happy to come by and help you better 
understand who we are, what we do and how we do it and what the 
law is, because the Immigration and Nationality Act is a little 
bit like the Tax Code.
    Mr. Olver. All right. I will accept that. The end of that 
question was, I was wondering whether those people who go 
through Federal prisons end up being disproportionately the 
people who some of these countries that don't want to take back 
their citizens, do they fall into that category?
    Mr. Morton. So for the people that go through Federal 
prison for a Federal offense, first, they are detained by the 
Marshals.
    Mr. Olver. They have to go back to you for deportation?
    Mr. Morton. Absolutely right. And so they come back.
    Mr. Olver. But when you are trying to deport them, the 
country of origin knows that they were criminally detained?
    Mr. Morton. Sometimes they know, sometimes they don't. It 
is more a problem of just general recalcitrants to take their 
people back. And there are a number of countries that just drag 
their feet with regard to taking their people back.

                           REMOVAL OPERATIONS

    Mr. Olver. Okay. Well, let me just go to another question. 
I think I still have about 3 minutes. I have three offices, and 
I have case workers in each of those offices. And I have more 
than a handful, there are probably fewer than 500 handfuls, or 
100 handfuls, 500 cases each year, of families who have been 
caught up in the so-called removal process. And it often 
involves a man or a woman with a U.S. citizen who is a spouse 
and maybe some children who are U.S. citizens in the process, 
maybe not, where the U.S. citizen is trying to adjust for the 
spouse. And I get cases where it is very easy that that gets 
arranged and then, at the other end, where there is an almost 
summary deportation. And it ultimately often leads then to a 
divorce because they can't get back together again easily, 
particularly if there are some children involved.
    Could you give me some idea why it is that there is such a 
disparity? This is an anecdotal finding. I would have to go 
through all my cases and actually total up this sort of 
situation, what it is that makes some of them get that 
adjustment easily and some become a summary deportation.
    Mr. Morton. The answer is it is going to depend on the 
person's background and the relationship that they are seeking 
to use to adjust their status, whether it is an employment-
based, a family-based relationship.
    Mr. Olver. I have defined all persons who are married to an 
American U.S. spouse.
    Mr. Morton. If they are immediate relatives, then it really 
is, do they have a criminal [record] or not, those kind of 
things; are there going to be any adverse factors? If your 
question is really about whether or not--because the actual 
adjustment is handled either by the immigration courts or the 
citizenship and immigration services. We don't do benefits. We 
are the enforcement arm. We do grant deferred action on a case-
by-case basis. And it may be that some of the cases you are 
referring to we deferred action on; we agreed to exercise 
administrative grace. And others, based on the circumstances, 
we proceeded to removal.
    Mr. Olver. Do you have to wait, for instance, after a 
wedding, a marriage, if there are no children involved, yes, 
there may already be, but do you have to wait some particular 
period before the U.S. citizen can then vouch for the spouse 
for a green card that leads to citizenship?
    Mr. Morton. No. If you are married, you apply for the 
benefit. And I will say, we have a policy, and I should follow 
up with you and your staff. Our policy is if you are in removal 
proceedings and you have a pending application for which you 
are eligible, you will ultimately receive adjustment. We 
terminate proceedings in those cases.
    Mr. Olver. There is really one case where we had 
documentation for the application for the green card, and they 
were summarily departed.
    Mr. Morton. If you have cases like that, I would like to 
follow up with you on them. Because our policy is if you are 
going to be granted a benefit and you are going to become a 
lawful permanent resident, we terminate proceedings.
    Mr. Aderholt. Ms. Roybal-Allard.
    Ms. Roybal-Allard. I just want to point out, I have had 
similar concerns.

                     SECURE COMMUNITIES: PROFILING

    Mr. Morton, I understand that Secure Communities, which is 
the program intended to identify and report felons and 
dangerous individuals in our country illegally, has been 
addressed earlier in a question. But I do want to highlight one 
concern, and that is that there are many who are concerned 
about the fact that the program is resulting in racial 
profiling and contributing to individuals not reporting crimes 
or helping law enforcement. And I know that that is a big 
concern of the Los Angeles Police Department and other 
departments in my area.
    But I want to give one example of victims of crimes not 
reporting these crimes because of this program. It is my 
understanding that Safe Horizons, which is New York's largest 
provider of services to battered women, has begun advising its 
undocumented clients not to report abuse to police for fear 
that they will be deported through the Secure Communities 
program. Because sometimes--there was one instance where a 
woman called because she was being beaten, and because they 
needed her to help translate, they took them both in. And they 
booked both the victim and the person who was committing the 
crime.
    So my question is, what are you doing or what can be done 
to address the concern, not only about racial profiling but 
with regards to victims that are afraid to report crimes, 
particularly those who are victims of domestic violence?
    Mr. Morton. So, two things, and I will reiterate a few 
things that I said before. I totally recognize the concern on 
racial profiling. We are instituting a whole series of 
analytical steps working with the Office of Civil Rights and 
Civil Liberties, the CRCL at DHS, inviting them to literally be 
part of the analysis with us so that we can root out and 
identify any jurisdictions that are misusing Secure 
Communities.
    With regard to the DV issue, it is again a concern we are 
very much aware of. I will in the coming weeks be working on a 
policy to address exactly this issue, particularly in those 
States that do what is called dual arrest; they arrest 
everybody first without trying to identify who is the victim 
and who is the perpetrator, and so they both come in to our 
custody. And we are going to try to address that specifically 
with a policy to make sure that we are not scooping up victims 
inappropriately. The challenge for us is, obviously, we have 
got to be careful not to ignore the perpetrators, because 
often, if they are let go, very bad things happen, as you know, 
in some of these domestic violence cases, serious violent 
crimes, even death.
    We have a fine line to walk there, but we have zero 
interest obviously in a victim who reports a crime suddenly 
getting scooped up because the local police just say, well, we 
will arrest both people and figure it out later. It is a 
problem, and we are going to have a specific policy on it.
    Ms. Roybal-Allard. Okay. I look forward to that. Thank you.

                             BIOMETRIC EXIT

    Mr. Aderholt. As you are aware, the fiscal year 2012 
request proposes to rescind $25 million that had been for 
biometric exit. The remaining $25 million is proposed to reduce 
the analysis backlog of potential overstays so more cases can 
be referred to ICE. Is this something you support?
    Mr. Morton. The biometric exit function is not at ICE, 
although we depend on the references from it. I need to look, I 
think it must be in the US-VISIT part of the budget that that 
happens. I will tell you right now I don't think that, as I 
understand it, the rescission would be for the future vision of 
having mandatory exit control. I don't think if that were 
rescinded, it would affect our immediate operations. We would 
continue to get referrals from US-VISIT based on the passenger 
data from the airlines as to who is not showing up for their 
return flight. It, obviously, would have some, will have an 
effect on whether or not we have entry and exit controls in 
this country.
    Again, it is not my particular area of expertise, so I will 
just say that the creation of a full exit program for every 
port of entry, including the land borders, is obviously a very 
challenging one, and it is not easy. But let me--I don't know 
enough about the specific rescission at US-VISIT to answer that 
properly, and I don't want to steer you wrong.
    Mr. Aderholt. Well, it would leave no money to actually do 
biometric exit, and that is the point I want to make. Let me 
quickly, we have got a vote on the floor, but let me go ahead 
and call on Mr. Price.

                          VISA SECURITY UNITS

    Mr. Price. Thank you, Mr. Chairman.
    I will be quick, and you may want to elaborate for the 
record, but I signaled in my opening statement that I do want 
to talk with you about visa security units. They are located at 
U.S. consulates overseas. They vet the background of people 
applying for U.S. Visas. ICE/VSUs use a broader range of 
databases than the State Department uses or perhaps can use to 
review the backgrounds of visa applicants.
    Currently, there are 19 of the 46 high-risk countries with 
VSUs. This figure increased by four after the attempted 
Christmas Day bombing a year ago. But there is no additional 
funding in the 2012 budget request for more VSUs. The $30 
million requested only funds those that are already 
established.
    You also, I am sure, recall that in the past, ICE has had 
difficulty in establishing additional VSUs at some embassies. 
For example, London told ICE that DHS already had ``too many 
people at the embassy to justify a VSU there.'' We remember 
that episode with some puzzlement.
    So, Mr. Secretary, in the time we have here, can you just 
summarize the value added by these visa security units that 
State Department employees cannot provide? I am not sure I 
understand that precisely. What is it that these units are 
adding that the State Department cannot provide? And then given 
this edge, aren't you concerned that we have these units only 
in 40 percent of the countries that your own agency has labeled 
high risk?
    Mr. Morton. So I am a big supporter of the VSU program. 
That there isn't additional money in this budget is simply a 
reflection of the hard calls we had to make, and so it 
shouldn't be taken as any indication of a lack of support on my 
part for the basic concept.
    The reason they are effective, as you note, Mr. Price, we 
have access to certain databases that the State Department 
doesn't have access, so we are able to do a much fuller run. 
Plus, a lot of these cases really dig down, it is not just a 
question of running the computer, you have got to get out of 
the office and go down to the local courthouse in these foreign 
countries and see, is this person really married? Does this 
relationship really exist? Or we send an agent out to--they are 
going to go and claim that they are going to visit this 
particular address in the United States that doesn't seem to 
exist. You know, send an agent out and check on that place; 
take a picture. We are able to do that in a way that obviously 
the consular officers are not. They are under a lot of pressure 
to move, for very good reason, the visa process along and not 
have unnecessary delays in getting lawful visitors to the 
United States. So that is where I am. I would love to see, as 
future budgets allow, continued expansion. I think it is a good 
program.
    Mr. Price. Thank you, sir.
    Thank you, Mr. Chairman.
    Mr. Aderholt. Thank you, Mr. Price.
    Director Morton, thank you for your attendance here today 
and for discussing the fiscal year 2012 request. We look 
forward to working with you and look forward to you getting 
back with us on some of the requests that we mentioned in the 
questioning this morning. Thank you.
    Mr. Morton. I thank you very much. I will just say a big 
thank you to your staff. You know, I deal with lots of 
committees. The professionalism and just sort of straight 
shooting that we have had from the staff over the years has 
been great; not to say that you always agree with us and don't 
beat up on us sometimes, but that is part of the process.
    And I also want to note that when Mr. Price was the 
Chairman, he was an absolute gentleman with us. Again, not that 
he didn't disagree sometimes with what we were doing.
    And you know, Mr. Aderholt, you seem to be very much in the 
same vein and so I appreciate that.
    We will try to be open and direct with you. If you have 
concerns, please let us know earlier on rather than later. We 
want to try to get this right. Thank you.
    Mr. Aderholt. Thank you very much.

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                         Wednesday, March 15, 2011.

                 TRANSPORTATION SECURITY ADMINISTRATION

                                WITNESS

JOHN PISTOLE, ADMINISTRATOR, TRANSPORTATION SECURITY ADMINISTRATION

                  Opening Statement: Chairman Aderholt

    Mr. Aderholt. Good morning. Today we welcome John Pistole, 
Administrator of the Transportation Security Administration, 
for his first appearance before this Subcommittee.
    Today we will examine the President's fiscal year 2012 
budget to fund TSA in its mission to protect our transportation 
systems from threat, sabotage, and other acts of violence, and 
help ensure the free flow of travelers and commerce. Mr. 
Administrator, we thank you for being here today, and we look 
forward to hearing your testimony.
    This year, TSA will observe its tenth anniversary, a decade 
marked by rapid change, a measure of success, and a few false 
starts. Additionally, driven by the need to close gaps in 
aviation security following the 9/11 attacks, TSA grew rapidly 
into an organization of over 60,000 personnel, most of them 
performing screening at airport security checkpoints, 
previously a job for airports and airlines.
    Today, TSA's large and diverse workforce includes 
inspectors and Federal Air Marshals, who travel extensively to 
ensure security of flights and aviation and the aviation 
systems, and specialists dedicated to surface transportation 
security. I know TSA's workforce strives to be conscientious 
and enterprising, and we acknowledge their hard work and 
commitment to keeping traveling safe and secure.
    However, the other side of the workforce is to ensure the 
right mix of staff and technology at checkpoints and throughout 
the travel environment. TSA must restrain its appetite for 
solving problems by adding personnel and increasing operation 
cost. Instead, TSA's challenge in the foreseeable future is to 
recognize the highest degree of security at the lowest possible 
cost. It is a duty each Federal agency, even those with vital 
security missions, must embrace.
    New security threats from overseas pushed TSA and its 
sister agencies into the headlines last year to include 
explosives concealed in a traveler's underwear and in printer 
cartridges intended to blow up an aircraft over Chicago. 
Regrettably, TSA's progress in addressing these daunting 
challenges is undercut by budgetary sleight of hand of the 
Fiscal Year 2012 budget request.
    Once again, TSA is proposing a hypothetical offset, $590 
million, through a proposed, but not enacted, increase in 
passenger fees that the authorizing committee has unequivocally 
rejected.
    We are eager to hear you explain how TSA can keep programs 
whole, let alone take on new initiatives with such a large 
budgetary albatross, over 10 percent of your budget.
    Administrator Pistole, in this time of fiscal crisis, the 
first thing we need from the Administration is truth in 
budgeting. Budget gimmicks do not cut it. In addition to 
discussing your options under this budgetary handicap, we 
expect to learn about the progress in TSA's major efforts to 
streamline and reinvent the security process for aviation 
security in the wake of new threats.
    You shared with the American Bar Association recently your 
vision of a more risk-based approach to screening passengers 
rather than the current one-size-fits-all. As TSA, like all 
other government agencies, faces leaner times, should 
reinventing the passenger security model be given more 
immediate consideration?
    Your major acquisition of a passenger screening system 
depends on having automated target recognition technology in 
place, which in turn will affect the size and mix of TSA's 
screening workforce. But this technology is still undergoing 
testing.
    Mr. Administrator, we expect to hear today how your 
investment plan will get results. We need to know how to make 
TSA systems more efficient and more reliable, with a better mix 
of technology and manpower. I look forward to a productive 
relationship as we work together to get the balance right, to 
have the right number of transportation security professionals, 
the right tools and technology, helping to keep Americans and 
all others who use our system safe and secure.
    Your written statement will be placed in the record, so I 
would ask you to take five minutes or so and just summarize 
your comments to the subcommittee. But before we go to you, I 
would like to recognize Mr. Price, who is the distinguished 
ranking member of this subcommittee, for any opening comments 
he would like to make.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                Opening Statement: Ranking Member Price

    Mr. Price. Thank you, Mr. Chairman. Welcome, Administrator 
Pistole, to your first appearance before this Subcommittee to 
present your budget request for fiscal year 2012. You have been 
serving as Administrator now for about nine months, at a time 
when the aviation sector continues to be a prize target for Al 
Qaeda and other extremists.
    The Christmas Day 2009 and Times Square attempted bombings 
occurred before you were head of TSA, but you had recently 
taken the helm when the attempted bombings of cargo aircraft 
occurred last October. So I know you had felt firsthand the 
pressure of these ever-evolving threats. Your agency is the 
last line of defense for our aviation sector, and while 
significant improvements have been made, the high threat 
environment we face makes very plain the need to close any 
critical gaps that remain.
    I know you share the view that effective security is smart 
security, and that we should be in the business of managing 
risk rather than trying to do the impossible by seeking to 
eliminate risk or holding out the illusion that we can do so. 
Our aviation security model has improved over the years, but it 
remains very cumbersome, and in the view of many, rather 
invasive. There are few signs of that system changing based on 
the 2012 budget, but I am encouraged by the willingness you 
have expressed on numerous occasions to consider ways to reform 
the system to be more risk-based in the future.
    The 2012 request, which totals $8.1 billion overall, 
includes $460 million above the fiscal year 2010 level to 
secure our nation's airports and flights and to protect other 
modes of transportation. This request continues activities that 
were ramped up after the Christmas Day bombing attempt.
    I am pleased to see additional funding to detect non-
metallic threats with advanced imaging technology machines, 
which we anticipate will include a new feature to automatically 
recognize threats instead of relying on screeners to look at a 
person's body outline. This should enhance privacy and 
hopefully speed up the time passengers spend at the checkpoint.
    I am also pleased to note additional funding for other 
technologies at the checkpoint, such as portable explosive 
trace machines, so that we can more rapidly detect potential 
threats. The budget request also includes funds to expand watch 
list vetting to make sure that we are catching persons who may 
want to do us harm before they board an airplane.
    And finally, I am pleased to note an expansion of the 
visible intermodal protection and response systems called VIPR, 
which supplement security on local passenger rail and mass 
transit systems, and also support special events.
    I also want to register some concerns about your request. 
For example, funding for air cargo security declines in 2012, 
even though TSA has been asked to take on greater 
responsibilities after the attempted air cargo bombing plot out 
of Yemen last fall, and indeed to expedite the deadline by two 
years for screening all international cargo carried on 
passenger aircraft. And I understand you intend to do just 
that, to move that deadline ahead two years. Where is the 
budget match-up for that? We need to understand that.
    The budget request also appears to rehash a substantial 
request first proposed in 2011 for additional behavior 
detection officers. Until we can understand what changes you 
have made to address critical vulnerabilities raised by the 
National Academy of Sciences and the GAO about the behavior 
detection program, it may be premature to grow this program by 
roughly 10 percent.
    And finally, while the budget request increases funding for 
the Federal Air Marshals, your agency has still not addressed 
questions this Subcommittee posed almost 18 months ago about 
what the appropriate staffing levels are. What is the rationale 
for this or that staffing level? We received a report on this 
mandate, but it was simply inadequate.
    Mr. Administrator, I want to thank you for your service to 
the country. We look forward to continuing to work with you to 
ensure our transportation security professionals are equipped 
with the resources they need to keep the American people safe. 
As we begin to more closely examine your fiscal year 2012 
budget, it is important to note that no program or account will 
be off limits to scrutiny. Our obligation is to take a 
balanced, realistic approach, to weigh risks carefully, and to 
make prudent investments. I know you share that point of view, 
and I look forward to your testimony. Thank you.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Aderholt. Thank you, Mr. Price. At this time, 
Administrator Pistole, we look forward to your comments before 
the subcommittee.

                Opening Statement: Administrator Pistole

    Mr. Pistole. Well, thank you, Chairman Aderholt and Ranking 
Member Price, and distinguished members of the committee. There 
have been a couple of references made to the threats that we 
are dealing with, and I would just like to start my opening 
statement with a context for that threat environment, given my 
background in the FBI and now at TSA.
    I start every day with a threat briefing and intelligence 
briefing as to what foreign intelligence and law enforcement 
services are collecting in terms of information and 
intelligence that may be actionable for us here in the U.S. or 
for all those last points of departure for passengers or cargo 
coming to the U.S. So it is within that context that I present 
this Fiscal Year 2012 budget request.
    A couple of references have been made to the Christmas Day 
attack, the Yemen cargo plot. The one I would add is the 
assassination attempt against Muhammad bin Nayef, the Saudi 
Minister of Interior, Deputy Minister of Interior, basically 
the equivalent of the Homeland Security Secretary and FBI 
Director in one.
    The common theme is the same bomb maker in each of these 
three instances, as you know from your classified briefs. What 
we are facing is a determined, creative, innovative enemy who 
is always trying to come up with the next type of improvised 
explosive device that will defeat our current security measures 
because we have not forecast or done enough in that regard to 
try to identify what those threats are.
    Obviously, the Yemen cargo plot was one of the best 
examples I have ever seen in terms of intelligence that is 
tactical, not just strategic. The strategic intelligence we 
know is that Al Qaeda, particularly in the Arabian peninsula, 
wants to hurt us. But when we have tactical intelligence, where 
we have tracking numbers of packages identified, that is 
exactly the type of information we are looking for as one part 
of the U.S. Government's continuum of national security.
    So again, that is the context that we are looking at. So 
our Fiscal Year 2012 budget request is for $8.1 billion, and it 
is, as you mentioned, some $460 million above our 2010 enacted 
level. Of that increase, $301 million supports critical 
security enhancements that we intend to implement this year, 
which enjoyed bipartisan support of the subcommittee and our 
Senate Approps Subcommittee last year. And I want to thank the 
committee for your strong support, for giving us the 
opportunity to pursue those initiatives, which include 
expanding our AIT passenger screening capability, 100 
additional canine teams for screening passengers for 
explosives, build greater international security program and 
intelligence sharing, and sustaining our FAMS international and 
domestic flight coverage.
    So new initiatives in Fiscal Year 2012 total $166 million, 
and these new initiatives basically allow us to continue to 
build upon the existing programs by adding capacity or new 
capabilities. I also ask for your support for our $82 million 
request for the addition of 275 AIT, advanced imaging 
technology, units. This will continue to add to our capability 
to screen passengers with those non-metallic devices, as we saw 
on 12/25. I believe the AIT has been proven safe, and that the 
steps we are taking now with automated target recognition 
completely address the privacy issues that have been raised.
    Our request also includes a requested increase of $21.9 
million to add 350 behavior detection officers to improve the 
coverage of our tech points as we try to expand to more of a 
risk-based intelligence-driven process. And to improve our 
visible intermodal prevention response program, we are asking 
for an additional $26.8 million to add 12 new teams to operate 
across the transportation systems and increase our partnership 
efforts.
    Our secure flight program has been successfully implemented 
and forms part of the daily intel brief that I receive, helping 
inform judgments and operational decisions as to what we need 
to be doing with flights that are departing from our 453 
airports, and particularly as it relates to FAM coverage on 
those flights.
    I am also requesting an additional $12.3 million to sustain 
our expanded enhanced terrorist watch list vetting, which also 
figures in to the newer risk-based intelligence driven 
processes that I mentioned. These new enhancements represent a 
modest increase in the resources we have programmed for our 
mission, and I am looking to apply the resources we have to 
best achieve that mission, recognizing the budget constraints 
and issues that we all are dealing with, particularly in these 
weeks right now.
    So we need to protect against the tactics that the 
terrorists have used in the past, but shame on us if we do not 
do some forecasting, some intelligence predictions about what 
types of devices the terrorists may use in the future. And so 
that is why we are working with our partners throughout the 
intelligence and law enforcement communities, both here in the 
U.S. and overseas to try to make sure we have the latest 
intelligence, that we can inform our judgments as we take steps 
to mitigate risk. And that word mitigate is important because, 
as has been mentioned, we are not in the process or the 
business of eliminating risk. We will never eliminate risk 
unless we stop air travel or train travel, just like we do not 
eliminate car accidents unless you stop driving.
    So we are in the risk mitigation business, and I think we 
can do a number of things that are even budget neutral, even 
this year, that will advance that risk-based intelligence 
driven process of mitigating risk. So we are always looking for 
ways to improve, and I appreciate the subcommittee's support 
for what we have done thus far and as we move forward.
    Let me just touch briefly, before I close then, on things 
that we will look at doing in terms of this risk-based 
approach. One is we have a great number of passengers who would 
be willing to share additional information about themselves in 
exchange for the possibility of streamlined screening. And so 
just as we have done with pilots who we do more of an identity-
based screening for them now, because they are in charge of the 
aircraft, that type of approach I believe can also apply to 
those very frequent travelers who we know a lot about.
    And so there are a number of iterations of this, but I 
would refer to it as a known traveler program, people who are 
willing to share information with us so that we can make a 
better assessment of what type of risk they may pose. And so 
benefits they may receive as a result of that sharing of 
information may result in streamlined processing and screening, 
such as not having to take shoes off. Maybe you do not have to 
take your jacket off. Maybe you do not have to take your laptop 
off.
    Additional information that we can use also using 
information we already have about what the aircraft is, the 
type of aircraft, the wide body, the regional jet. Do we have 
FAM coverage? All those things can go into an assessment of 
what type of screening we should do. And that is on the 
passenger side.
    We are also working very closely with our international 
partners and domestically here on the whole cargo issue, 
particularly following the Yemen cargo plot. So with the 
support of this committee between 2005 and 2010, we have been 
able to field new security technology, introduce new procedures 
of protocols, and eliminate over 7,000 people from mechanical 
checkpoint operations, and invested in behavior detection, 
violent appraisal officers, document checkers, and targeted 
security operations.
    So I would like to take that type of thinking along with 
the risk-based intelligence thinking that I outlined to work 
with the committee as we move forward. So with that, thank you. 
I look forward to your questions.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                         COLLECTIVE BARGAINING

    Mr. Aderholt. Thank you, Mr. Administrator. Again, we 
appreciate you are willing to come today and to speak before 
our subcommittee. I am going to go out of order. Ms. Lowey, I 
understand, has a subcommittee hearing shortly. So I am willing 
to take her out of order. So, Ms. Lowey, let me call on you for 
the first round of questions.
    Mrs. Lowey. Thank you, Mr. Chairman and Mr. Ranking Member 
for your indulgence, and thank you, Mr. Administrator. I am 
sorry. There are three hearings at the same time this morning.
    First, I want to commend you for recognizing the benefits 
of giving the TSA workforce a seat at the table by providing 
limited collective bargaining rights for transportation 
security officers. With your 26-year record with the FBI, I 
think anyone who opposes this decision will be hard pressed to 
question you on the grounds of security, given your 
credentials.
    I would also ask for unanimous consent to enter into the 
record a statement from NTEU regarding workplace rights at TSA.
    Mrs. Lowey. What are the security benefits, Mr. 
Administrator, associated with collective bargaining rights at 
TSA? Do you believe travelers will encounter a more 
professional workforce as a result? And when do you expect to 
implement this initiative?
    Mr. Pistole. To answer your first question, Madame, the 
decision that I made, the determination on collective 
bargaining, the vote on that started last week and runs through 
April 19th. And, of course, it is simply giving them the 
option, the ability to vote on whether they want collective 
bargaining. So some of the benefits I see from that are because 
the enabling legislation, the Aviation 2nd Transportation 
Security Act, gave the Administrator broad discretion as to 
those issues that would be subject to collective bargaining--
you are right in describing this as a limited type--it focuses 
primarily on those workplace issues that I have heard 
frustration from TSOs, transportation security officers, around 
the country, things like bidding on shifts and uniform issues, 
and some inconsistency across the country in those regards.
    And so what I want to see is not being distracted by those 
issues, but being able to focus on the security issue that the 
TSA was created for. And so by doing that, if the security 
officers vote to have a collective bargaining unit, just at the 
national level, not all the different local units and things, I 
believe we can achieve some greater professionalism and greater 
consistency in how we go about doing our jobs.

                             SECURE FLIGHT

    Mrs. Lowey. Well, thank you. And your testimony discusses 
Secure Flight program, which since Fiscal Year 2002 has cost 
taxpayers more than $437 million. With Secure Flight now 
operational, are you confident that both CBP and TSA are in a 
position to prevent another Abdul Mutallab-like incident, in 
which a flagged individual was successful in boarding a U.S. 
bound flight?
    Mr. Pistole. So one of the keys to the Secure Flight 
construct is that somebody is nominated to be on the terrorist 
watch list. And, of course, with Abdulmutallab, even though 
there are different pieces of information, he was not nominated 
until after the fact. And so even though CBP was planning to 
interview him when he landed in Detroit, it was an after-the-
fact approach.
    So under Secure Flight, if somebody has been identified by 
an intelligence or law enforcement agency, is nominated and put 
on the watch list properly, then Secure Flight will definitely 
address that issue, as long as there is a positive 
identification made. And because it requires name, date of 
birth, and gender, there should be a positive identification 
made, assuming the person is not traveling under a false name, 
documents, and that has not been identified.

                      ADVANCED IMAGING TECHNOLOGY

    Mrs. Lowey. Thank you. And lastly, I just want to say I 
strongly support TSA's increased deployment of advanced imaging 
technology machines, and frankly think the Administration 
needed to be more publicly supportive of your efforts in the 
last part of 2010. And your testimony discusses providing AIT 
machines at more than half the checkpoints nationwide.
    While high-volume airports such as Kennedy, Laguardia, and 
National have AIT machines, they are not at every checkpoint, 
or in the case of Kennedy at every terminal. So I hope during 
this hearing, although unfortunately I have to go, you could 
share with us your progress to ensure that every terminal, if 
not every checkpoint, at our most-traveled airports operate 
with the latest technology. I think I have about 30 seconds, if 
you can answer quickly. Thank you.
    Mr. Pistole. Yes. [Laughter].
    Mrs. Lowey. That is so generous.
    Mr. Pistole. I was looking for a clock.
    Mr. Aderholt. You have still got 40 seconds.
    Mrs. Lowey. Forty seconds? Okay.
    Mr. Pistole. So obviously, the goal is to use AIT in those 
most heavily trafficked areas that can identify those who would 
pose a risk, either those who are here and going home, or those 
who are here and just traveling, but those who may pose a 
threat. So the goal is to put it in the category X, the largest 
airports, and then those that have the configuration and the 
space available without significant cost of reconfiguring. So 
it is a risk-based approach.
    Mrs. Lowey. Well, thank you very much for your leadership. 
Thank you, Mr. Chairman.

                         AVIATION SECURITY FEES

    Mr. Aderholt. Your budget request: same proposal, new 
passenger fees. I alluded to that in my opening remarks. Of 
course, that has been rejected by previous Congresses, 
Republican, Democrat alike. Enactment of these fees is in the 
jurisdiction of authorizing subcommittees and committees. And 
Homeland Security Committee Chairman King from New York has 
publicly stated he opposes the fee.
    How will TSA make up for the $590 million fee revenue gap 
if it is not enacted?
    Mr. Pistole. Thank you, Mr. Chairman. Obviously, we are 
hopeful that it will be, and I know the Secretary is engaged 
with the authorizers in looking for that support from the 
standpoint of recognizing that there has not been a fee 
increase since 2002. And as part of the budget issues that 
Congress is dealing with now and the American people, it makes 
sense from my perspective to have those using the service help 
pay for the benefits of that.
    So using that as a starting point, I think it is an 
important objective to try to pursue. And again, I am very 
hopeful.
    Now, to your question, obviously, if that is not enacted, 
then it will be a significant challenge for TSA, if it all came 
from TSA, to do many of the things that I think the American 
people hope and expect us to do in terms of providing the best 
possible security on a daily basis for those who are traveling, 
particularly by air. I think there would be a broader 
discussion, obviously within the department and probably within 
the Administration, as to where those funds should come from to 
address what are the highest priorities.

                      ADVANCED IMAGING TECHNOLOGY

    Mr. Aderholt. Your budget proposes $76 million for 510 new 
TSA screens and 200 additional AIT systems that Mrs. Lowey 
referred to with automated targeting recognition. But just one 
system is now being tested. These will put you on track to cut 
in half the number of screeners needed to operate AIT. Will TSA 
certify and deploy these new AIT systems this year, and will 
this reduce the number of TSOs required for checkpoint 
screening?
    Mr. Pistole. So we have either completed or are nearing 
completion of three tests in airports in Las Vegas, Atlanta, 
and Reagan National for the automatic target recognition 
software that is being used. The hope and belief is that given 
the success of those trials that we have seen thus far, that we 
would convert all the existing AIT machines under that 
construct to the ATR still this year.
    That being said, we would also hope that the other 
manufacturer--and I believe the other manufacturer of the AIT, 
which has not yet finished their conversion, and we have not 
yet lab tested or field tested, that that would also happen for 
deployment next year as we go into 2012.
    So as it gets to your question, we would still need the 
TSOs to address what we believe will be the conversion this 
year, and the additional 500 AITs that we would hope to still 
obtain this year, and the additional 275 that we would look for 
in the fiscal year 2012 budget.
    Mr. Aderholt. Given the current tight budget assumptions, 
and going back again to that $590 million in proposed fee 
revenues, will you have to delay the acquisition and deployment 
of these new screening systems, and will this reduce your 
ability to meet savings and performance targeting expected in 
the automated screening process?
    Mr. Pistole. So again we would hope to still not only 
convert the existing 240 or so AITs that would have the ATR 
capability this year, but also acquire some of the additional 
AITs as soon as possible, and then at the end of the fiscal 
year to acquire the additional ones that we would deploy then 
in 2012.

                        TRUSTED TRAVELER PROGRAM

    Mr. Aderholt. You had mentioned in your opening statement, 
and also you have made public statements, to talk a little bit 
about more of a risk-based approach. In one interview, and then 
you referred to it this morning, that ideally you could set up 
three different lanes for travelers at checkpoints by risk 
categories, ranging from trusted travelers, frequent travelers, 
and infrequent travelers.
    Talk a little bit about that design process and how you are 
including and blending human technology in the process elements 
all together.
    Mr. Pistole. Okay. So there are really two aspects. One is 
using information already available to us, such as Secure 
Flight, or information that frequent travelers--I like to refer 
to them as known travelers, those who would be willing to share 
additional information about themselves, perhaps what is in 
their frequent flyer account, if they are willing to share that 
with us. That gives us a much better understanding of who the 
traveler is. And the more we know about the traveler, the 
better judgment and assessment we can make as to whether they 
pose a high, medium, low, or almost no risk to that particular 
flight.
    That coupled with information we know about the aircraft, 
whether it is a wide body, a regional jet, is there Federal Air 
Marshal coverage, a number of things like that--are there 
people on the terrorist watch list who are selectees on those 
flights? Those are all things that we can use to help make 
better judgments as to what type of screening each individual 
should receive.
    That being said, it becomes a question then of if there 
are, for example, the three lanes that you mentioned, that 
becomes the implementation phase, if you will. So we may have a 
lot of information about a person. Depending on what airport 
that person is traveling through, there may or may not be an 
option for that, just based on the physical layout of the 
checkpoints and the real estate available that the airport has 
to provide. So the smaller the airport, the more of a challenge 
that becomes.
    So we are looking at several different options in that 
regard. But the bottom line is, it would not necessarily be a 
fee-based program. In fact, it would likely not be a fee-based 
program in its final iteration. There are programs such as 
Global Entry that Customs and Border Protection uses to 
facilitate people reentering the U.S., and that can be a 
baseline that could be used. They have already shared 
information with the U.S. Government. They want some benefit. 
But under this construct, it would not be a right that would be 
afforded an individual. It would be a likelihood, perhaps even 
a high likelihood, that they would receive some type of 
streamlined processing screening at a checkpoint.
    So whether there is a dedicated lane or not would really 
depend on the airport configuration.

                  ADVANCED IMAGING TECHNOLOGY: SAFETY

    Mr. Aderholt. Before I go on to Mr. Price, let me just ask 
you about the safety of the AIT screening technology and 
confirm to the subcommittee about that, there is no threat that 
these pose. And could you talk a little bit about that?
    Mr. Pistole. Sure. There have been a number of issues 
raised with the advanced imaging technology, in particular the 
type that is called the backscatter machine, because it does 
emit radiation. There have been a number of tests that have 
been done and studies done over the years, whether it is the 
Food and Drug Administration, the National Institute of 
Standards and Technology, the Johns Hopkins School of Applied 
Physics, just to name three, that have done assessments that 
have found the AIT to be not only safe, but very safe, and even 
the equivalent of traveling for approximately 3 minutes at 
altitude on a commercial aircraft.
    And so they have said that--different analogies, but you 
would have to travel thousands of times in a year just to meet 
the minimum dosage that these different studies assess as being 
of any concern. So not even pilots travel that much, thousands 
of times in a year's time.
    That being said, I am concerned by what I have learned 
recently within TSA in terms of our handling of reports that 
were done by the contractor, the manufacturer, in terms of 
their assessments. And what I have found is that we did not 
handle those--the paperwork from those properly, that we did 
not immediately review and assess and verify that those 
documents were done properly. And so what we have found, and we 
have posted most of these, all of them that we have reviewed, 
to our Web site, and we will continue to do that as we go 
through these thousands and thousands of reports, is that there 
were some errors made in these reports. There were math 
calculations done wrong. One was done that said that the 
radiation was 10 times what it actually was. That was not the 
case, but that is the way the technician filled out the report 
and said that.
    So there was some sloppy paperwork. On the one side, there 
was a failure, frankly, on our part to review that, as opposed 
to filing away in a file cabinet and not doing follow-up. So we 
have changed the procedures on how we review. We have re-
engaged with the manufacturer. They have gone back out to do 
additional studies. We are engaging two other entities, the 
U.S. Army Public Health Command, which has done a number of 
studies also, and then the NIOSH, the National Institute of 
Occupational Safety and Health, NIOSH, to further assess. And 
they have done some prior assessment, but to update that.
    And then lastly, I am going to commission a new independent 
study beyond all these things that have already been done, just 
to reassure the American people that these machines are safe, 
that there are no issues with them, and given the highest level 
of confidence that not only are they traveling securely because 
of proper screening, but safely because of the equipment.
    Mr. Aderholt. Thank you. I know there have been some 
members of Congress that have voiced concerns about that, and, 
of course, I know that you have probably gotten feedback as 
well from travelers as well. But at this point, Mr. Price.

               ADVANCED IMAGING TECHNOLOGY: PROCUREMENTS

    Mr. Price. Thank you, Mr. Chairman. Mr. Administrator, you 
have addressed already your plans with regard to the advanced 
imaging technology units. I want to ask a follow-up on that 
then I will turn to the question of air cargo and particularly 
the screening of air cargo on passenger flights.
    Now, on the AIT units, you plan to have 1,000 of these 
units procured. To date, 500 have been purchased, as I 
understand, and installed. The remaining 500 are to be procured 
once the final appropriation for fiscal year 2011 is resolved. 
They may not be installed until next year.
    Meanwhile, you are testing this automated target 
recognition software. It has been relatively successful, as I 
understand, the testing with regard to the millimeter wave 
machines; less so with the backscatter machines. But in any 
case, that testing is continuing.
    So it is clearly your intention to augment the technique of 
the AIT equipment with this ATR capability. And the reasons for 
that being desirable, I think, are pretty clear. I wonder, 
though, to what extent it is a condition, or you see it as a 
condition, for putting these additional units in place. Is it 
your intention not to procure any further AITs without ATR 
capability? What if the tests do not move forward on all of 
these machines?
    You are testing one vendor's ATR capabilities right now. 
You are going to test two others, assuming they move along, 
later this month possibly, and then on into the spring and 
summer. So how do you weigh the benefits of ensuring that this 
capability is present on all machines versus the possible 
sacrifice of some competition in these procurements?
    Mr. Pistole. Thank you, Congressman Price. The goal is to 
deploy the AIT with ATR capabilities from here out. And that 
being said, if the manufacturer for the backscatter does not 
develop in such a way that we believe they will at this point, 
we have every confidence that they will be able to not only 
develop and manufacture, but will be able to test this summer 
and deploy in the fall. That is the plan.
    So your question, if they do not--or if they are not 
successful in that, it is problematic because the goal is to do 
ATR, automatic target recognition. It is not an issue of 
security because we are getting, we believe, the same level of 
security. It is just an improved process, particularly as it 
relates to privacy. If they are not able to do that, then we 
will have to make some hard choices, which I cannot say today 
what those would be because there are so many variables 
involved. But we would obviously want to work with the 
committee to look at the best options.
    We believe that competition is important to keep driving 
private enterprise to the best technology at the best price and 
the best deployment on the best timetable. So we do not want to 
be in the situation of having only one vendor providing that, 
if we can avoid that.
    That being said, we do want to move forward with the ATR, 
as it is being proven successful.
    Mr. Price. And you do intend eventually to retrofit the 
already-procured machines. Is that right?
    Mr. Pistole. Yes.
    Mr. Price. Whatever the technology----
    Mr. Pistole. Yes.
    Mr. Price [continuing]. That they utilize.
    Mr. Pistole. Yes.

                           AIR CARGO SECURITY

    Mr. Price. All right. Thank you. That is helpful. Now, to 
the air cargo requirement. The 9/11 Act required DHS to 
establish a system to screen 100 percent of air cargo on 
passenger flights by August of 2010. TSA met this requirement 
by the established deadline for domestic air cargo, but 
testified last year that it would not be able to screen 100 
percent of international air cargo until 2013.
    After the attempted bombing of an all-cargo aircraft 
occurred, TSA expedited the deadline for industry to screen 100 
percent of air cargo on international inbound passenger 
aircraft to December 31, 2011, two years earlier than 
previously anticipated.
    So I congratulate you on that. I want to know exactly how 
you did it. At this point, what is your estimate for how much 
of this international air cargo we are screening now, and how 
are you going to get to 100 percent by the end of the year? And 
then I want to know about the budget implications.
    After the Yemen incident, TSA, along with CBF, briefed this 
Subcommittee multiple times on the efforts it was undertaking 
to enhance air cargo security. For example, TSA has been 
working with Yemen and other countries to enhance their airport 
and air cargo security measures and has enhanced its own 
vetting capabilities. Yet your fiscal year 2012 budget request 
decreases the amount of funding you request for air cargo from 
$122.9 million in 2010 to $114.7 million in 2012.
    So that raises an obvious question. Does your budget 
request fully encompass your air cargo needs? And how is this 
budget going to grow your abilities to know what is flying into 
and through our country?
    Mr. Pistole. Thank you, Congressman. So a couple of points. 
And thank you for your support for what we have done 
domestically. We did achieve that milestone last summer. That 
100 percent of all cargo on U.S. passenger planes is being 
screened, and we have done that primarily through a partnership 
with private industry where we have over 1,160 certified cargo 
screening facilities, entities that do the screening pursuant 
to our standards, away from the airports so it does not create 
a choke on the airport.
    And that accounts for about half of all the cargo that is 
issued to our passenger planes in the U.S. And it is through 
that partnership with private industry that we are able to do 
that.
    Looking internationally, it becomes much more of a 
challenge. Last year, there were, as I recall, almost 9--
between 8 and 9 billion pounds of cargo coming into the U.S., 
and it breaks down roughly one-third on passenger flights, so 
almost 3 billion pounds, versus two-thirds on all-cargo 
flights.
    Because we at TSA do not do the screening overseas, we had 
to work with our partners both in civil aviation, law 
enforcement, depending on what country you are in; and as you 
mentioned in Yemen, worked with the entire government. I was in 
Yemen five days after the cargo plot was identified to assess 
what was going on there and what we could do to assist.
    So it is really through a partnership with the host 
governments and the carriers that are in the business of 
transporting cargo. And I could get into more detail if you 
would like on that. So it is that same type of partnership we 
use domestically that we are hoping to replicate overseas. And 
as we have found, all, most all, of the cargo carriers have a 
strong interest in doing additional security, perhaps even 
beyond what we would require for any cargo coming from the last 
point of departure to the U.S.
    So we set a standard, and many carriers, such as the two 
biggest here in the U.S., the cargo carriers and freight 
carriers, take steps beyond that. They do their own risk 
modeling. They do their own assessment of whether they want to 
pick up what they assess as being a high-risk piece of cargo. 
So if somebody in Sana'a, Yemen, walks in and is not known to 
the person there at the freight forwarder they will not accept 
that, if it is destined for the U.S.
    So the situation that we had in Yemen for the two toner 
cartridge packages would not be picked up now. So it is through 
that partnership. It is also through a partnership with the 
governments to establish a national cargo security program. So 
we have just recognized France as the first to come in with a 
program that we assess as being consistent with U.S. standards. 
And so what the French government then actually certifies is 
their cargo carriers. We have eight or nine other countries 
that we are working with that do the same thing.
    So it is through that partnership. It is leveraging those 
things as opposed to us footing the bill for it, is the reason 
we have had a slight decrease in 2012. But the other part is 
the comments that we asked for from industry about updating the 
mandate to the end of 2011, that was simply requesting their 
comments, and we are not there. So is there a vote we need to 
talk about?
    So the issue becomes are they capable of complying with 100 
percent, and the bottom line is probably not, not by the end of 
this year. So we will be looking for additional funds in 2013 
to help augment that because it gets down to trust, but verify. 
So a cargo carrier or a foreign government carrier, passenger 
or otherwise, can say they are doing all these things. But if 
we cannot verify that independently, then we do not have a very 
high level of confidence, unless we know a lot about the 
carrier, and just some places we do not have that level of 
confidence.
    So we will not--in my estimation, we will probably not be 
at that 100 percent by the end of this year, but more into 
2012.

          ADVANCED IMAGING TECHNOLOGY: TRAINING & REQUIREMENTS

    Mr. Aderholt. Mr. Dent.
    Mr. Dent. Thank you, Mr. Chairman. Mr. Administrator, great 
to see you again.
    Mr. Pistole. Nice to see you, sir.
    Mr. Dent. I am excited about the 100-percent screening 
capabilities. I think that screening certainly represents a 
deterrent effect on our adversaries. I sometimes worry about 
our detection capabilities. I am not really here to talk today 
about so much the technology of, say, AIT. I am more concerned 
about the TSO training and personnel.
    You know, can you describe for us the training regimen for 
the TSOs to qualify for operating an AIT unit? My fear is the 
technology is good, but I am not sure that all of our TSOs 
always understand what they are viewing.
    Mr. Pistole. Yes. Thank you, Congressman. So every TSO goes 
through the basic TSO training, just on what their job 
involves, regardless of their position. Before they would have 
any type of responsibility for using the AIT, they go through 
additional training, both on the job and then obviously 
separate training without passengers around.
    So they go through this training. But to your point, I 
think we can always improve upon that. We can do additional 
training. For example, what we found in Las Vegas with the 
automatic target recognition is that somebody with a ponytail, 
when they went through the ATR, the ponytail would show up as 
an anomaly. So it is through some basic retraining to say, 
okay, even though that is showing up on this generic outline of 
a person as an anomaly, with a quick physical inspection, just 
looking at it, you can probably assess whether there is any 
type of explosives or anything in that ponytail.
    So that is where we try to do immediate retraining and just 
say, look, take a quick look and do that. So I can give you the 
specifics, if you would like, in terms of all of the training.
    Mr. Dent. How many second chances does a TSO receive? How 
many second chances would they receive in the event that they 
keep misidentifying?
    Mr. Pistole. Well, so they go--every TSO has an annual 
requirement of being tested and passing that test. So if you 
are talking about that, that is one, and if they do not pass 
that test, they are given another opportunity. If they do not 
pass, then they are fired or let go.
    But if it is something on the job, if they miss something, 
it would be difficult to know that it has been missed unless it 
was an inspector general or a government accountability office 
testing our own TSA office and inspection testing, and so they 
are given feedback. And that factors into whether they keep 
their jobs or not.

                        TRANSIT SECURITY GRANTS

    Mr. Dent. If I could just quickly change subjects. Since 
Fiscal Year 2006, I think there is about 1.5 billion in transit 
security grants that have been appropriated and awarded, 
obligated, I guess, but only about 122 million has been drawn 
down. So that is about 92 percent of funds, I think, that 
remain unspent.
    So it is not much of an improvement from last year. What 
are we doing to help unclog this pipeline?
    Mr. Pistole. So there are two aspects of that. One is the 
processing time it has taken between TSA and FEMA, and that has 
been problematic in the past, but it is improving. So I can 
give you the specific figures, but it has gone from months and 
months of delays down to weeks or perhaps a month in general 
terms.
    That is one aspect. On the budget side of it, what we have 
found is that most of these grants, they have actually--the 
funds have actually been expended and the projects completed, 
but they have not invoiced those back to TSA and FEMA. And so 
it is simply a matter of them doing that within the five-year 
period to make sure that those funds are accounted for 
properly.
    So the 92-percent figure is a little bit misleading from 
the standpoint that many of those projects have either been 
started, or some have actually been completed.

                         COLLECTIVE BARGAINING

    Mr. Dent. And one other quick question. Earlier this year, 
you announced that the TSOs are going to have the opportunity 
to vote for or against union representation. I understand the 
authority is pursuant to the Aviation Transportation Security 
Act. That was the basis of the decision, I guess.
    Can you describe what led you to this final decision and 
this assessment?
    Mr. Pistole. As you mentioned, ATSA, the Aviation 
Transportation Security Act, gave the Administrator the 
authority and discretion to decide whether the security 
officers should be afforded the right to vote on whether they 
want collective bargaining or not.
    In the course of doing town hall meetings around the 
country with TSOs, and then mid-level management, and then 
executives, there are a couple common themes. One was low pay 
that the TSOs were receiving. The second was a frustration over 
some of the mid-management practices that seemed inconsistent, 
contrary to what I would want to see as a national program. And 
I learned that 13,000 of the security officers were already 
paying union dues without collective bargaining. So there was a 
lot of frustration about just some of these issues.
    Under ATSA, because of the broad discretions that it gave 
me, I was allowed to say what I would include in collective 
bargaining or not, if I went that way. So, for example, just 
like going through a cafeteria, I would say, okay, this could 
be subject to collective bargaining. But because this relates 
to security, I am not going to allow anything involving 
security to be subject to collective bargaining. Only at the 
national level, so we would not have local bargaining units, to 
have a streamlined process that could perhaps address some of 
the issues over frustration of what is the uniform of the day. 
What shifts can I bid on? Things like that.
    Mr. Dent. Is election going to take place this spring?
    Mr. Pistole. The election started last Wednesday and runs 
through April 19th. And that is the good point. The Federal 
Labor Relations Authority ordered an election be held this 
spring.
    Mr. Dent. Secret ballots, too?
    Mr. Pistole. Yes, secret ballots, sure, electronic, yes. So 
they ordered an election be held. So my determination was 
simply a matter of informing them of what they would be voting 
on. So it is not a traditional collective bargaining agreement 
by any means. And it is unique within the Federal government, 
if not labor-management relations.
    Mr. Dent. I yield back then. I think my time has expired.

             TRUSTED TRAVELER PROGRAM: EXPEDITED SCREENING

    Mr. Aderholt. Ms. Roybal-Allard.
    Ms. Roybal-Allard. You said that expedited screening at 
checkpoints makes sense because it is select security and it is 
an efficient use of our resources. And you are going to be 
introducing this new expedited screening system for commercial 
pilots.
    The 9/11 Commission recommended that both pilots and flight 
attendants have equal access to expedited screening. Now, 
flight attendants, as I understand it, go through the same 
background checks as pilots. And there are many more flight 
attendants that are going through the airport than there are 
pilots. So if efficiency is one of the criteria, my question is 
why were they not included, and when will they be?
    Mr. Pistole. So I wanted to make sure that the system for 
the more identity-based screening for pilots was working well 
before we extended that to the flight attendants, recognizing 
the critical role the flight attendants play. But it really 
came down to the two factors of the pilots being in charge of 
the aircraft and being the ones with the ability to cause most 
harm if they chose to do that, as we saw in the Egypt Air 990 
crash off the coast of Rhode Island on Halloween night, 1999, 
when the copilot put the aircraft down.
    So I want to make sure it is working well with the pilots 
group. We have met with the Flight Attendants Association and 
heard their views, and looking at that as part of this risk-
based approach. So it is a matter of getting it right for the 
pilots, and then assuming we can work through some of those 
issues, I am considering extending that to the flight 
attendants.
    Ms. Roybal-Allard. So once you get it right, then it will 
be extended?
    Mr. Pistole. I have not made that final decision. There are 
a lot of other issues involved there. But I can see the 
benefits in that.
    Ms. Roybal-Allard. Well, maybe we do not have the time now, 
but find out what those issues are----
    Mr. Pistole. Sure.
    Ms. Roybal-Allard [continuing]. Again given the fact that 
they go through the same background checks, and if there is 
some kind of an attack, they are the first line of defense on 
the plane.
    Mr. Pistole. Yes.
    Ms. Roybal-Allard. So it really does not make any sense, at 
least from my perspective. There seems to be this double 
standard. I know that right after 9/11, pilots were given 
certain types of training. We had to fight to get flight 
attendants training in those kinds of incidents.
    So I would like to follow up with you on this.
    Mr. Pistole. Yes, ma'am.
    Ms. Roybal-Allard. Just to have a better understanding of 
what is going on there.
    Mr. Pistole. Okay.

                      PRIVATE SCREENING: PERSONNEL

    Ms. Roybal-Allard. There are an increasing number of U.S. 
airports considering switching from TSA screening to private 
contractors. And as I understand it, already 16 U.S. airports, 
including San Francisco and Kansas City International, use 
private screening personnel.
    However, according to The Washington Post, some experts 
have raised concerns about this arrangement, arguing that a 
uniform government system makes more sense. Federal officials 
also say the expertise and training offered at the 457 TSA-
regulated airports are unparalleled, and many security and 
airline industry officials say the switch to a network of 
privately run screeners could hinder much of the government's 
progress since the September 11, 2001, terrorist attack.
    Do you agree with the statements that have been made? And 
what criteria does TSA use to evaluate contractors and their 
employees? And do they have to meet the same level of training 
as TSA employees do? And do you also make sure that those 
employees go through the same kind of security background 
checks, and what kind of oversight procedures do you have in 
place to ensure that these companies are operating as they 
should?
    Mr. Pistole. So there are the 16 privatized airports, and 
there have been for several years. ATSA was passed, and there 
was an option given to private airports to come in and apply 
for private screening. And the 16 and a handful of others have 
applied. I announced the decision in January that I was not 
planning to expand the program, absent some compelling reason 
to do so.
    Fundamentally, I believe that the security officers for 
baggage, for passengers, should be a federalized work force. I 
see TSA as one component of the U.S. Government's national 
security mission and counter-terrorism focus.
    So that being said, I am also open to those who can provide 
either the same level of security, because as you correctly 
noted, they have to follow all the TSA rules and mandates for 
how they are screened, whether it is using AIT or pat-downs or 
whatever it is, with TSA oversight, management, and follow-up.
    But if an airport authority has a business model, a 
security model that is new, innovative, more cost-efficient, 
then I am open to reviewing that. We have one pending right now 
that I have not made a decision on, but some of the options 
were to terminate the 16. I did not feel like that was 
appropriate, because I think there can be some innovation and 
best practices that can come from those. And perhaps another 
one that we have not seen.
    I am also changing the process, the application process, 
because basically a one-page form saying yes, we are interested 
in being considered; I want to give airports the opportunity to 
demonstrate in their proposal or the application what new and 
innovative issues they may have.
    Mr. Aderholt. Mr. Carter.

                         COLLECTIVE BARGAINING

    Mr. Carter. Thank you, Mr. Administrator, I appreciate you 
being here. And I have questions about the collective 
bargaining rights that are being voted on right now.
    I am curious. I hear you say that the collective bargaining 
would include their uniform and their scheduling. Would it also 
include their salary?
    Mr. Pistole. No.
    Mr. Carter. Would they be able to collective-bargain for 
instance on the issue of private security. Can they bargain 
against that?
    Mr. Pistole. No.
    Mr. Carter. What tools do they have if the things they ask 
for are refused? Can they strike? Slowdown?
    Mr. Pistole. No, absolutely not. Yes, it is like all 
Federal employees. They would not be able to strike or 
slowdown. If they did that, they would be let go.
    Mr. Carter. On the issue of scheduling, and how we 
schedule. My brother-in-law was a pilot. Pilots schedule by 
seniority. Senior people get the first choice and so forth. 
Quite honestly, they always choose to avoid having to work on 
the holidays, if they can help it.
    I would expect if you do that same system, that would be 
the same system. But then, I would also argue with my brother-
in-law that that means if I am flying on Christmas, I am flying 
with the least-experienced pilot, which does not make me rest 
well.
    But more importantly, I am what you call a frequent flyer, 
not by choice, but by the occupation I have chosen. And I can 
tell you that I have experienced, on multiple occasions, more 
than I can count on both hands, a situation where you are 
training a person to operate the screen as the belt goes by. 
And they, by definition, are slow. They are calling over their 
people to check, double-check their work all the time.
    And if they are making the choices as to who works on the 
holidays, is that not going to be of great inconvenience to the 
traveler? But more importantly, our enemies seem to have, at 
least recently, chosen those crowded holiday times to try to 
get their weapons on board. I am talking about the underwear 
bomber and some of those others, so that they can do damage at 
a prime time.
    How does this collective bargaining enhance the safety, in 
light of the fact that you are probably going to be collective 
bargaining for the least experienced to be working on the most 
crowded days?
    Mr. Pistole. So a lot of that comes down to individual 
situations and preferences. Because some want to work the 
holidays, nights, weekends, for the differential on pay. 
Because we do have that built in.
    So with seniority, some, I believe, would choose to work 
those times simply for the additional pay, because they are not 
the best-paid employees in the Federal Government to start 
with. So that is one issue.
    On the terrorist side, even though the Christmas Day 
bomber, Abdulmutallab, flew on Christmas Day, it was not 
designed as a Christmas Day attack. It was more his convenience 
of coming here, as you are aware. Of course, all the 
controversy over Thanksgiving; there was no specific plot.
    To your point, when we do have holidays, we actually have a 
significant surge capability, which will continue whether there 
is collective bargaining or not. And that is one of the things 
I was talking about. As it relates to security, my 
determination was that there would be no negotiating, no 
bargaining over security issues. So that means that if we need 
people working on Thanksgiving, then that is when they will 
work.
    And as you saw hopefully if you were traveling over 
Thanksgiving, you found limited wait times. And I think that 
over two million people traveled each day around the 
Thanksgiving holidays, and there are very few wait times over 
30 minutes around all 453 airports around the country. So that 
is because we had that surge capability.
    So what I see the collective-bargaining doing is being able 
to address some of these underlying issues internal to TSA 
administrative issues, if you will, as to work conditions, 
uniforms, things like that, shifts. We have got almost 25 
percent of our employees are part time, before cost 
efficiencies. Because as in rush hours in most major cities, we 
have, in most airports we have a morning rush and an afternoon 
rush. So during the middle of the day, we do not need all those 
people there.
    So again, almost 25 percent of our employees are part-time, 
from a cost efficiency standpoint. Some of them do a split 
shift, where they work in the morning 4 hours, and then be off 
for 2 or 3 hours. For those we try to afford training or 
additional educational opportunities. We have community 
colleges come in and do classes, and some people working toward 
Associate's degrees, and then they will go back to their second 
shift.
    So the whole construct is to provide the best security at 
the best price, if you will, in the most efficient way. And 
keep it going so people do get through.
    Mr. Carter. The fact that you are using part-time would not 
be something that the union could collective-bargain about?
    Mr. Pistole. So no, as it relates to which shift they would 
be working on, that would be subject to it. But not whether 
they are part-time or full-time, or things like that.
    And again, that is one of the unique authorities under 
ATSA. If it was a traditional collective bargaining agreement, 
there would have been a whole different discussion and 
decision.
    Mr. Carter. Do you feel confident that you can assure us 
that the most qualified people will be in the place? I am 
looking at this GAO report, where the guy got through Houston 
security--which is important to me since I fly through there 
with a loaded handgun. And that does not build the confidence 
in the people that fly on that airplane. I learned the hard way 
when I first came up here that even having a broken-apart 
handgun and three bags is not allowed in baggage storage. I am 
still trying to figure out how I would be able to use that gun.
    Anyway, but this guy gets through with a loaded handgun. I 
am worried about the most experienced people being there, 
especially at the most heavily traveled times in America.
    Mr. Pistole. I appreciate your concern.
    Mr. Carter. If you can assure me that is going to happen.
    Mr. Pistole. It has, obviously. We have been successful 
over the time since 9/11.
    Mr. Carter. Collective bargaining will not interfere with 
that in any way?
    Mr. Pistole. Will not interfere with that. No, sir.

          PASSENGER SCREENING: IDENTIFYING HIGH-RISK TRAVELERS

    Mr. Aderholt. Thank you. Mr. Culberson.
    Mr. Culberson. Thank you, Mr. Chairman. Mr. Administrator, 
I wanted to ask initially about the, on a cargo screening, as I 
recall from our discussion last year I think, and the TSA has 
implemented procedures and policies after the Yemeni bombing, 
the attempted bombing, using toner cartridges on a printer. And 
look at the way the GAO described your cargo screening.
    You require additional screening for high-risk cargo. And 
as I recall, one of the obvious ways you identify high-risk 
cargo is country of origin; if it has got characteristics of 
not only from the country of origin, if it is a country with a 
history of either they do not have adequate security for 
screening their own cargo that is coming to the U.S., or they 
have got a history of harboring terrorists, right?
    So you have objective criteria for identifying high-risk 
cargo based on those characteristics. Yet I also discovered--I 
am delighted to have Chairman Mica here, and I appreciate very 
much Chairman Aderholt letting Mr. Mica sit in on this--you 
have no such criteria for passengers.
    I discovered the reason that the U.S. Army, that terrible 
tragedy occurred at Fort Hood, is because the Army can spot, 
had policies in place to spot Communists, they had policies in 
place to spot white supremacists, like Aryan Nation or other, 
you know, psychos. But they had no policy in place to spot 
Muslim radical extremists.
    And similarly, last year I asked your predecessor to 
identify for me, tell me the statute, show me the policy, show 
me the statutory prohibition that prevents the TSA from using 
objective common-sense law enforcement criteria to provide 
additional screening to the individuals who, you know, you have 
got young Middle Eastern males that are responsible for 100 
percent of the terrorist attacks in the United States. We know 
that they are pounding on airport security. I think the Navy or 
the Pentagon told me they have got millions of cyber-attacks 
every day on the Pentagon.
    These guys are obsessed with getting on another aircraft. I 
mean, this is their top priority. So we know they are pounding 
on us. And we know who is doing it: It is young Muslim men. 
Obviously extremists, psycho criminals. But they are all 100 
percent young Muslim males.
    Yet you have a policy that prohibits your employees from 
providing additional screening to individuals that meet that 
objective criteria. Yet you inspect cargo. You give additional 
inspection to a box that meets those criteria, but you will not 
provide additional screening to an individual that meets those 
objective criteria.
    Do you see the inconsistency and the danger that you expose 
the country to by refusing to give additional screening to 
individuals who clearly fall within the category of potentially 
posing a threat to airport security? The inconsistency there is 
extremely dangerous.
    Mr. Pistole. Yes, so a number of issues. During my two and 
a half decades with the FBI, I saw a number of non-Muslims 
commit terrorist actions in the U.S., whether it was Timothy 
McVeigh in Oklahoma City; Eric Rudolph, the Atlanta bomber; Ted 
Kaczynski, the Unabomber.
    Mr. Culberson. Sure, right.
    Mr. Pistole. So one of the things we try to do is not just 
look for who the person may be, but what are they, what do we 
know about them from an intelligence standpoint.
    Every last point of departure to the U.S. from overseas, we 
do have enhanced screening for everybody. So they actually go 
beyond what their own requirements are, for example, within the 
European Union. So we do have that higher level of screening.
    Mr. Culberson. For everybody.
    Mr. Pistole. Right.

                     PASSENGER SCREENING: PROFILING

    Mr. Culberson. But my point is you have a policy that 
prohibits singling out any individual based on their race or 
ethnicity, and based on--I mean, these are just common-sense 
law enforcement techniques.
    If you have got 100 percent of these attacks that have been 
made on the United States by terrorists since 9/11, and even 
before that, have been conducted by--I mean, if you are in the 
FBI, the FBI, I mean, this is just common-sense law 
enforcement. It has nothing to do with racial profiling; this 
is just common-sense law enforcement.
    Mr. Pistole. And that is what we did in the Bureau, and 
that is what we do in TSA, in terms of trying to identify who 
may be a threat based on the intelligence. Not because of their 
religion, their ethnicity, their age. There have been two 64-
year-old grandparents, one woman, one man, who blew themselves 
up in the last 10 years, one in Tunisia, one in the West Bank.
    So people say well, why do you screen grandmothers? Well, 
because we do not know who is going to be a threat.
    Mr. Culberson. In wheelchairs and other things, you know 
they are going to try to hide things in?
    Mr. Pistole. A 77-year-old woman in a wheelchair who would 
not give up her bag at screening. And she was blind, 
supposedly. And finally they said look, you have got to have 
the bag go through screening. She took her handbag and got up 
and ran away. So it turned out yes, she was a 77-year-old 
grandmother, but she did not need a wheelchair and she was not 
blind. She was smuggling drugs.
    Mr. Culberson. Sure, and I understand that.
    Mr. Pistole. So that is the difficulty of profiling, if you 
will, because we do not know who the terrorists will be. And 
like I say, McVeigh, Kaczynski, Rudolph. Who is not to say the 
next person to get on a flight may be a white male born and 
bred here, born and raised here?
    Mr. Culberson. But my concern is you have got a policy like 
the U.S. Army did, where you have got a deliberate blind spot 
where you will not give additional screening to individuals who 
meet these objective, absolutely objective criteria, where 100 
percent of these folks fall within.
    You have got, for example, this new spot program you are 
implementing, where you are focusing on behaviors and 
appearances that deviate from an established base line. What I 
am trying to understand is, why do you have a policy in place 
that prohibits you from providing additional screening to young 
Muslim males?
    Mr. Pistole. I guess I will use Abdulmutallab as an 
example. Here he was, he is the son of a very wealthy Nigerian 
banker who used to be the head of their, basically the Treasury 
Secretary. Multi-millionaire. Yes, he was Muslim, but he is 
African. He would not necessarily have met that profile that 
you are describing as a Middle Eastern male.
    Mr. Culberson. Young Muslim males.
    Mr. Pistole. Okay. So then if we start doing additional 
screening for all Muslims, I do not think that is a proper 
approach to use. So we just fundamentally disagree on how we 
should be going about doing it.
    I am looking for a person who poses a problem, regardless 
of the ethnicity, race, sex, or age. So I am looking for the 
person who is going to be a putative terrorist because of what 
is in their head, and I am trying to use intelligence in an 
informed fashion to do more identity-based screening before the 
person ever gets to the airport. So that is part of this risk-
based approach I am trying to use, in a way that does not 
profile because the person is a certain fill-in-the-blank, but 
because of who they are, and their background, and what the 
intelligence community and law enforcement community tells us 
about the person.
    Mr. Culberson. I understand, and that is fine. What I am 
trying to get at is what policy, what statute or policy 
prohibits you from profiling?
    Mr. Pistole. I would not cite a specific statute, just 
based on the U.S. Government's approach for particular U.S. 
persons, many of whom, as you say, are here, regardless of 
ethnicity.
    Mr. Aderholt. Time has expired. We are honored to have the 
Chairman of the full Committee of Transportation before us 
today. And he has joined us. And we have unanimous consent for 
him to join us in this first round of questioning.
    So Mr. Mica, we would turn to you.

                              TSO SALARIES

    Mr. Mica. Well, thank you. And I had planned to sit quietly 
by the side and observe, but I appreciate your hospitality. I 
would extend the same courtesy to members of our committee, but 
appreciate the fine work you are doing, and the important 
responsibility you have in properly funding our transportation 
security activities.
    As I walked in, I heard the TSA Administrator talking. I 
guess the question must have been around granting some of the, 
oh, collective bargaining rights. And I think he spoke to low 
TSO salaries. What is the beginning salary for a TSO officer, 
Mr. Administrator?
    Mr. Pistole. So the average for a full-time security 
officer is around $28,000.
    Mr. Mica. Twenty-eight thousand, okay. And we have how many 
TSO officers? Now, I see there are approximately 58,000 non-
headquarters personnel to total in the sixty thousand-something 
range. How many of those are TSOs?
    Mr. Pistole. There are approximately 47,000 who are 
security officers, out of the approximately--the Federal Air 
Marshall figure, as you know, is classified, so I will not 
reveal that.
    Mr. Mica. But those are TSOs?
    Mr. Pistole. The TSOs who may be behavior protection 
officers, bomb appraisal, document checkers, and things like 
that.
    Mr. Mica. I raise that because the information I had is 
3,770, personnel in Washington, D.C., making an average of 
$105,000 a year.
    So then in addition we have--and the committee should look 
into that, if they would verify those figures. Then we have 
another 9,300 administrative personnel out in the field.
    Now, having set this system up, as the Chairman of the 
Transportation and Infrastructure Committee, we started out 
with 16,500 private screeners. Never in my wildest imagination 
would we get to 60,000, and that number of bureaucrats.
    Now, to give you a better idea, we have how many commercial 
airports, about 430?
    Mr. Pistole. 453, some seasonal, maybe 457.
    Mr. Mica. And for the committee's edification, 29 airports 
handle 75 percent of the passengers. So most of the rest of the 
airports are relatively small.
    If you take 13,000 people, including 9,337 odd 
administrative personnel, that is an average about 30 
administrators for every airport out there. Administrative 
personnel.
    I met with the administrator, and I asked him, and I will 
ask him again. He needs to get someone who knows how to manage 
people, some sort of efficiency study. There should not be more 
than 1,000 administrative personnel in Washington, D.C., and 
there should be a dramatically reduced number out in the field.
    I would urge the committee to look at what is going on. I 
challenge any of you to talk to a couple of administrative 
personnel who work at any airport. Get their card. And you do 
not have to get their name, but their position, and see how 
much they are making. There are countless positions that were 
never anticipated.

                           PRIVATE SCREENING

    But I would also ask the Administrator for information on 
the 16 private screening operations. We received some of that 
information. I would love to put in the record what we received 
as the number of personnel.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Mica. For example, here is Kansas City. I asked for how 
many TSA personnel over and above the private screening 
personnel they had. In Kansas City they gave me 26. We found a 
total of 51 personnel. I asked them to recalculate that, and 
they came back with 43. We have a list of the positions that 
they have at that airport. Totally unnecessary.
    And what I maintain, Mr. Administrator, if this is done, 
GAO uncovered part of this, is that TSA is cooking the books to 
make it look like the private screening, under Federal 
supervision, costs more.
    GAO's initial response, after I had them look at it, said 
that there was a 3 percent cost differential as opposed to 17 
percent. And I submit for the record, here is Rochester and we 
have other airports, I would request your committee, since they 
have been reluctant in giving us the accurate information, on 
getting that information to see the mass of unneeded positions, 
particularly at these private screening airports.

                       BEHAVIOR DETECTION PROGRAM

    I do not have much time, but if this committee funds the 
SPOT program for 350 more positions, you all need to have some 
serious counseling. Go back and look at the GAO review of this 
program.
    I helped initiate the SPOT-type program. And I can tell you 
that it was not implemented in the fashion it should be 
implemented in. The person that gets the ticket is the person 
who should be asking a question, if necessary. They have people 
standing around at a distance in a distorted version of any 
type of a behavior protection program. And asking for more, it 
is almost an insult.

                      ADVANCED IMAGING TECHNOLOGY

    If you look at the advanced imaging technology, to deploy 
that equipment in the manner in which it is deployed, in the 
way it is used, is an absolute joke. Any of you can defy that 
system. I defy it every time, because I try to refuse to go 
through their equipment.
    And if you have not had a briefing on the results of the 
testing of the equipment, which I had done in December--
everyone should be required, who is a Member of Congress, to 
see the results of that advanced imaging detection. The results 
are classified. But it is not acceptable.
    And to give them more personnel to operate equipment which 
was not properly vetted before it was deployed in the first 
place, and then the deployment of it. It could be used. But you 
see the performance of it.
    The deployment is a joke. You can thwart it nationally, you 
can thwart it at Orlando, any airport. Just pick your lane, 
because even with the equipment that they have bought, it is 
not properly deployed to be used as secondary screening, or 
even primary screening for that matter.
    So this is all about the budget. We have not gotten into, 
and we do not have time to get into, personnel and attrition 
rates. They have trained probably a total of what, 120,000 
personnel? They have twice as many people that they have 
trained than they have working. They spent a billion dollars in 
that training. So they come back and say all we need is more 
training.
    I am telling you, this agency cries out for some oversight 
from this committee. I do not have legislative jurisdiction. 
And then the 3,700 people that are in Washington, D.C., spend 
their time providing information to the Administrator, to allow 
him to make him decisions. Which I do not think, if he had all 
the facts, he would make in that fashion.

                        BIOMETRIC IDENTIFICATION

    So that is just the opening. I did not get into the ID 
fiasco. Not having a biometric ID, which we have ordered in 
Congress at least four times for a pilot 6 years ago. They 
spent $10 million on that. Now the FAA blames TSA, and TSA 
blames Homeland Security.
    Incidentally, I met with the Coast Guard the other day. 
They have, they showed it to me, an ID, with a biometric 
measure. They use it to access any of their computers, from any 
place.
    Here we have, after asking for a durable ID with a pilot's 
picture on it, with a biometric measure, a card that is a joke. 
When I tell people the only pilot photo on the ID produced is 
Wilbur and Orville Wright, they think I am kidding, but that is 
the truth. This biometric measure does not work.
    So there is a lot of staff work here. I challenge the staff 
to work with our staff. I thank you for giving me a couple 
minutes. But we have a serious situation on our hands, and it 
demands your attention.
    Mr. Aderholt. Well, thank you, Chairman Mica. I think you 
raise some issues that certainly we want to look at, that we 
need to look at, and will look into. And our staff here on the 
Subcommittee of Appropriations on Homeland Security will be 
happy to work with your staff on transportation to try to work 
on some of these issues.
    And if you have got a segment that you want to enter into 
the record, I would ask unanimous consent that it would be put 
into the record.
    So again, thank you for being here.
    Mr. Mica. No, sir. I might say, those are just some of the 
conflicting statistics on personnel that we received from TSA, 
and that we actually have in place. We will give you more if 
you like.
    Mr. Aderholt. Okay. Again, we thank you for being here, and 
we will definitely work with you on this to see how we can 
make--I think our goal for everyone here would be that TSA, 
whether it be the subcommittee or the Congress in general, is 
to make TSA more effective and more cost-effective. And we want 
to work together to make sure that happens on all accounts.
    So we, again, thank you for your presence here this 
morning.

                               VIPR TEAMS

    Let me switch gears just a minute, and talk about the VIPR, 
the Visible Intermodal Prevention and Response teams. Your 
budget proposes $26.8 million for 12 new Visible Intermodal 
Prevention and Response teams, and I will refer to it as VIPR 
after this, which will bring the total number of teams to 37 
nationwide.
    I understand you plan to assign these to new locations 
based on an assessment of the impact on terrorist risk 
reduction. While there is clearly a need for the skills that 
VIPR teams have, it is also true that there are similar 
capabilities in State, local, and Transportation Authority 
agencies.
    Could you talk a minute, a little bit about the unique 
value offered by the VIPR approach to prevention and response, 
rather than relying on other agencies?
    Mr. Pistole. Thank you, Mr. Chairman. And obviously, we 
work in partnership with State and local law enforcement 
agencies in terms of trying to do something that would be a 
deterrent to terrorists, that may be a way of being both 
unpredictable, because of a show of force, but also something 
that is cost-effective from the standpoint of using State and 
local law enforcement officers as part of these VIPRs, or 
``vipers,'' as we call them.
    Using two case studies as an example, the July 7 bombers in 
the London subway, the tube there. We know that they had the 
backpacks on, they are going into the subway, or the one got on 
the bus. And one of them even looked at the closed-circuit 
television camera as he was going in, because he knew in 10 
minutes he would be dead, and as many people with him could be.
    But from de-briefings of people who have cooperated with 
the U.S. Government, we have learned that there are several 
things that are a deterrent. One is the CCTV, as long as you 
are not a suicide bomber. But the other two key ones are 
uniformed officers or K-9s.
    So what we try to do with the VIPR teams is be random and 
unpredictable. We break them into surface and then multimodal, 
so there may be opportunities at airports. And we did about 
7,500 last year almost equally between surface and aviation 
multimodal.
    So for example, Union Station here in Washington. We may 
have a VIPR team that is there Tuesday at 10:00 as a visible 
presence of police, armed police, and K-9s. And so if we have 
an individual, such as Abdul mutallah, with a bomb on his 
person, well concealed, if he sees that presence, there is a 
good possibility that he may return and try it another time. 
And hopefully he would be picked up through intelligence or 
otherwise before he has another attempt.
    The recent Moscow Airport bombing is another type of 
terrorist activity, where they do not get on the aircraft, but 
the individual goes in with luggage and blows up himself in the 
luggage retrieval area.
    So the VIPR teams would also be effective from that type of 
visible preventive response, or prevention. To say if an 
individual like that walks into an airport or a train station 
and sees this visible presence, that the hope is, and the whole 
theory behind this is, that any time we can push away a 
possible terrorist to make him come back another day, you get 
this multiple, more opportunities to identify and intercept 
that person.
    So we augment what we do with the State and local law 
enforcement. We do some grants, in terms of training. We are 
also very excited by Vapor Wake dogs, those that are trained in 
the detection of explosives after they have gone past.
    So for example, the individuals in London on July 7, 2005, 
they walk past, they are walking to the subway, to the tube. 
And they have got their backpacks with explosives. A dog would 
not necessarily have to hit on that bag or identify that bag at 
the point where most bomb-sniffing dogs are, but would be able 
to pick up on the vapor wake left behind by the explosives, and 
then be able to follow that.
    And we have tested that here in Union Station with good 
results. So Auburn University does that, that type of training. 
And so that is why we are interested in doing more training in 
that regard. And that is why we are looking to try to work with 
State and locals, recognizing their budget limitations in most 
instances, across the country this year, to try to be a force 
multiplier in partnership with them.
    Mr. Aderholt. It is my understanding in 2010, that TSA 
funded some cooperative agreements with State and with local 
law enforcement to partially reimburse airports for cost of 
security at checkpoints.
    Is this funding allocated according to risk? And how much 
State and local support meshes with TSA operations?
    Mr. Pistole. And just for context, is this within the 
Transportation Grant Program?
    Mr. Aderholt. With the VIPR.
    Mr. Pistole. Oh, with the VIPRs? So I am not quite sure 
what you are asking, with the VIPRs.
    Mr. Aderholt. I understand back, like I say, in 2010, that 
there were several cooperative agreements with State and local 
law enforcements to partially reimburse airports in this 
regard, at the checkpoints.
    Is the funding allocated according to risk? And how much 
does the State and local support mesh with TSA?
    Mr. Pistole. Okay. So the funding is, I mean, the whole 
deployment is using a risk-based approach. So there is a risk 
assessment that has been conducted of the transportation 
security, TSSRA, Transportation Sector Security, Risk 
Assessment, which identifies higher risk areas and things. So 
that is one part of it.
    And if it is particularly related to K-9s, we have two 
parts, one that we provide the, we train the dogs and provide 
those to State and local law enforcement. And I would have to 
go back and look at whether that was 9 or 10 that we actually 
provided additional incidental costs with that, which we do not 
have in the 2012 budget, I do not believe. So I would have to 
get more information to be more precise in the answer. If I 
could follow up on that.
    Mr. Aderholt. Yes, sure, you can submit that for the 
record. That would be great.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                          SCREENING OPERATIONS

    Mr. Aderholt. Before I go on to Mr. Price, let me follow up 
on one issue that was mentioned earlier. In your opening 
testimony you talked about it, and we discussed the fact that 
there would be different categories and different, as the, I 
think, frequent travelers, infrequent travelers.
    Is there a timetable to try to move forward with these 
changes? Or what is your, give us some idea of what you expect 
in that.
    Mr. Pistole. Yes, thank you, Mr. Chairman. We have had 
several groups within TSA working on different risk-based and 
intelligence-driven strategies. And my hope is that we will be 
able to pilot some of these still this year, in cooperation 
with airlines and airports, and travelers obviously. So I do 
not want to commit too much more beyond that, because there are 
some details that we have to take care of.
    But clearly, the intent is to move in that direction with 
deliberate speed, and to make sure that the American people are 
open to it and willing to do that in a risk-based fashion.
    So some time this year, and I would be glad to follow up 
with the committee later on as things develop.
    Mr. Aderholt. This calendar year, you expect it.
    Mr. Pistole. That is my hope, yes.
    Mr. Aderholt. Okay. Mr. Price.

                           AIR CARGO SECURITY

    Mr. Price. I want to first go back briefly to your earlier 
answer on the 100 percent air cargo screening. That is, with 
respect to cargo stowed in passenger aircraft.
    You gave a rather detailed account of the challenges of 
this internationally, and some of the cooperative work you have 
underway. But I want to make sure that we do understand the 
budgetary implications of this. And you may want to furnish 
some further information for the record along those lines.
    As I understand it, you are still saying that three months 
into Fiscal Year 2012--namely, by December 31 of this year--you 
do anticipate having that 100 percent capacity in place.
    Mr. Pistole. That is clearly the goal. But I do want to 
manage expectations.
    There are two aspects to it, and I apologize if I was 
confusing earlier. The air carriers could self-certify that 
they are at 100 percent. We do not have a way of verifying or 
validating that by the end of this year. So it would be an 
assertion, a statement by the carriers around the world to say 
yes, anything coming into the U.S. has been properly screened. 
But we do not have a way of independently validating that by 
the end of this year.
    Mr. Price. Well, it is very important, obviously, to have 
that capacity to validate. Well then, the question about what 
kind of actual timeframe we are looking at here is relevant. Do 
you expect 100 percent of those carriers to make that claim, or 
express that intent by December 31? And then what about the 
follow-on effort at validation? What are we realistically 
looking at? And obviously there is a question about the money 
and personnel this will require, particularly with that 
validation aspect.
    Mr. Pistole. Right. And you are right on point, 
Congressman. So the issue for us becomes how can we work with 
foreign governments and carriers, such as through this National 
Cargo Security Program that I mentioned, that France has been 
accepted as meeting the same standards.
    So we recognize we cannot be all things, all places, all 
people, all times. And so as we can leverage those 
relationships, that is the way that I believe we will get to 
100 percent.
    To answer your question about by the end of the year, I 
think the carriers would say they would be close, and that they 
would be at 100 percent for all, what has been referred to as 
high-risk cargo, on passenger planes. The challenge becomes, 
and we are actually changing the language a little bit, going 
from high-risk to known shippers and known shipments.
    And so as the carriers focus more on the customer 
relationship and the actual cargo freight packages that they 
are picking up, they will do a lot beyond what we could verify, 
simply because it is good business practice.
    The bottom line is, in discussions with industry, nobody 
wants a plane to blow up. So what steps are they taking beyond 
what we can validate or verify? And we have very good success 
in that regard.
    But I want to be realistic. I do not think that December 
31, 2011, is a date that we can say with the highest level of 
confidence that there will be 100 percent of cargo screening 
coming into the U.S.
    Mr. Price. We obviously need to stay abreast of this, and 
to understand exactly what we are talking about when we receive 
assurances that this screening will be comprehensive. In our 
discussions with you and last week regarding the Container 
Security Initiative overseas, what it takes to validate that 
system are complicated matters. These agreements with overseas 
partners clearly require a high level of continuing scrutiny. 
And they almost become diplomatic efforts sometimes. So I am 
not satisfied that this budget fully incorporates what this 
program is going to require.
    Mr. Pistole. Thank you, Congressman, both for your support 
and your appreciation for some of the complexities and 
subtleties and nuances. Because you are right; there is a lot 
of diplomacy involved in these discussions.
    And we have the strong support of the State Department in 
doing those with host governments. Because there is a cost, 
obviously, involved on their end, and not everybody is willing 
to take on additional costs voluntarily. So that is why we have 
to work through the host governments to either enhance 
capacity--I will just use Yemen as an example.
    So when I went there in early November last year to assess 
what was needed, they have their cargo facility in their main 
airport. And so now they had one X-ray machine to screen small 
pieces of cargo, nothing big. You know, freight or anything 
like that. They had no explosive trace detection, they had no 
K-9. They are lacking a lot of things that we would say are 
basics here.
    So we actually sent a team in and trained almost 300 of 
their officers in enhanced physical inspection. And we loaned 
them some explosive trace detection equipment, handheld 
devices, and provided two additional, two State Department 
additional X-ray machines.
    Mr. Price. All right, so the State Department is the 
critical phrase there. Insofar as there is equipment offered, 
it is through the State Department.
    However, your budget should reflect training, oversight, 
what you regard as validation, properly speaking.
    Mr. Pistole. Yes, the State paid for a good part of that. 
But you are absolutely right; we will be looking for that, I 
believe, in 2013. Thank you, sir.
    Mr. Aderholt. Mr. Carter.

                         COLLECTIVE BARGAINING

    Mr. Carter. Thank you, Mr. Chairman. I'd like to go back to 
trying to figure this out. I am from Texas; I am from a right-
to-work state. I do not have a lot of experience with unions 
and collective bargaining.
    You made a statement that there are how many members of the 
TSA that have already joined the union?
    Mr. Pistole. There are 13,000 security officers who are 
paying union dues, without collective bargaining.
    Mr. Carter. First, I do not understand why somebody would 
do that. Just because they like unions?
    Mr. Pistole. So if they have----
    Mr. Carter. You give money to them, but they do not give 
any services?
    Mr. Pistole. Well, so yes, they could be represented, in a 
disciplinary proceeding, for example, individually. But there 
is no collective bargaining for the union.
    Mr. Carter. That kind of leads to my question. Let us 
assume that some of what Chairman Mica had to say has validity; 
that you are a little bit heavy in the employment area. You 
have maybe some dead-weight people in the TSA.
    Let us assume that you did your own investigation, and you 
discovered what Chairman Mica said had a lot of truth to it. 
And as a good manager, you decide that you need to lay off, 
pick a number, 13,000 people from the TSA. Would you have to 
negotiate with the union and collective bargaining to do that?
    Mr. Pistole. Absolutely not, no. And that is one of the 
beauties of this, this hybrid, if you will, because that would 
not be subject to.
    So the number of employees, their pay, benefits, anything 
related to security would not be implicated in that.
    And if I may, even though I did not hear Chairman Mica 
actually ask a question, the one thing----
    Mr. Carter. That is true.
    Mr. Pistole. The one suggestion he made, I am taking him up 
on that, in terms of doing an efficiency review of 
headquarters, of TSA headquarters.
    So the best number I have, as opposed to the 4,000 that he 
mentioned at one point, and another number at a different 
point, is around 2,700 for the whole D.C. area. But that 
includes more than just our headquarters. There other parts of 
that.
    And just doing a quick comparison of ratios of other 
Federal agencies, we are much below some other Federal 
agencies. Not to say we are efficient, but just in comparison.
    So as my dad, who was a preacher and a seminary professor, 
he would say text without context is pretext. So I think 
something could be pulled out of context, and you can prove 
about anything you want. You know, I practiced law a couple 
years and was able to do that a few times.
    But my point being, I agree an efficiency review should be 
done, and I am planning to do that. And if I find 
inefficiencies, then absolutely, I want to move forward with 
that to make us the leanest, the best agency we can be. So I am 
completely committed to that.
    Mr. Carter. That would be commendable. If they have paid 
union dues, then on disciplinary matters the union would 
intervene on their behalf and be able to negotiate for them.
    Mr. Pistole. So they could, on an individual basis, yes.
    Mr. Carter. The fact that they are getting laid off because 
we do not need the job any more----
    Mr. Pistole. That is not subject.
    Mr. Carter [continuing]. You could not negotiate on those 
things.
    Mr. Pistole. Right, right.

                         SECURE FLIGHT PROGRAM

    Mr. Carter. One last question, if I have time. Right now 
you have an established TRIP program to process appeals for 
people that have been, oh, if it is a no-fly list, or if they 
have been misidentified for some reason as people who cannot 
fly.
    Mr. Pistole. Right.
    Mr. Carter. How successful have you found the TSA TRIP 
program to be? Were there lessons learned from the first few 
years of the program? And does the fiscal year 2012 budget 
provide for these lessons learned and continued improvement in 
this program?
    Mr. Pistole. So the Redress program has had fits and 
starts, and I guess I would say it is on the improvement 
trajectory overall.
    That being said, the implementation of secure flight last 
year has reduced the number of misidentifications, because now 
we have the name, date of birth, and gender. Which if any one 
of those three--you would hope gender would not be off--but if 
those would be off, that has led to a number of 
misidentifications. And some of the horror stories we have 
heard from the years since implementation of Secure Flight, I 
do not have the numbers off the top of my head, but I will get 
those, in terms of those misidentifications, how those have 
significantly decreased.
    [The information follows:]

    Mr. Carter. Please provide the budget for DHS Traveler Redress 
Inquiry Program (TRIP) for FY 2012 as compared to FY 2011, and the 
number of redresses for both years.
    Response: The budget for DHS TRIP, which provides redress services 
for inaccurate matches against the Watchlists, for FY 2011 is $1.157 
million. The Administration's budget request for FY 2012 anticipates 
operating the program at the same level as the previous year.
    In FY 2010, the total number of redress inquiries received was 
41,344; the average monthly volume was 3,445. In the first 6 months of 
FY 2011, the total number of redress inquiries received was 15,925; 
with an average monthly volume of 2,654. Secure Flight was fully 
implemented by the end of Calendar Year 2010.

So that is the first episode.
    There should be fewer people needing redress through TRIP 
at the outset, so that is the good news. And I will have to get 
back to you on the, for the 2012 budget in terms of what we 
have for that, in terms of whether it is sufficient or not. I 
believe it is, I just do not know the figure off the top of my 
head.
    Mr. Carter. I know you hear all kinds of horror stories. 
But our District Attorney was informed that he was on a no-
flight list on dozens of occasions. And finally he called our 
office, and said can you do anything to help us out. And we 
worked with your office and got that fixed.
    And you know, he was an expert witness that flew up here to 
deal with the FBI on multiple things. He is a pretty good 
criminologist. And it was very embarrassing for him to be 
pulled out and said he was on a no-flight list. So you fixed 
it.
    Mr. Pistole. Glad to hear that.
    Mr. Carter. But I think we have to be able to get an 
accurate list there, because it really----
    Mr. Pistole. Agreed.
    Mr. Carter [continuing]. Offends some people. It offended 
John Bradley pretty badly.
    Mr. Pistole. You are absolutely right, Congressman, and 
that is our goal, to have no misidentifications.
    Mr. Carter. Well, thank you.
    Mr. Pistole. Thank you, sir.
    Mr. Aderholt. Well, thank you, Mr. Administrator. And as I 
made in my opening remarks, I know TSA's work force strives to 
be conscientious and enterprising. And we acknowledge the hard 
work of your agency, and the commitment to keeping travel safe 
and secure in this country.
    On the other side of the work force issue, is to ensure 
there is the right mix between technology at checkpoints, and 
make sure that the staffing levels are appropriate.
    So we look forward to working with you and making sure that 
TSA does not have a continued appetite of adding more personnel 
and increasing operating costs. But like I say, I know that is 
the goal of all of us.
    We look forward to working with you in the days to come, as 
we work on the Fiscal Year 2012 budget request as it goes 
through this Subcommittee. And again, we thank you for your 
presence here today. And we wish you all the best at TSA.
    The Subcommittee is adjourned.

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                         Wednesday, March 16, 2011.

                      SOUTHWEST BORDER ENFORCEMENT

                               WITNESSES

MICHAEL J. FISHER, CHIEF, U.S. BORDER PATROL
THOMAS S. WINKOWSKI, ASSISTANT COMMISSIONER, OFFICE OF FIELD 
    OPERATIONS, U.S. CUSTOMS AND BORDER PROTECTION
JAMES A. DINKINS, DIRECTOR, HOMELAND SECURITY INVESTIGATIONS, U.S. 
    IMMIGRATION AND CUSTOMS ENFORCEMENT
REAR ADMIRAL PAUL F. ZUKUNFT, ASSISTANT COMMANDANT FOR MARINE SAFETY, 
    SECURITY, AND STEWARDSHIP, U.S. COAST GUARD

                  Opening Statement: Chairman Aderholt

    Mr. Aderholt. The hearing is called to order.
    Good morning.
    This morning, we welcome witnesses from the Department of 
Homeland Security to talk about our progress in securing the 
Southwest border. They are Chief Michael Fisher, U.S. Customs 
and Border Protection, Office of Border Patrol; Assistant 
Commissioner Thomas Winkowski, CBP, Office of Field Operations; 
Associate Director Jim Dinkins, U.S. Immigration and Customs 
Enforcement, Homeland Security Investigations; and Rear Admiral 
Paul Zukunft, Assistant Commandant for Marine Safety, Security 
and Stewardship of the U.S. Coast Guard.
    Gentlemen, we thank you for being here today, and thank you 
for your service. Each of you represents officers and agents 
who risk their lives every day in the interest of our Nation's 
safety and security. And all of your agencies have experienced 
losses in the line of duty over the past year. And let me 
express our condolences to you for the lives you have lost in 
your particular agencies and our sincere gratitude for all of 
you who carry on.
    With the 5,500 miles of border with Canada, the 1,993 miles 
of border with Mexico, and the 2,627 miles of shoreline, 
securing the borders of the United States is a daunting task.
    Since its inception, this Subcommittee has closely examined 
security efforts and conditions along our borders, particularly 
along the Southwest border. Our focus today is not merely to 
recite where we have been. We know well the significant 
resources and dramatic strides that have been made since 2003. 
Rather, we want to talk about the goals for border security.
    We want to hear three things directly from you, the 
officers and agents who work on the front lines. Number one, 
what is the current assessment of border security? Number two, 
when will the border be secure? What does that mean? What 
resources are needed? And, number three, how do we measure 
progress toward a secure and economically vibrant border?
    Let me elaborate on each of these points.
    First, what is the current assessment of border security? 
After investing billions of dollars in Southwest border 
security efforts in the past 8 years, where are we in relation 
to where we need to go?
    On the U.S. side of the border, we have invested in 
Federal, State, and local law enforcement personnel and 
capabilities. We have built 649 miles of physical fencing and 
tactical infrastructure to enhance detection and deterrence, 
and deployed and tested a variety of technologies. We have also 
invested in bringing the fight to the cartels, stepping up 
interdiction efforts away from the border, using air and 
maritime assets to support investigations in Latin America and 
in Mexico.
    At the same time, despite our efforts, conditions in Mexico 
remain dire. Drug production is up and meeting demand, and 
drug-related violence has resulted in 35,000 deaths since the 
year 2005. With President Calderon's term coming to an end in 
just a year, how much progress do we expect to make?
    Second, the most important, how much further do we have to 
go? What are the end goals, and how much will it cost to reach 
them?
    Commissioner Bersin gave us some insight before this 
Subcommittee into what he thinks the end goals are, in his 
appearance last week, the standard being that, if you try to 
come in illegally, you will be detected and you will be 
arrested. It means reducing the flow of illegal traffic in the 
United States from Mexico to a point that both assures public 
safety and is perceived by the people who live on the border 
and the people who live in Arizona as being safe and secure.
    I want to dig into the Commissioner's comments. How will we 
achieve the level of detection and interdiction? What resources 
will it take? How long will it take?
    Last, we do need to measure progress. How do we measure 
progress along the way? The Administration has touted the 
decrease in apprehensions along the Southwest border as an 
indication of fewer illegal crossings and, therefore, 
successful deterrence. How do we really know that is the case?
    For our entire history, this so-called denominator has been 
evasive. We know how many we detect and interdict. The core 
question is, how many illegal aliens actually successfully 
cross into the United States and with what volume of contraband 
and drugs? How are we seeking to measure that?
    Director Morton and Admiral Papp indicated that their 
roles, in part, were to interdict individuals and drugs away 
from the land border to reduce the pressure on our borders. How 
has that contribution been measured?
    This is truly a daunting task, as I mentioned. And you face 
significant challenges every day in meeting our Nation's border 
security needs. I appreciate you appearing before us today, and 
thank you in advance for your candor and your insight on the 
Southwest border security operations.
    At this point, I would like to recognize the Ranking member 
of this Subcommittee, Mr. Price from North Carolina.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                Opening Statement: Ranking Member Price

    Mr. Price. Thank you, Mr. Chairman.
    And I want first to join the Chairman in welcoming this 
multi-agency panel here today and thanking all of you for your 
service and the guidance you afford to those who are working in 
your agencies.
    Mexico and the United States are friends and allies of long 
standing, with deep historical and cultural and political ties. 
Consider, also, the economic ties. The United States is 
Mexico's largest trading partner. We buy 85 percent of Mexican 
exports. Mexico also buys large quantities of U.S. goods and 
services, surpassed only by Canada and China. So it behooves 
each of our countries to facilitate commerce across the 
Southwest border--commerce that is responsible for many 
American and Mexican jobs.
    However, this same border also experiences a substantial 
amount of illegal trade crossing between the two countries, 
with narcotics and illegal immigrants coming north and money 
and weapons headed south. Mexican drug cartels now dominate the 
wholesale illicit drug market in the United States, earning 
from $13.6 billion to $48.4 billion annually.
    Since President Calderon took office in 2006 and began 
directly confronting the drug cartels, Mexico and its border 
regions have been wracked by violence. The cartels control 
large swaths of Mexican territory and dozens of municipalities, 
and they are waging violent turf battles over control of key 
smuggling corridors from Nuevo Laredo to San Diego. Over the 
past 4 years, the death toll in Mexico exceeded 35,000, with 
each year setting a record higher than the previous one.
    The United States has been aggressively working with Mexico 
to stop this violence, because what happens south of the border 
is more than just Mexico's problem. Recognizing our shared 
responsibility has led to enhanced cooperation between our 
governments. The DHS agencies before us today have had 
unprecedented cooperation with Mexican law enforcement and the 
military on information-sharing, joint training, cross-border 
communications, and the exchange personnel. You have also 
implemented unprecedented initiatives to interdict illicit 
shipments flowing north and south across the border. We are 
going hear today about those efforts and the funding for the 
Southwest Border Initiative.
    But as we take stock of the challenges we face related to 
the Mexican cartels, it is also important for us to step back 
and consider all of the forces at play in the drug trade. I 
have often thought and said that the strength and security of 
our country are not just about the budget accounts explicitly 
labeled ``Homeland Security'' and ``Defense.'' Success or 
failure in the war on cartels is no different. We can't expect 
to solve our drug problems if we put more and more resources 
into interdiction at the border while doing very little to 
curtail the demand for drugs on our own streets, or, even 
worse, if we actually diminish our demand-side efforts. But I 
am afraid that is exactly what we are confronting in this 
current-year budget discussion.
    The House majority's funding bill for the remainder of 
fiscal year 2011, H.R. 1, takes a serious bite out of our 
efforts to prevent and treat drug abuse and, thereby, reduce 
demand for the cartels' poisonous commodities. H.R. 1 would 
implement a massive $581 million cut to State and local law 
enforcement assistance funds, which include a variety of 
programs linked to drug-abuse treatment like Byrne grants, the 
residential substance abuse treatment program, drug courts, and 
Second Chance re-entry programs for ex-offenders.
    H.R. 1 also takes $191 million from Juvenile Justice 
Grants, which are also used to treat drug abuse among youth in 
our communities. H.R. 1 takes an indiscriminate $229 million 
cut from the Substance Abuse and Mental Health Services 
Administration at the Department of HHS. It cuts the Office of 
National Drug Control Policy by nearly $70 million and 
completely eliminates an initiative to get ex-offenders into 
the legitimate workforce.
    To put it simply, H.R. 1 would set our national drug-
control efforts back by over a billion dollars. It would rob 
Peter to pay Paul. Cutting programs that reduce the demand for 
drugs, while maintaining those targeted at the supply of 
drugs--that simply does not make sense.
    Now, I realize that none of our witnesses here today can 
address the programs that fall outside the Department of 
Homeland Security, and I am not going to ask you do so. But I 
think it is extremely important to raise this issue because the 
work we do on this Subcommittee does not occur in a vacuum, and 
neither does the work that your agencies do along our borders 
and coastlines occur in a vacuum. Your agencies' objectives are 
significantly affected by forces related to the drug trade that 
are outside your direct control.
    So I believe it is important for all of us with 
responsibilities in this area to bear in mind the full scope of 
the problem and the full scope of the likely remedies as we 
continue to grapple with our fiscal challenges, trying to 
preserve the strength and security of our country.
    So, gentlemen, I look forward to your testimony here today 
and to a frank discussion. The men and women under your 
leadership should be commended for all their hard work, their 
record seizures to date, the great sacrifices they make on 
behalf of the safety and security of the American people.
    Thank you, Mr. Chairman.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Aderholt. Thank you, Mr. Price.
    And let me just say that, certainly, the demand aspect 
needs to be considered, and we should never overlook that as a 
country. But the supply side of drugs coming into this Nation 
is really what our focus is today. And the individuals before 
us can help us assess that.
    Thank you for your opening comments.
    What I would like to do at this point is to start with the 
panel and your opening statements before I start into my 
questions. I will recognize Chief Fisher, and then we will go 
on down the table with Assistant Commissioner Winkowski, 
Associate Director Dinkins, and rear Admiral Zukunft.
    So, Chief Fisher.

                    Opening Statement: Chief Fisher

    Chief Fisher. Thank you, Chairman Aderholt and Ranking 
Member Price, distinguished members of the Committee.
    It is a privilege and an honor to appear before you today 
to share with you the efforts being undertaken by U.S. Customs 
and Border Protection to secure our borders generally and, in 
particular, the Southwest border. I also look forward to the 
opportunity to discuss our current assessment of the border, 
and the timelines of our security efforts and resources 
dedicated to that, and certainly metrics and measures and the 
extent to which we are going to measure that throughout the 
next few years.
    By way of current status, we are on pace to hire, train, 
and deploy 21,370 Border Patrol agents by September of this 
year. We have completed more than 649 of the 650 miles of 
fencing and added significantly more technology, including 
infrared and seismic sensors, video surveillance and mobile 
systems. We have added aerial platforms, to include unmanned 
aerial systems, which complement our ground effort.
    Furthermore, we have gained a greater appreciation for the 
differentiation between mere collaboration and operational 
integration with our Federal, State, local, tribal, and 
international partners, moving forward and realizing the 
strength of joint planning and implementation in a targeted and 
focused manner.
    As we have realized increased capacity and capability over 
the last few years, attributed in large part to the increase in 
resources, we have seen a transformation along our southern 
border. Activity levels are down to historic levels across the 
Southwest. Staffing levels at our high-risk sectors are up. And 
we are becoming more proficient with technology to respond to 
all threats.
    But, in similar cases, when law enforcement agencies learn 
to prioritize and focus their efforts and mitigate crime, the 
criminal element also learns and adjusts. As we are currently 
witnessing, transnational criminal organizations change their 
techniques, tactics, and procedures. They no longer try to 
overwhelm our agents in the urban environments, choosing 
instead to operate predominantly in extremely remote locations.
    In some cases, violence against our agents has increased, 
as the transnational criminal organizations try to intimidate 
our agents and attempt to influence our forward deployments 
away from areas previously exploited. And, in most cases, the 
cost of doing business for the transnational criminal 
organizations continues to increase, shrinking the 
organizations' profits.
    Over the past year, we have reviewed our strategy in light 
of the changing border environment. Our way forward and the 
strategy that will be applied will be risk-based. Accordingly, 
we will increasingly depend on information and intelligence to 
describe the intent and capability of our adversaries, thus 
defining the threat while continuously assessing our border 
vulnerabilities. And, in doing so, we must be more mobile, 
agile, and flexible than our adversaries.
    Finally, we will define the doctrine through nontraditional 
and unconventional approaches heretofore unexplored.
    I witnessed the evolution of the border over the past 24 
years as a Border Patrol agent, both in terms of additional 
resources applied against the threat as well as the change in 
the adversaries' ability to exploit border vulnerabilities. 
Although we have seen positive indicators of a secure border, 
our work continues and will not end as long as there are those 
who seek to enter this country illegally.
    In closing, I want to again thank you for this opportunity 
to testify today. I remain committed to the mission and 
confident in our collective ability to secure our borders, due 
in large part to the brave men and women of CBP [U.S. Customs 
and Border Protection], who each and every day provide a level 
of security to our citizens, who deserve no less. I am proud of 
our agents' and officers' dedication to duty and commitment to 
excellence. I also want to acknowledge and thank all of you on 
the committee for your support.
    As you are well aware, the border is a dynamic environment, 
and we will continue to strive to meet the demands of today as 
well as the challenges of tomorrow.
    I thank you again and look forward to your questions.
    Mr. Aderholt. Thank you, Chief Fisher.
    Assistant Commissioner Winkowski? 

          Opening Statement: Assistant Commissioner Winkowski

    Mr. Winkowski. Good morning, Mr. Chairman, Ranking Member 
Price, and members of the Subcommittee.
    I appreciate the opportunity to testify before you today 
and continue our ongoing dialogue regarding border enforcement 
on the Southwest border. Without your full support and 
partnership, we would not have been able to accomplish the many 
successes that we have had, to date. However, we still have 
many, many challenges.
    I want to assure the Subcommittee that we work closely with 
everybody on this panel--Chief Fisher, being my counterpart in 
Customs and Border Protection, and working between the ports of 
entry and Field Operations at the ports of entry. We have 
integrated and knitted, I think, a great strategic plan from 
the standpoint of bringing the skill sets that our Customs and 
Border Protection Officers [CBPOs] bring as well as the Border 
Patrol agents.
    Certainly, from the standpoint of ICE [Immigration and 
Customs Enforcement], our investigative arm, the executive 
director, James Dinkins, here to my left, there is a true 
partnership of taking seizures, taking arrests, and having a 
seamless transition from field operations over to the 
investigators. And, certainly, Rear Admiral Paul Zukunft of the 
Coast Guard, and working on a homeland security enterprise on 
our borders, particularly in the area of small boats and things 
of that nature.
    Given the limited time that I have, I thought I would just 
take a few minutes to talk about some of the work that we have 
been able to do.
    In the area of outbound operations, at the direction of 
Secretary Napolitano and Commissioner Bersin, CBP has reengaged 
in outbound operations over the past 2 years and has had 
success. We have seen an increase in our currency seizures 
across the Southwest border when you look at fiscal years 2009 
and 2010. We have implemented 100-percent rail inspection along 
the eight crossings on the Southwest border, using our 
technology that you all have supported for us over the years.
    And, by the end of the year, we are going to have handheld 
License Plate Reader capability at the 111 outbound lanes along 
the Southwest border, with the plan of putting fixed-site 
License Plate Readers in the outbound lanes in the out-years.
    And, furthermore, as we create new facilities, we are 
keenly aware of the need to ensure the capability of outbound 
inspections in our design and construction. Many of our 
facilities are old, either don't have a footprint for outbound 
inspections or have a very limited footprint.
    Another important initiative has been the Alliance to 
Combat Transnational Threats, or what we call ACTT, in Arizona. 
Since ACTT began on September 5th, 2009, we have made 
significant enforcement actions at our Arizona ports of entry, 
seized more than $13 million in outbound currency and over 
129,000 pounds of marijuana and 3,600 pounds of cocaine.
    Our success can be measured in many ways. Raw numbers tell 
us something about the smugglers' reactions and help validate 
our activities. And since we have increased our efforts and 
continue to evolve our methods, the cartels continue to move to 
more unique and deeper concealment methods, which makes it much 
more difficult for our CBP officers to detect, ranging from in 
transmissions, manifolds of automobiles, and gas tanks; the use 
of commercial buses; commingling drugs in legitimate produce.
    You know, critically important to our mission and related 
to the violence seen on the Mexican side of the border is our 
effort to give our officers the training and resources they 
need to ensure the security of the ports. We have conducted 
very, very comprehensive infrastructure surveys to improve the 
physical security of our ports. We have surveyed every single 
port and have made security enhancements in order to harden our 
ports of entry.
    We continue to deploy our tactical enforcement officers on 
our Southwest border, at our ports of entry. These are 
specially trained officers that have the long guns and the 
correct body armor. We also continue to enhance our Special 
Response Team program.
    I would also like to mention the much-needed infrastructure 
projects that we have undertaken and continue to pursue on the 
Southwest border. You know, over the past year, we have opened 
two new ports of entry in Texas: Anzalduas and Donna. And I 
have had the opportunity to go to each one of those ports. And 
those ports, the designs of those ports have taken into 
consideration the situation that we have down on the Southwest 
border from the standpoint of making sure that our ports are 
hardened and have a comprehensive outbound footprint for our 
officers to conduct outbound inspections.
    Just recently, I was in San Ysidro and had the opportunity 
to break ground on the new facility in San Ysidro. And that 
facility also, at a cost of $600 million, not only enhances our 
inbound capability, going from 24 lanes to 63 lanes inbound, 
but also has an outbound footprint. And there are enhancements 
that we are making in San Luis, you know, with the help of this 
committee, the GSA [General Services Administration], and other 
partnerships. These are just a few examples of needed facility 
improvements that will require additional resources.
    Also, as you know, our fiscal year 2012 budget request 
contains money for 300 CBPOs for new and existing 
infrastructure. And I look forward to working with the 
committee to ensure that we have the essential personnel and 
resources going forward, not to mention the 250 officers that 
we received last year in the supplemental for the Southwest 
border; those officers are coming on board.
    So I wanted to thank you, Mr. Chairman, for the opportunity 
to testify, and I look forward to your questions.
    Mr. Aderholt. Thank you.
    Associate Director Dinkins, thank you for being here today.

             Opening Statement: Associate Director Dinkins

    Mr. Dinkins. Good morning, Mr. Chairman and Ranking Member 
Price and members of the subcommittee. I appear before you 
today to discuss ICE's role in securing our Southwest border 
and specifically the efforts that we have made in recent years.
    I would like to begin by thanking you for noting the recent 
unprovoked attack against our special agents in Mexico. Our 
prayers remain with the Zapata family for their loss and for 
Special Agent Avila's speedy recovery.
    Out of this tragedy, I am reminded, first and foremost, of 
the great courage our special agents and Federal law 
enforcement partners demonstrate each and every day, combating 
the activities of transnational criminal organizations and the 
challenges we face along the Southwest border.
    As the second-largest investigative agency in the Federal 
Government, ICE special agents focus their investigative 
activities to identify, disrupt, and dismantle transnational 
criminal organizations and the illicit pathways they exploit in 
the unlawful movement of people, contraband, weapons, and money 
across our international borders. This reoccurring global cycle 
of criminal activity, known as the criminal continuum, is a 
threat to our security, not only at the border but in our 
communities.
    This investigative effort of ICE's nearly 7,000 special 
agents aims to attack the entire continuum. First, there are 
ICE attache located in 46 countries. We work with our foreign 
law enforcement partners to push our borders out and address 
the threats before they arrive in the U.S.
    Second, at the border we work, in partnership with CBP and 
the Coast Guard, to detect narcotics and contraband, prevent 
the unlawful entry of individuals into the country, and deter 
the illegal exportation of weapons and currency from the United 
States.
    And, third, with 200 offices located throughout the U.S., 
ICE engages in proactive investigations with our Federal, 
State, local, and tribal law enforcement partners to 
investigate transnational criminal organizations operating and 
residing within our communities. Here, these individuals often 
engage in the most profitable stage of transnational crime--
notably, the distribution and sale of illegal narcotics and the 
trafficking of aliens and contraband. In turn, these criminal 
organizations generate huge profits that are then smuggled out 
of the U.S. to fuel their ongoing criminal enterprises.
    I can assure you, combating these criminal organizations 
and attacking their financial infrastructure is a priority for 
ICE as well as the Department. We have taken significant steps 
to do so. And, as we move forward, we must continue to push our 
borders out and address the greatest national security and 
public safety threats before they arrive in the U.S.
    When they do arrive, we must be prepared to interdict, 
investigate, and prosecute the criminals for their actions. 
And, finally, if we are going to be successful, we have to 
continue to pursue the transnational criminal organization 
members who reside in big and small cities throughout the 
United States.
    I want to thank you for the opportunity to be here today 
and discuss this very important issue with you.
    Mr. Aderholt. Thank you.
    Admiral Zukunft.

                   Opening Statement: Admiral Zukunft

    Admiral Zukunft. Good morning, Chairman Aderholt and 
Ranking Member Price. It is my pleasure to be here before the 
distinguished committee as a member of the Coast Guard. And I 
will just say, I am the Assistant Commandant for Maritime 
Security, Safety, and Stewardship here in Washington, D.C. And, 
certainly, the Southwest border is very first and foremost on 
my mind.
    As the lead U.S. agency for maritime security, the Coast 
Guard employs a three-layered maritime approach to the 
Southwest border. And that begins at the departure and transit 
zones well south of Mexico. It then reaches into the approaches 
of Mexico, and finally culminates in our customs waters, along 
our U.S.-Mexico maritime border.
    To complement the strategy, the Coast Guard leverages its 
role within the national intelligence community to bolster 
situational awareness as well as our inter-service, 
interagency, and international partnerships to advance the 
interdiction continuum against drug-trafficking organizations. 
That is, intelligence drives interdictions, the follow-on 
forensics and prosecutions and then, working through the 
interagency process, such as Panama Express, leads to more 
interdictions. And then it just perpetuates that intelligence-
interdiction cycle. But we do it internationally and, 
certainly, with our DHS partners here at the table.
    Our unambiguous goal is to meet these threats far from the 
U.S. border. And the first layer of attack is in these transit 
and source zones, where transnational criminal organizations 
are most vulnerable. To this end, our Coast Guard area 
commanders work with NORTHCOM and SOUTHCOM and with the Joint 
Interagency Task Force-South to detect, monitor, and interdict 
and apprehend threats well beyond our U.S. waters, both in the 
Caribbean and in the Eastern Pacific.
    Coast Guard cutters and aircraft provide the necessary 
range, speed, command and control, and authorities to effect 
success in this transit zone. And, in addition to that, our 
Coast Guard law enforcement detachments that are employed on 
allied ships and our U.S. naval platforms are able to leverage 
our 37 bilateral agreements with signatory nations from these 
source and transit zone countries that have had a marked impact 
on drug-trafficking destined for the United States.
    During 2010, the Coast Guard removed over 200,000 pounds of 
cocaine and over 36,000 pounds of marijuana bound for the U.S. 
This represents 45 percent of the National Drug Control 
Strategy's annual target for 2010, which is a 30-percent 
removal rate and equates to 445,000 pounds of cocaine.
    Our second layer of attack is the approach to Mexican 
coastal waters, where the Coast Guard works with the Mexican 
Navy and other interagency partners from Mexico. And through 
our North American Maritime Security Initiative, or NAMSI, we 
have established tactical-operations-center-to-operations-
center agreements and information-sharing with SEMAR [the 
Mexican Navy] in Mexico that has also had a marked effect on 
trafficking.
    Since this inception of NAMSI in 2008, we have had 21 
cases, totaling 47,000 pounds of contraband seized as a result 
of this relationship, fairly nascent at that, with our 
counterparts in Mexico.
    The final and third layer of our attack is in the U.S. 
customs waters, to include our maritime border with Mexico. 
And, to that end, we work very closely with CBP, ICE, our State 
and local partners.
    And you need not look any further than our Joint Harbor 
Operations Command, which is an interagency operations center 
in San Diego, where we have 20 representative agencies, 
including DOD [the Department of Defense], that monitor, at the 
tactical level, activity approaching our Southwest border. And 
since the stand-up of this center, we have interdicted, just in 
the last year alone, over 800 migrants at sea. And that is 
twice the number that we have seen in previous years. So we are 
seeing an increasing trend in migrant trafficking by sea via 
the Southwest border.
    Finally, I will mention, we do surge operation on Falcon 
Lake and Lake Amistad. Even though it is not seawater, it is 
maritime border with Mexico, and certainly events in the last 
year have drawn increased attention to that particular threat. 
So we do transport, on a quarterly basis, forces that do 
interdiction operations there, as well. It is more of a 
presence right now that will hopefully deter further activity 
in that region.
    Chairman Aderholt, Ranking Member Price, we are proud to 
take great strides with the Department to enhance security on 
our Southwest border. The United States Coast Guard has a clear 
strategy of layered attack that leverages joint services, 
interagency, and international partnerships. We are actively 
pursuing acquisition strategies that will deliver more capable 
and operational assets and systems for the Coast Guard in the 
years to come.
    Thank you for the opportunity to testify today, and I am 
pleased to entertain your questions. Thank you.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                 BORDER SECURITY: MEASURES OF PROGRESS

    Mr. Aderholt. Thank you, Admiral.
    The Administration has noted time and again that the border 
is as secure as it has ever been. The question today is, how do 
we measure the level of security we have achieved?
    Let me walk you through the measures we have frequently 
heard. Border Patrol apprehensions of illegal aliens are down 
36 percent in the past 2 years and are less than one-third of 
what they were at their peak. Is a decrease in apprehensions 
truly an indication that fewer illegals are crossing, or there 
are fewer job seekers or fewer drug mules or both?
    The year 2010 saw more than 15,000 drug-related deaths in 
Mexico. Is an increase in violence an indication of greater 
pressure on the cartels or just more examples of their brazen 
and brutal tactics?
    While seizures of drugs, bulk cash, and other contraband 
are up, that can probably be attributed largely to having more 
officers and agents on the front lines. What aren't we 
catching? Have our efforts actually squeezed and reduced the 
flow northbound into the United States or southbound in Mexico? 
Have drug use, availability, purity, and street value been 
affected at all as a result of our investments?
    And, lastly, I would like each of you to tell the 
Subcommittee, from your agency's perspective, what are the best 
measures of the effectiveness of the Southwest border 
operations? Where are we today? Where do we need to go? And 
what tools and resources are needed to get there?
    And I will start with you, Chief Fisher.
    Chief Fisher. Thank you, Mr. Chairman.
    I think in posing those series of questions, interestingly 
enough, myself and the staff and others within CBP have been 
looking at this really heartily over the last few years. And, 
in particular, over this last year, what we realized as part of 
our strategy and the method by which we had recently been 
reporting out, in terms of levels of security, really were, in 
fact, what we would describe as operational control levels, 
really for the deployments of those resources over the years 
and how we would measure those; how we would ask the field 
commanders, ``To what extent has that level of resources been a 
benefit, added value to your operations, and, from a cost 
standpoint, did that actually work?''
    And as we have been having these discussions with the field 
commanders, it became clear to a lot of us that levels of 
operational control measured in a linear fashion do not 
translate into border security, because border security is much 
broader than linear miles of operational control even under our 
own limited definitions.
    For instance, we started looking a year ago at not just the 
line in the sand, if you will, the juridical line that 
separates the jurisdictions between the United States and 
Mexico; we have been looking at the border in terms of 
corridors. And those corridors--as we start looking along, for 
instance, the Southwest border, what is it that the criminal 
organizations, smuggling organizations, transnational criminal 
organizations, anybody seeking entry into this country, what do 
they require to do that?
    And so, when I mentioned earlier about the information and 
intelligence being a key indicator to identify the intent and 
capability defining the threat, that is exactly what we are 
trying to do.
    Just because we have an area along the Southwest border, 
for instance, that is extremely remote, absent any fence, 
absent periodic deployments of Border Patrol agents, that area 
may be, in and of itself, vulnerable because of the lack of 
those resources. It doesn't necessarily indicate that that is 
an area of high risk.
    And we will give you a quick example. Some of the areas in 
the Big Bend National Park, for instance, vast expanse, don't 
have a lot of resources there. But in those particular areas, 
criminal organizations, in order to bring narcotics and people 
through, need the same things that local populations need to be 
able to bring it through a country into another country and 
immediately into the interior of the United States. That 
requires infrastructure in terms of road systems, 
transportation systems, to easily do that.
    Now, in some of the other remote areas where they do 
operate, where it takes them 2 to 3 days, they do that at a 
higher risk, not necessarily because of the terrain, but 
because their exposure to our detection and interdiction 
efforts are higher. And so, when we look at the border and we 
want to focus those resources in those areas, we want to do it 
in a smart fashion.
    In the absence of infrastructure and technology in some of 
those extremely remote areas, what we are moving toward is 
identifying other technologies. And I will give you a quick 
example: the Intelligence Community and our UAS [unmanned 
aerial systems], for instance. We don't want to just 
automatically assume because the infrastructure does not exist 
that the risk will always be low. The risk is going to be 
dependent, again, on the threat and if they decide to move for 
whatever reason. And we want to be able to know about it, have 
that situational awareness, and be able to detect, identify, 
and classify that threat: Are they just people? Are they people 
coming in with narcotics? Are they armed? Are they not armed?
    We also have the requirement to then be able to respond to 
it, either on the ground or in the air, and ultimately be able 
to make and effect the arrest. We had mentioned the 
denominator. What we need to be able to do--in a broad 
definition of border security, it is not just the 
apprehensions, and I would agree with you. More importantly, it 
is the proportion of individuals that we arrest subsequent to 
the detected entry.
    And so, then the question is, well, in those areas where we 
don't have persistent detection capability, ``What is the 
answer?'' There are a few things. We would use the UAS and 
other national resources to be able to do periodic flyovers and 
utilizing change-detection capability to then go back and 
periodically check and see if, in fact, there is any change to 
the terrain.
    If, in fact, we identify and the analysts dictate that 
something is moving through there, we would send reconnaissance 
patrols out there, and we would identify what is coming through 
that area. If it is determined to be individuals, we can then 
start putting sensor arrays, we can put mobile technology there 
to figure out what that threat is and to be able to mitigate it 
so it doesn't become entrenched in some of these places that we 
have seen across the Southwest border.
    Mr. Aderholt. Okay. Thank you, Chief.
    And just because there are four witnesses, what we will do 
is try to keep answers just as brief as possible, but, of 
course, take the time that you need to answer the questions, 
but we will try to keep mindful of the time. I know the other 
Members here want to ask questions, as well.
    So, Assistant Commissioner Winkowski.
    Mr. Winkowski. Thank you, Mr. Chairman.
    Just to kind of build off of what the Chief just testified 
to, in the area of ports of entry, unlike between the ports of 
entry, we have this dual responsibility. You know, we have a 
responsibility to make sure that dangerous people and dangerous 
things don't come into the country, but we also have a 
responsibility to make sure that we are doing everything 
possible to facilitate the legitimate trade and travel. So we 
have this dual mission that is very, very complicated, that is 
very, very time-sensitive.
    We have been fortunate, in many respects, from the 
standpoint of support from this committee in putting out 
detection equipment, what we call Non-Intrusive Inspection 
equipment, that we have throughout the Southwest border. And 
that has given us the ability to focus in and target high-risk 
shipments, for example, and do quick inspections and make a 
determination and find contraband or to actually release the 
freight.
    So our measures are a number of things. Certainly, one 
measure is the activity, the illegal activity that we have 
coming through the ports. And, for example, inadmissible 
aliens, when you look at percentage change from fiscal year 
2009 to fiscal year 2010, we are up 4 percent; false claims up 
15 percent; and fraudulent documents up 11 percent.
    So the question starts becoming what the Chief and I talk 
about oftentimes as the Border Patrol continues to harden 
between the ports of entry, with technology and fence, the 
impact on the ports of entry--so if you can't come through, if 
it is more difficult to come through between the ports of 
entry, the next, I think, natural point is at our ports of 
entry. And we have seen some increase in that rate, in that 
regard.
    The other measure we have is applying consequences. You 
know, we have gotten away from just doing simple voluntary 
returns, from the standpoint of someone comes in, doesn't have 
the proper documents, fraudulent, at times we would give a 
voluntary return. Today, we give larger consequences, coming in 
as well as going out.
    And I think that is an important point here. I testified 
about our outbound strategy, and I talked a little bit about 
currency. But as we focus in on the outbound side (the number 
of illegal, undocumented aliens going back into Mexico), we 
didn't focus in on that over the years. And we have focused in 
on it and have been able to apply consequences.
    So you have individuals, particularly in the pedestrian 
lane, walking into Mexico. And part of our outbound CONOPS 
[Concept of Operations] is detecting those individuals and 
applying consequences. So, you know, recidivism rates are 
something that we measure.
    I agree that just finding more drugs day-in and day-out is 
not the only measure. It is how you are changing behavior, how 
will you--you know, we see in Arizona, with ACTT [the Alliance 
to Combat Transnational Threats] putting in 163 TDY [temporary 
duty] officers, an increase in enforcement activities.
    Mr. Aderholt. Thank you.
    Mr. Dinkins.
    Mr. Dinkins. Just to carry on, some of the indicators and 
specific things that we have noticed that really are indicators 
that we are making a difference with our collective efforts 
here--and I will keep it short--are the number of stash houses, 
for example, in Arizona, that we are finding with illegal 
aliens is fewer. The number of aliens in those stash houses are 
down. As well as the number of hostage situations where they 
have taken hostages of the illegal aliens and are demanding 
higher fees, those are also down from last year.
    And I think that we have seen a shift in the pressure that 
we are putting on these organizations, from alien smuggling 
fees going up, specifically in Arizona, over the last year, as 
well as we are seeing that, because they can't get through the 
ports of entry as easily and they can't make it between the 
ports of entry, they are forced to resort to more 
sophisticated, costly measures--dig tunnels, which could take 
months. And we have seen the number of tunnels that we have 
been able to interdict going up over the last 2 years 
drastically from previous years.
    So I think it really has changed. We have changed our 
pattern, and we are forcing them to do things differently, more 
costly. And it is making a difference.
    Now, as far as the investigations go, one of the key 
measures that we are using, which will start in fiscal year 
2012, which really has changed the way that we focus away from 
just specifically arrests, indictments, and convictions and the 
number of seizers, is the disruptions and dismantlements of 
transnational criminal organizations.
    Because when you disrupt them, you are, you know, setting 
them back more than just necessarily taking their drugs or 
money away from them. And when you actually disrupt them and 
dismantle them, now you are actually eliminating the threat 
that that organization posed to the ongoing criminal and 
smuggling activity that they are involved in.
    Mr. Aderholt. Thank you.
    Admiral.
    Admiral Zukunft. I will probably start a little more 
strategic. When I look at my current assessment, it really 
first starts with the relationships, then it is awareness, and 
then it is authorities.
    I have been in this business for 34 years, chasing drugs. I 
have commanded three ships, I have directed a joint interagency 
task force, and also dealt with this border problem when I was 
commander of the 11th Coast Guard District. Our relationships 
on an international scale are paramount. The United States 
cannot do this alone.
    Within our interagency relationships, we do not have 
Goldwater-Nichols. Our Department of Homeland Security, we are 
8 years old, but I am here to say, you know, the law 
enforcement officers that join me here at the table, this is a 
one team, one fight. And it is very focused, and it is 
strategic. So the relationships, both internationally, 
interagency, and joint, are better than I have seen at any 
point in my career.
    When you look at awareness, this really comes down to 
information. Eighty percent of our interdictions were driven by 
intelligence. So when we have that information, there is a good 
likelihood at sea we are going to interdict. Now, as we are 
getting better systems for awareness, it is also imperative 
that we have the platforms to go out and do the interdictions. 
So those two really need to be held in balance.
    But we did see a net reduction last year of about 40 
percent of cocaine moving by sea. At the same time, we are 
seeing different modes of conveyance. First, it was semi-
submersible vessels, and now we are seeing fully submersible 
vessels. And then in the go-fast, the vessels transiting 
cocaine, they are breaking these loads down into smaller 
volumes. In the past, our average interdiction was about five 
metric tons; now we are looking at just about under a metric 
ton. So the bad guys are spreading the risk.
    And the fact that they have not returned fire against our 
interdiction forces tells me that this is a risk that they can 
take, a business expense they can write off because there is 
still more coming. So that would be my assessment there, at 
least on the awareness piece.
    And then, finally, it is the authorities. We do have a 
number of bilateral agreements. And then our relationships with 
Mexico--I have been down to meet with the commander of the 
Second Naval Zone. We initially would talk about oil pollution 
protocols, and we said, ``Let's look at the real threat; you 
know, it is the violence on the border.'' And we were able to 
take that where now, if we see an event off Mexico, our 
operations center in Alameda calls theirs immediately. And we 
have actually done exercises and interdictions with Mexico, 
which was really--would have been unheard of 10 years ago.
    So I see the trend in our relationships, awareness, and our 
authorities all moving in the right direction.
    Mr. Aderholt. Thank you, Admiral.

                       STOPGAP FUNDING, IMPACT OF

    Mr. Price.
    Mr. Price. Thank you, Mr. Chairman.
    I would also like to address a question to the entire panel 
to respond, as you perceive relevance in what I am asking, 
which has to do with the effects of not having, at this moment, 
long-term funding in place for Southwest border and drug-
interdiction activities.
    Yesterday, the House passed yet another short-term 
continuing resolution, this one to keep the government 
operating for 3 weeks, until April 8th. I have said repeatedly, 
and many others have as well, this is no way to run a 
government. We need, once and for all, to finish funding what 
remains of fiscal year 2011. I think that was quite evident in 
December. It certainly is evident now.
    Now, I recognize the CRs have given you some flexibility. 
They have given some of your agencies the ability to shift 
money around to cover 2011 needs not funded in 2010. H.R. 1, 
for that matter, provided additional resources specifically for 
Southwest border and drug-interdiction activities. However, we 
are almost halfway through the fiscal year, and I question 
whether these flexibilities alone will cover your needs.
    And, in any case, I want to ask the question. I would like 
for each of you to highlight what have been the impacts of 
living under short-term CRs for an extended period of time, the 
impact specifically on Southwest border and drug-interdiction 
activities. When does this type of funding stream truly affect 
your ability to operate effectively in these areas? And then, 
finally, what kind of adjustments are you going to need as we 
finally, hopefully, pass a full-year CR and/or the 2012 bill? 
What kind of adjustments are going to be required by virtue of 
the funding arrangement under which you have lived thus far?
    Chief Fisher. Mr. Price, one specific area that is impacted 
is our inability to project and continue deployments in high-
risk areas, not knowing what the allocation is going to be so 
that we can fiscally and----
    Mr. Aderholt. Chief, if you could pull the mike a little 
closer? It is not picking up real well.
    Chief Fisher. I am sorry.
    Mr. Aderholt. That is better.
    Chief Fisher. Is the current deployments that we have right 
now in high-risk areas, in particular, Tucson, Arizona. Our 
inability to know between now and the end of fiscal year what 
the appropriation, what that dollar amount would be, to be able 
to scale that, either surge it up and move it into that area, 
because of the CR right now, that is probably the first and 
foremost operational impact that we are seeing.
    Mr. Winkowski. From a field operations standpoint, you 
know, 37 percent of my staff, of the CBPOs, of which I have 
22,000, 37 percent are funded by user fees. So we have a little 
different situation there.
    But from the standpoint of staffing the ports of entry and 
paying the bills, we have not seen an impact in that regard. As 
a matter of fact, we are hiring the 250 officers that were 
approved in the supplemental as well as some additional 
officers.
    You know, to your point, Mr. Price, I mean, it does make it 
difficult from the standpoint of that long-term planning, but, 
nevertheless, not to the point that we have had to step back 
from our responsibilities of protecting the homeland, whether 
it is the Southwest border or northern border or airports or 
seaports.

         BORDER SECURITY: BORDER PATROL AGENTS AND CBP OFFICERS

    Mr. Price. Well, this anticipates something I want to talk 
about later this morning. But, as to the new positions, I 
understand that, as of February 1st, none of these new Border 
Patrol agents are on board, and only 46 of the new CBP officers 
are on board that were funded through the supplemental. Now, 
that seems slow, to put it bluntly. And that may or may not be 
related to the uncertainties connected with stopgap funding. Do 
you have any quick observation on that? I do want to return to 
it in more detail.
    Chief Fisher. Yes, sir.
    I don't know specifically about the supplemental funding as 
it relates to the authorized levels for Border Patrol agents. 
We have currently, right now, over 20,000 Border Patrol agents. 
And we are on pace--we have been hiring Border Patrol agents 
since October 1st, the beginning of the fiscal year--both in 
terms of getting us to that 21,370 level at the end, which 
includes the 1,000 additional Border Patrol agents included in 
the summer supplemental, and it also includes attrition to keep 
us at that current level.
    Mr. Winkowski. And from the standpoint of the CBPOs, it 
was--we have our academy dates. We have two classes down there 
now that are bringing on board the 250. And we have other 
classes scheduled.

                       STOPGAP FUNDING, IMPACT OF

    Mr. Price. So, quickly, if we could move to other agencies 
on the stopgap funding question.
    Mr. Dinkins. Yes, sir. I mean, it is a challenge from 
management perspective. Fortunately, it has been at a level 
which we have been able to continue on with our hiring as 
needed. It is the long-term effects, if we don't actually get 
annualization of the funding for the people that we are 
bringing on, which will--the out-years will have the challenge. 
Versus, right now we are carrying on and doing our hiring. We 
have classes running continuously to bring on the special 
agents that we need to do the job and that have been funded.
    Admiral Zukunft. For the Coast Guard, we are on life 
support. We can maintain the status quo, but we don't operate 
in a status-quo requirement.
    I was the Federal on-scene coordinator for the BP oil 
spill, where we surged 3,000 people, 22 cutters from as far 
away as Alaska and Hawaii. So, God forbid, we have a disaster 
of that magnitude. But where that really hits us is if we have 
that requirement to surge.
    In addition, we are keeping a watchful eye on the price of 
fuel, which is the one discretionary item we have in our 
budget. But, as those dollars go up, you know, when the final 
budget comes in, that may be an area we have to reconcile by 
diminishing operations. We are not there yet, but I will say it 
does put us on life support.
    Mr. Price. That is a pretty alarming term, Admiral. Let me 
just, in the time I have remaining, ask you to elaborate.
    Are we talking here about the impact of the mere fact of 
stopgap funding and the uncertainty that that carries with it? 
Or are we talking about some adjustments, that whatever the 
full-year CR eventually looks like, and maybe even what the 
2012 bill looks like, some adjustments that are going to be 
required to get the Coast Guard where it needs to be?
    Admiral Zukunft. Yeah, well, certainly, in the past, we 
have looked at supplemental measures to offset some of our 
surge requirements. But, certainly, we would like that to be 
more predictive. Because, you know, we looked at last year, we 
had Haiti, and we also had the BP oil spill. We are entering 
into what could be a devastating hurricane season; it is still 
unknown.
    But it really becomes more of a readiness issue. And the 
posture of the Coast Guard is to be always ready. And so, maybe 
it is a little bit melodramatic to say ``life support,'' but it 
is not the posture where the Coast Guard normally stands 
squarely on its two feet.
    Mr. Price. Thank you.
    Thank you, Mr. Chairman.
    Mr. Aderholt. Let me just add that I think the question you 
asked is important. And on resources, we need to maintain 
operations. This Subcommittee has made operations a priority, 
both in H.R. 1 and under the short-term CRs. And supplemental 
funds are available to continue hiring, as needed. So I just 
want to make that point.
    And I will turn to Mr. Carter.

                     BORDER SECURITY: TUCSON SECTOR

    Mr. Carter. Thank you, Mr. Chairman.
    I have an awful lot of questions, but, first, I would like 
to point out the failure of the Democratic Party to create a 
budget last year and the failure to appropriate any money last 
year. We have had a 4-month CR, created by the Democrats, and 
two 5-week CRs by the Republicans. And it is time for all us to 
come to the table and start getting this thing done.
    I have some questions that I am very concerned about, and I 
think you have before you something Mr. Culberson prepared. I 
am going to start with this. Looking at that document you have 
there, and I look at 2007, it has gotten better in the Tucson 
sector, but the Tucson sector looks like, to me, a 
superhighway.
    It starts at 800,000 in 2007 and comes down to 200-and-
something thousand today. I believe that there is a reason for 
that, and that is that the Border Patrol is prevented from 
going on several government lands, U.S. Government lands, that 
happen to dominate the Tucson sector. And it is my 
understanding, from talking to Members--Rob Bishop on the 
Resources Committee that many of the vehicle barricades that we 
created with some of the money we did on the Southwest border 
were to keep the Border Patrol out of certain areas, of 
conservation land and other things that are on the border.
    Is it a major factor that the Tucson corridor, with all of 
its public lands that border on Mexico, that prevents you from 
using vehicles to chase down these people inside U.S. lands?
    And there is a House bill that is being proposed, of which 
I am a cosponsor, H.R. 5016, which would resolve that matter 
and allow the Border Patrol to pursue those areas. Would that 
be something that would help you?
    Chief Fisher. Well, sir, my understanding--and I actually 
had an opportunity, about a month or so ago, to go down into 
the Tucson area, along with representatives from the Department 
of Interior and others. We currently have, and have had for the 
last few years, a memorandum of understanding [MOU] that allows 
us to go onto public lands in situations where we have to 
effect an arrest.
    So, to my knowledge, and even in that particular area, the 
Organ Pipe, where those vehicle barriers were put up over the 
years, Department of Interior told me at the time it has 
drastically reduced the amount of vehicle entries that were 
coming through there.
    There are a whole host of factors that we believe 
contributed to the high numbers in Arizona over the last 10 
years or so, and I would be more than welcome to talk about 
those in particular.
    Mr. Carter. Well, I am going to take the worst-case 
scenario here. In 2007, 800,000 crossed in the Tucson sector, 
and the next highest is 152,000 in San Diego. They turned loose 
98.6 percent of the people that were apprehended, of the 
800,000 apprehended.
    So, there is something pretty badly wrong in Tucson, in the 
Tucson sector, as it compares to the rest of the Southwest 
border. It is like the 800-pound gorilla in the room. If it is 
not the fact that it is public land, if we are wrong on that, 
then I would like to know what it is.
    Chief Fisher. Yes, sir. And, again, there are many factors. 
One thing, in particular, with our strategy--matter of fact, 
the Commissioner talks about Tucson in particular, that sector 
and that State as being the last stand for the smugglers.
    It is so because, since 1993, when we started in El Paso, 
we saw the majority of traffic there in El Paso. And then we 
moved it over to San Diego back in the 1990s, where they were 
seeing an increase of over 500,000 apprehensions during that 
time. And it moved over, hit a little bit in south Texas, but 
it stayed in Arizona for the last 10 years.
    When I was there, at the high-water mark, for instance, of 
the 1.6 million apprehensions the United States Border Patrol 
agents made that year, 616,000 were in that sector. Last year, 
it was 212,000.
    There are two factors, predominantly, why they are still 
there. One is because there are very few other areas with that 
legitimate infrastructure I talked about that they can go back 
to. They can't go back to San Diego. They tried in 2007 and 
2008. They tried going back in El Paso in small numbers.
    The other thing is, because of what is happening in Mexico, 
the lateral movement in Mexico between these smuggling 
organizations is not what it used to be. It used to be they 
could move across in Mexico, pay the plaza, get their people 
and the narcotics through, and do business that way. Until that 
settles, a lot of times they are not able to move out of those 
areas.
    Mr. Carter. So you are saying to me that a bill that would 
open up those public lands would be of no benefit to you at 
all?
    Chief Fisher. I think when we look at our current MOU, some 
of the changes that we are working with Department of the 
Interior would include positioning mobile technology, not 
permanently, necessarily, but in areas. Because the current MOU 
right now suggests that we are able to go in in what is called 
``hot pursuit.'' When we make a detection and we are trying to 
go through public lands, to include wilderness area, that 
allows for us to be able to do that.
    What the current MOU does not, at this point, allow for is 
for us to go in and move, for instance, a mobile surveillance 
system. And we are currently working that with DOI [Department 
of Interior] in specific areas to be able to do so.

         BORDER SECURITY: BORDER PATROL AGENT DEATH IN ARIZONA

    Mr. Carter. I think I have time for one more question. It 
is reported to me that, in Arizona, an ambush was set up. I 
don't know what sector it was in--in the Tucson sector, I have 
been told, and that one of our agents was armed with a weapon 
that fires beanbags. When the fighting started, he was shooting 
beanbags and they were shooting live ammunition, AK-47s, and he 
got killed.
    Now, what in the world are we sending a Border Patrolman 
out for an ambush with a beanbag gun? It was a SWAT team, I am 
told by Mr. Culberson.
    Chief Fisher. Yes, sir, I believe you are referring to the 
incident back in mid-December that involved the tragic death of 
Agent Brian Terry, who was a member of the Border Patrol 
Tactical Unit. That occurred in the mountains west of Nogales, 
Arizona.
    What I can tell you, sir, because it is still an ongoing 
investigation, all of the Border Patrol agents that were 
deployed in there had deadly force.
    Mr. Carter. Except him?
    Chief Fisher. No, sir. He did have deadly force.
    Mr. Carter. Well, the report is the gun was loaded with 
beanbags. That is not deadly force, is it?
    Chief Fisher. Well, the team deployed with a variety of 
weapons, sir. And I----
    Mr. Carter. So he just grabbed the wrong gun?
    Chief Fisher [continuing]. No, sir, that is not the case.
    Mr. Carter. You are investigating that?
    Chief Fisher. Actually, the FBI is the lead investigative 
agency. And the United States Attorney's Office in Arizona is 
still working that case, sir, so I can't go into further levels 
of detail. I think you would understand that.
    Mr. Carter. Well, I will let you ask that question. Am I 
through?
    Mr. Aderholt. Yes, forgive me. Time is up.
    Mr. Carter. Thank you.
    Mr. Aderholt. Mr. Dent.

               BORDER SECURITY: UNIFIED COMMAND STRUCTURE

    Mr. Dent. Thank you, Mr. Chairman.
    Just a few quick questions. Chief Fisher and Commissioner 
Winkowski, we understand that CBP has been establishing a 
unified command structure for the Southwest border, similar to 
efforts undertaken by the Coast Guard. In addition, we know DHS 
has been looking at a more unified interagency approach to 
border security, looking to models such as the Joint 
Interagency Task Force-South. They combat narcotics, as you 
know, from South America and the Caribbean.
    What progress has been made in implementing this unified 
approach at CBP? And what difference is it making, if any at 
all?
    Chief Fisher. Sir, I can tell you, at the beginning of 
December, in Arizona, CBP stood up what is called the Joint 
Field Command. And we are just starting to set here in 
Washington, D.C., the Joint Operations Directorate.
    As most joint commands go, it was an area, one, as the 
lines to combat transnational threats started up in September 
of 2009. As that matured, we started with a unified effort, we 
moved toward unified command, and now we are matured to a joint 
command construct.
    It is still relatively early to ascertain the extent to 
which it has increased, but I can tell you--and I will 
certainly ask Mr. Winkowski to comment, as well, if he so 
chooses--we have one person that speaks for the commissioner 
from a strategic level in the field, being able to look at 
Border Patrol operations, look at field operations--because 
they aren't separate, as Mr. Winkowski indicated, at and 
between the ports of entry. And we have currently invested over 
6,000 Border Patrol agents and officers in that State. Having a 
joint command helps us set a construct to be able to make sure 
that the implementation of that strategy is reaching the 
objectives and goals as previously stipulated.
    Mr. Winkowski. Congressman Dent, the only thing I would add 
is, you know, prior to the creation of DHS, down in, for 
example, at a port of entry, you had, really, three government 
agencies running the port of entry. You know, you had the 
Customs Service, where I came from, under the Treasury 
Department; you had the Immigration and Naturalization Service 
under the Justice Department; and you had USDA under the 
Department of Agriculture. We made it work.
    The creation of DHS and CBP, 8 years ago this month, 
brought a whole new level of one agency, one department owning 
the borders, us being, you know, CBP owning the ports of entry, 
between the ports of entry, and the air-marine side.
    And we have matured in 8 years. And I think we have matured 
to a point where we needed to look at, ``Is there a better way 
from the standpoint of managing our mission?'' And we did a lot 
of research on this and took a lot of pieces from the 
Department of Defense with Goldwater-Nichols.
    I have had the opportunity, as Chief Fisher has, to spend a 
lot of time down in Tucson. And having one commander that is 
responsible for what is happening in that particular sector, to 
me, makes a great deal of sense. And what that means for my 
position for that particular area, as we continue to grow in 
there, is that I am going to organize, train, and equip, versus 
the operational side because the commander is responsible for 
the operational side.
    So, as the chief indicated, we have a ways to go. It is 
maturing. You know, we have, in this particular case, a Border 
Patrol agent that is in charge of the joint command. But, as 
the deputy, the joint commander is a field operations leader.
    So I think it is a good thing. I think it is innovative. I 
think we have matured to a point where we need to begin the 
process of re-looking at how we manage the borders.
    Mr. Dent. What are your results and goals of the joint 
unified efforts, and what are the cost savings?
    Mr. Winkowski. From the standpoint of the Joint Field 
Command?
    Mr. Dent. Uh-huh.
    Mr. Winkowski. We are not there yet. I could not sit here 
and give you a dollar savings. From the standpoint of 
streamlining the process, I think, again, having one individual 
in charge of that particular sector, which includes ports of 
entry and between the ports of entry, certainly streamlines the 
management reporting, because the commander reports directly to 
the Deputy Commissioner of CBP.
    Mr. Dent. Through a consolidation, do you see a better use 
of existing resources?
    Mr. Winkowski. Yeah, I believe so. And, again, time will 
tell here, but that commander has the full authority of 
shuffling resources. So if that particular commander wanted to 
take positions from the Customs and Border Protection officer 
position and place them someplace else in that particular AOR 
[area of responsibility], he has the full authority to do that.
    Typically, what would happen is, in order to do things like 
that, there is, you know, a reporting process that the director 
would have to come through and the headquarters. And we have 
streamlined that.
    So, for example, we see on the Southwest border with our 
outbound operations at the ports of entry; we see Border Patrol 
agents at the ports of entry working outbound operations with 
our border protection officers. We see border protection 
officers up at checkpoints, which traditionally was just 
handled by Border Patrol.
    So, you know, we are seeing this knitting; we are seeing 
this integration of personnel. And, as I mentioned in my oral 
reply, we all bring different skill sets to the table, Field 
Operations and Border Patrol. Now it is time--we have done a 
great job merging. Now it is time to really integrate.

                            AIR INTERDICTION

    Mr. Dent. And if I can just quickly go to the Admiral, just 
to talk about your aviation assets and capabilities for a 
moment. The Coast Guard has experienced a number of aviation 
casualties over the past few years, as you know.
    Do you have a plan to replace the two C-130Hs and two of 
the HH-60s that were recently lost? It appears that you have no 
plan under way to replace the two HH-65s that were also lost in 
mishaps. How are you mitigating the gap created by the absence 
of these aircraft, and what is your plan and timeline to 
replace these assets?
    Admiral Zukunft. Yeah, for the H-65 gap in particular, we 
are able to cover that with the remainder of our fleet. And 
these are short-range helicopters. They, you know, do the 
lion's share of our coastal search and rescue, and then they 
also embark at sea. They are the same helicopters that carry 
our HITRON. These are our precision marksmen that shoot 
outboards of go-fast vessels.
    So we are not missing any opportunities to send cutters 
doing counter-drug missions that don't have a helicopter. So we 
are able to work within our mix. Clearly, the critical pieces 
are the C-130s that provide that long-range surveillance, and 
the H-60s provide a longer-range capability, as well.
    Mr. Dent. What is your best tool for air interdiction? 
Helicopters? Fixed-wing?
    Admiral Zukunft. Helicopter, by far.
    Mr. Dent. Is that true for the rest of you on interdiction?
    Chief Fisher. Yes, sir, the helicopter. Either the UH-60 or 
the--the Black Hawk or the Huey.
    Mr. Dent. Okay. Thanks.
    I yield back.
    Mr. Aderholt. Mr. Culberson.

            BORDER SECURITY: APPREHENSIONS AND PROSECUTIONS

    Mr. Culberson. Thank you, Mr. Chairman.
    We deeply appreciate the work that you do and are really 
committed to help you in any way that we can.
    Chief Winkowski, you really zeroed in on it, and that is 
the key, as all of you know as law enforcement officers, is to 
impose consequences and change behavior, and what do we do as a 
country, what do you all do as law enforcement officers to 
change behavior. And the key is imposing consequences. Criminal 
consequences is the most successful.
    And, if I could, Mr. Chairman, I wanted to ask if I could 
enter into the record, if I could, Mr. Chairman, without--
without objection, can I enter this into the record?
    Mr. Aderholt. Absolutely. So ordered.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Culberson. Thank you.
    I gave everybody a copy of this. This is numbers that I 
collected with you all's help, Chief Fisher. And I really, 
really appreciate you all's help in putting this together.
    This is the first time that I have ever been able to see 
these numbers all put together. And I have gave it to each one 
of the members of the committee.
    Because you can pretty quickly see what the problem is in 
Tucson. And noticed, when I first started bringing this to the 
Subcommittee's attention, as Mr. Carter says, in the Tucson 
sector in fiscal year 2007, if you were picked up by the Border 
Patrol, you had a 98.6 percent chance of being home in time for 
dinner. And you were basically out about 3 hours in the lode, 
which is just, you know, terrible. And, as a result, they are 
just pouring through in Tucson. In 2008, you had a 99.6 percent 
chance of never being prosecuted.
    And I can't get numbers--Chief, could you help me get 
numbers for 2009? I am not sure why we couldn't get good 
numbers for 2009.
    [The information follows:]

    Representative Culberson: And I can't get numbers--Chief, could you 
help me get the numbers for 2009: I am not sure why we couldn't get 
good numbers for 2009.
    Response: In Fiscal Year 2009, CBP's Border Patrol apprehended 
556,041 aliens between the Ports of Entry nationwide, 540,865 of those 
on the Southwest border. During the same time period, CBP's Border 
Patrol had 60,603 Accepted Prosecutions nationwide, 60,064 of those on 
the Southwest border.
    Additional information regarding this question has been provided 
separtely to the Committees since it is for Official Use Only/Law 
Enforcement Sensitive.

    But notice in 2010, I mean, after a result--and you all 
have put in a lot of hard work, and this committee has put in 
the resources--deeply appreciate Chairman Price's and Chairman 
Aderholt's commitment to this. And, Chairman Price, in the time 
you worked on this, sir, you were able to put resources into 
the Southwest border, and it has made a big difference.
    In those sectors, Chief Fisher, where there are 
consequences being imposed and the--kind of the gold standard, 
in my opinion--and I have looked at this carefully and worked 
on it for many years, as everybody knows on the Committee. And 
you all know this has been near and dear to my heart, something 
I have worked on for many years. The gold standard is Judge 
Alia Ludlum in the Del Rio sector.
    Your sector chief there, sir, tells me that they have the 
lowest level of crossings they have ever seen, that things are 
very quiet. You know, you can hear the crickets chirping in Del 
Rio. The streets are safe. The community is thrilled. There is 
strong support among the local community, which is 96 percent 
Hispanic, for enforcing existing law, with primarily existing 
resources, with the close cooperation of the Border Patrol or 
the marshals or the judges or the prosecutors or the sheriffs, 
of CBP and ICE. There is a great cooperative relationship 
there, and that is sort of where Streamline started. And Judge 
Ludlum has had great success with it.
    I believe, Chief Randy Hill who was in El Paso, was just 
moved to Tucson. God bless him, you sent him under Niagara 
Falls. He is out there standing under Niagara Falls.
    And if I could, Members, bring your attention to what 
happened in El Paso. Chief Randy Hill was the chief in Del Rio, 
working with Judge Ludlum. And that is why you see, Members, 
the prosecution rate in Del Rio is so high in 2007, in 2008. 
And we are going to get numbers for 2009. And it is still high, 
but you moved Randy to El Paso, I guess, over the last 2 years, 
Chief? And he is just doing a magnificent job. And because of 
the problems there in Nogales--excuse me, in Juarez and his 
work with the local folks, he got the prosecution rate in El 
Paso up to 65 percent.
    And I just want to confirm for the record, gentlemen, that 
this is the key. If we enforce existing law, impose real 
consequences--and the existing law is up to 6 months in jail. 
It is a criminal prosecution. And the consequence they are 
imposing, I want to make clear for the record, Members, is--for 
example, Judge Ludlum has given them a week, 2 weeks, a month, 
a couple of months, depending on the circumstances.
    Obviously, if it is an aggravated offense, if the 
individual has assaulted the officer, if they are carrying 
drugs, if they are carrying a weapon, they are in a special 
category, and they get zapped with a really serious criminal 
penalty. But if they are an economic migrant, if they are 
crossing, they have no other aggravating circumstances, that is 
what we are looking at here. They are being given a few weeks, 
a few days, a month maybe if they aggravate the judge, you 
know, bad attitude, fail the attitude test.
    And, as a result, they are just not crossing. You don't see 
them crossing in Del Rio. The crossings in El Paso are down. In 
Yuma, where you have the Streamline program in effect, the 
illegal crossings are down. The local community supports this.
    Enforcing existing law with largely existing resources 
truly works. Is that all an accurate summation of what we see 
with these numbers and the work that is being done in these 
sectors where the law is being enforced?
    Chief Fisher. Mr. Culberson, there are two areas where I 
first want to start; I do want to agree that consequences, and, 
in particular, prosecution, is a key. I don't necessarily think 
it is the key, and let me explain why.
    One, when you look at comparing and contrasting data like 
this--and this is something we were taking a hard look at over 
this past year--there are a lot of other variables to take into 
consideration. Places like Del Rio and others, when they 
instituted the Operation Streamline, the levels of activity and 
apprehensions were much lower than they were in Arizona. So you 
are looking at different judicial districts. You are looking at 
the capacity with jurisprudence to do that.
    Mr. Culberson. Sure.
    Chief Fisher. But there is another critical piece here that 
we are looking at, as well. We have taken a look at about a 
dozen different consequences that we have at our disposal 
subsequent to an arrest. And instead of looking at each of 
those programs and trying to figure out, well, which one has 
the best recidivism rate, which one has the best re-
apprehension rate, what we decided to do is come up with what 
is called a ``consequence delivery system.''
    And what that does, very quickly, is it takes all, in a 
particular area, all the consequences that are available to 
CBP, and then we do an analysis of alternatives where we take a 
look at schedule, performance, and cost and try to figure out 
what we are trying to effect.
    And, in all consequences, there are two primary things we 
want to effect: One are the individuals, and two are the 
criminal organizations. And, in doing so, Streamline may be a 
key that we would want to, in specific populations, go forward 
to the U.S. attorney for prosecutions. But, in other cases, we 
may not because of the outcomes that we are trying to achieve.
    Mr. Culberson. What other consequences are available to 
you? I mean, the immigration court is a civil proceeding.
    Chief Fisher. Right.
    Mr. Culberson. So the only real consequence--and I have 
looked at this closely--that really has an impact is the 
criminal prosecution. Then you have these guys 10-printed. If 
they come back, it is up to 2 years. They don't come back, you 
don't get repeat customers, if it is a criminal prosecution.
    Chief Fisher. Yes, sir. But, again, not all Streamline 
cases and dispositions are the same. In other words, in 
Arizona, for instance, the sentencing under their Streamline 
cases--and they are doing 70 cases per day in Arizona, but the 
time served is 3 to 4 days. So when you really look at the 
consequence, it is not the program, it is what is happening as 
a result of that consequence.
    So, one in particular would be the Operations Against 
Smugglers Initiative for Safety and Security, also known as 
OASISS, where we take the case, we take the principal, we take 
the material witnesses, and we develop the case for prosecution 
of smuggling in Mexico, and we turn over that case and the 
principals to PGR [the General Prosecutor] in Mexico. We have 
seen very low recidivism rates when we do that.
    So, again, it is based on the outcome and what we are 
trying to effect, not just putting people into programs for the 
sake of the program.
    Mr. Culberson. Okay.
    Mr. Chairman, thank you.
    Mr. Aderholt. Thank you.
    Ms. Roybal-Allard.

                OFFICER CONDUCT AND INTEGRITY ASSURANCE

    Ms. Roybal-Allard. Mr. Fisher, I have been deeply troubled 
by the long and growing list of Border Patrol misconduct cases. 
According to the LA Times, over the past 2 years at least five 
Border Patrol agents have been accused or convicted of sex 
crimes, including one individual who assaulted an immigrant 
mother while her children sat in a nearby car.
    Last May, an immigrant detainee died after being beaten and 
shocked with a Taser four times. In June, an agent admitted to 
assaulting an immigrant at a processing center, while later 
that month an unarmed 15-year-old boy was shot and killed in El 
Paso by Border Patrol personnel. And, in September, an agent 
went on trial for torturing a 16-year-old suspected drug 
smuggler.
    My question is, what steps is the Border Patrol taking to 
correct this pattern of wrongdoing? For example, what changes 
are being made in regards to the training and the supervision 
of the Border Patrol so that these things don't happen?
    Chief Fisher. Yes, ma'am. And we take every allegation very 
seriously, as you well imagine. And, certainly, we turn those 
cases, when they are brought to our attention--which, a vast 
majority of those cases come to our attention first, and we 
turn those over either to the Office of Inspector General, to 
ICE's OPR, or to our own Internal Affairs.

                 OFFICE OF PROFESSIONAL RESPONSIBILITY

    The specific things that we have put into place over this 
last year include, but are not limited to, the following: One 
is recognizing that even our CBP Internal Affairs Office, you 
know, we have backlogs in terms of background investigations 
and reinvestigations for current Border Patrol agents. So we 
are looking to get that backlog down.
    And we have also instituted over the years polygraphing 
employees. And we are also going to be hiring more polygraph 
examiners to be able to ensure that integrity, first and 
foremost, stays within our organization that we are very proud 
of.
    We are also looking at areas where we--when we had doubled 
the size of the organization are taking a look at supervisory 
ratios in specific locations and making those supervisory ratio 
adjustments, where appropriate.
    Ms. Roybal-Allard. Okay. Well, that brings me to the second 
question, and I think, in part, that you answered it. Because 
one of the concerns that was raised--and this was by Senator 
Mark Pryor of Arkansas--was that, initially, in the rush to 
hire Border Patrol agents, that hiring standards were lowered 
and that barely 15 percent of Customs and Border Protection 
applicants undergo polygraph tests, and, of those, 60 percent 
were rejected by the agency because they failed the polygraph 
or were not qualified for the job.
    So are you saying, then, that you are now improving your 
hiring standards and the rate of the polygraph tests and 
background investigations, everything that needs to be done in 
order to ensure that those who are working at the border meet 
the standards that we all want is, in fact, now going to be 
implemented?
    Chief Fisher. Well, the standards to increase, again, the 
background investigations and the reinvestigations, that is 
accurate. We are looking to increase that, to be able to reduce 
the backlog, and, also, to do more polygraphs than we have done 
in the past.
    Ms. Roybal-Allard. Okay. And about existing Border Patrol, 
in that same Washington Post story, it says that the number of 
CBP corruption investigations opened by the inspector general 
climbed from 245 in 2006 to more than 770 this year, and that 
corruption cases at its sister agency, the U.S. Immigration and 
Customs Enforcement, rose from 66 to more than 220 over that 
same period.
    So is something also being done to prevent those kinds of 
things from happening, not only in terms of the initial hiring 
and the background checks, but also in terms of the supervision 
and whatever else--you would know better than me--needs to take 
place in order to ensure that these kinds of things don't 
happen once folks are hired?
    Chief Fisher. Yes. And, in particular, CBP, with ICE and 
the Office of Inspector General, have worked this year. You 
know, the first of it is to try to, you know, broaden out and 
try to define the problem. You know, how many of the 
allegations, for instance, that may be contained in a lot of 
those numbers, how many of those were legitimate allegations? 
What happened with the investigation?
    So, as we get more information and share that information 
between DHS and the Inspector General, I think we are going to 
be able to make better judgments and informed decisions in 
terms of what we can do to minimize those numbers in the 
future.
    Ms. Roybal-Allard. Okay.
    Mr. Winkowski, did you want to----
    Mr. Winkowski. Thank you. The only thing I would add is, in 
my office, Field Operations, we have done a number of things. I 
think the most important issue that we have done is we have 
begun a process, what we call AMSCO, which is an office that 
has highly specialized officers in it in headquarters, that 
looks at the data.
    So, for example, in Field Operations, everything we do in 
Field Operations, we leave some type of electronic fingerprint. 
So, whether we are processing you on the land border, 
fingerprinting you, or making seizures, we are leaving 
fingerprints.
    And what we are doing and one of the things that has 
enabled us to move forward is the vehicle primary client, which 
was part of the Western Hemisphere Travel Initiative 
implementation, taking that data and asking questions: Why did 
that officer take only 5 seconds to process an automobile? I 
mean, typically, it is 45 seconds. Why didn't they run names? 
We are being more proactive and going in there and looking at 
these things and then raising those issues up to Internal 
Affairs and the IG. So, we are being more proactive, rather 
than sitting back and having others come in and say we have a 
problem.
    Ms. Roybal-Allard. Okay. Well, you know, we really 
appreciate what a difficult job you have, and so, any way that 
you feel that the committee can be helpful--I am speaking for 
myself, but I am sure that is true of the other Members--we 
really would appreciate that kind of input from you.
    Mr. Winkowski. Thank you.
    Ms. Roybal-Allard. Thank you.
    Mr. Aderholt. Thank you.
    Mr. Frelinghuysen.

              DRUG INTERDICTION: DETECTION OF SUBMERSIBLES

    Mr. Frelinghuysen. Thank you very much.
    I want to thank you individually and collectively for what 
you do. I hope to have a greater appreciation for what you do.
    I know you focused on interceptions of surface vessels, 
aircraft that are involved in drug smuggling. What about, 
Admiral, the use of submersibles, or submarines?
    I have read about it--we have all read about it for the 
last couple of years. I assume they are cartel-owned 
submersibles. What are we doing to interdict them? How many are 
there out there? What are the loads--what sort of loads are 
they bringing in? And how do you prosecute them?
    Admiral Zukunft. Congressman, I will take that, and it is 
several areas. One, clearly, the challenge is vexing once it is 
on the high seas. You know, both Coast Guard and our DOD 
partners have a significant resource challenge tracking, first 
detecting, then monitoring movement of a fully submersible.
    So, as I said earlier, it really starts with the 
relationships. And so our relationships with Colombia, with the 
Colombian National Police, detecting these as they are being 
assembled, detecting these at the launch point, the most 
critical point, is to get them at the----
    Mr. Frelinghuysen. With all due respect, with all of the 
assets we have at our disposal?
    Admiral Zukunft. These will operate over literally several 
million square miles.
    Mr. Frelinghuysen. Yeah, but----
    Admiral Zukunft. Yes, sir. And----
    Mr. Frelinghuysen. I assume they have signatures.
    Admiral Zukunft. Well, the challenges is, when they are 
fully submersible and they are not emitting any electromagnetic 
signature, it becomes----
    Mr. Frelinghuysen. So how many have we intercepted? Maybe 
you can----
    Admiral Zukunft. We have been able to--I don't have the 
exact numbers of the semi-submersibles that we have detected. 
We do have legislation in place where just moving one of these, 
in itself, is a violation of U.S. law.
    Mr. Frelinghuysen. So you are telling me that the 
Colombians, from what I can gather, have intercepted some of 
these submersibles, right?
    Admiral Zukunft. That is correct. There was one----
    Mr. Frelinghuysen. But we are, to some extent, beholden to 
their goodwill? Colombia has been, actually, a very good 
partner in that regard. So we are beholden to the goodwill of 
countries that are home to these cartels?
    Admiral Zukunft. Yeah, again, when these exist in the 
sovereign shores--and these are in largely what I would call 
ungoverned territories. These are in the jungles in the eastern 
Pacific----
    Mr. Frelinghuysen. What ever happened to the Monroe 
Doctrine?
    Admiral Zukunft. They will carry upwards of 10 metric tons 
of cocaine. And that is what we have seen----
    Mr. Frelinghuysen. Well, give us some good news on the 
Committee--if that is allowable, Mr. Chairman--how much would 
you characterize we have seized through the utilization of 
these types of vessels?
    Admiral Zukunft. I can get back to you with those exact 
numbers. I know, when I was commanding the 11th District just 
more than a year and a half ago, we seized five of these and 
more than 40 metric----
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Frelinghuysen. Five out of what, 505 or----
    Admiral Zukunft. Out of the ones we detected.
    Mr. Frelinghuysen [continuing]. Well, have we made any 
estimates as to how many of these----
    Admiral Zukunft. We have not. And we had a recent 
interdiction, as I said, about 2 months ago of one before it 
was able to launch.

                    OFFICER FOREIGN LANGUAGE SKILLS

    Mr. Frelinghuysen. Just a last question. Throughout your 
workforce--and we give you credit for having a tough job, a 
dangerous job--linguists, a bilingual workforce, do you have a 
full complement of the people you need? Generally speaking, can 
you provide a brief response?
    Mr. Winkowski. Yes----
    Mr. Frelinghuysen. No lacking of people who can immediately 
identify----
    Mr. Winkowski. No, we have, as a matter of fact, a program 
in place that, depending on the level of their ability to speak 
a foreign language, we can pay up to a 5 percent award for 
that. So, the vast majority are Spanish speakers, but we also 
have a whole cadre of individuals that speak Asian languages 
and Middle Eastern languages, and oftentimes we use those 
officers to help out our investigators and others.
    Mr. Frelinghuysen. So, no lack of information or the 
ability of people to download it and understand it because of 
linguistic issues?
    Mr. Winkowski. Right. No.
    Mr. Frelinghuysen. Okay. Thank you, Mr. Chairman.
    Thank you all.

                 BORDER SECURITY: RESOURCES AND RESULTS

    Mr. Aderholt. Thank you, Mr. Frelinghuysen.
    Let me shift now to a little bit different topic in one 
regard, but still keeping within the overall theme, the 
operational control and resources.
    Let me direct this to you, Chief Fisher. I know you are at 
the front of the table, and it seems like you get directed most 
of the questions, but this question would probably be more 
aptly asked going toward you.
    The Border Patrol has dramatically grown in the past few 
years. At the same time, we have not achieved operational 
control of the border.
    Let's talk about resources more specifically. What is the 
right mix of technology, infrastructure, and people to achieve 
operational control? And how many agents will you need?
    Chief Fisher. Mr. Chairman, over the last year or so, one 
of the things that I had asked the field commanders to assess 
was just that.
    As of the last few years, we have been in what is called a 
gain mode. We needed the resources. We had no idea what the 
numbers would be, in terms of miles of fence, for instance. We 
didn't know what the technology could bring to us, and we don't 
know how many Border Patrol agents we needed. We just knew we 
needed more.
    And so what we are doing, now that we have the fence and we 
have seen what that has been able to do to us, predominantly in 
the urban areas, we are getting more and more technology, and 
more mobile technology, which is really going to be critical.
    And now that we have a workforce of 21,000--I had mentioned 
earlier about our doctrine approach. What we want to be able to 
assess is not whether we need more Border Patrol agents across 
some linear line in some astronomical number because that, in 
and of itself, is not going to achieve, whether by our 
definition, operational control nor any levels of operational 
security.
    And so what we are doing now is trying to figure out, with 
those deployments, what have we seen as a result of those 
deployments? And, in particular, how can we use and deploy 
those assets differently to achieve the same end state?
    As a quick example, when I was a Border Patrol agent many 
years ago, a sensor would go off, I had no idea if that was a 
cow, if that was people, if it was backpackers. And so, what I 
did, on my own, I would have to get out of a vehicle with a 
flashlight, kind of run through the mesquite trees, catch some 
sign, track it. And then, all of a sudden, I would come upon a 
group. Maybe there was dope; maybe there wasn't.
    And so, what we are doing now is--that doctrine is a lot 
different than we are training Border Patrol agents. Now we 
have the ability not only to detect but also to identify and 
classify that threat. So instead of sending the Border Patrol 
agent in there, what is our concept of operations for deploying 
a UAS, for instance, to make that identification and 
classification? And instead of having Mike Fisher with his 
flashlight go out there, how about we have a six-man team in an 
air-mobile concept going out there and effectively making that 
arrest? Increased certainty of apprehension in a consistent 
manner gives us a higher level of border security and helps us 
even within our own operational control definitions.
    Those numbers that you had asked for specifically in terms 
of Border Patrol agents, I don't have that information for you 
right now. But that is our attempt right now as we are looking 
at the strategy and how we redeploy those resources to get that 
level of operational control and border security that everybody 
expects.
    Mr. Aderholt. Of course, you know this Subcommittee wants 
to get you the resources you need to do your job.
    Chief Fisher. Yes, sir.
    Mr. Aderholt. But, of course, throwing money at the border 
without a clear understanding of how that funding buys you 
capability and makes the border secure is something different.
    Very simply, we have been asking for nearly 4 years for the 
Border Patrol's mission requirements and how the technology 
infrastructure proposed meets those needs.
    With the Secretary's announcement on the new Arizona border 
technology plan, we again have requested the basis for this 
change. How does your plan specifically meet your mission 
requirements?
    Chief Fisher. Very succinctly, sir, I will say that part of 
the analysis of alternatives in the Secretary's assessment, we 
were part of that, within the Border Patrol and, certainly, 
CBP. And what we are looking at doing is taking commercial, 
off-the-shelf technology and using that, specific to the 
terrain, specific to the threats and vulnerabilities that we 
see on the border. And our field commanders help assess that 
for us.
    So, as we start rolling out mobile surveillance systems 
with radar capabilities, daytime/nighttime cameras, seismic 
sensors, increased detection and identification and 
classification systems, those levels and those deployments are 
different than, for instance, building the Block 1 systems that 
we have seen under SBInet in Tucson and Ajo.
    Those systems are currently working for us, in terms of 
giving us a broader situational awareness. But the assessment 
piece also wanted to take into consideration, to what extent 
did we want to build all of that across the 2,000 miles of 
border? And so, what we came in--and based on the field 
commander's recommendations and, certainly, my concurrence in 
looking at the border, is having more of a mobile capability so 
that we can respond to those threats, should they materialize.
    Mr. Aderholt. Well, again, we want to support you, but we 
need your help. I would like your assurance to this 
Subcommittee that we will promptly receive thorough 
justifications for the hundreds of millions of dollars' 
investment you have requested?
    Chief Fisher. Yes, sir.
    Mr. Aderholt. And, in particular, how the technology 
proposed provides the best possible security at the lowest 
possible cost to meet Border Patrol needs.
    Chief Fisher. I will take that back as an action item, Mr. 
Chairman, and provide you what I am able to.
    Mr. Aderholt. Thank you. I appreciate that.
    [The information follows:]

    Chairman Aderholt: . . . in particular, how that technology 
proposed provides the best possible security at the lowest possible 
cost to meet Border Patrol needs.
    Chief Fisher: I will take that back as an action item, Mr. 
Chairman, and provide you what I am able to.
    Response: The overarching operational requirement is the need to 
achieve awareness of border activity through surveillance and detection 
to facilitate apprehension. By addressing this operational requirement, 
the Alternative Southwest Border Technology Plan seeks to enhance 
mission needs/mission criteria: to Detect, Identify, Classify, Track, 
and Respond/Resolve threats.
    With the DHS Analysis of Alternatives (AoA) as supporting evidence, 
CBP's Office of Border Patrol (OBP) convened a panel of field 
operational subject matter experts from the Tucson and Yuma sectors. 
These experts were tasked to determine what technologies were required 
to achieve the field awareness and the probability of apprehension 
needed in each of their areas.
    OBP wanted to ensure that the field operational perspective and 
expertise from each area were leveraged to provide the most viable 
solution. These solutions are designed to fill the mission needs in 
their respective operational environments.
    The Homeland Security Studies and Analysis Institute, who conducted 
the DHS AoA, briefed these field experts on the results of the AoA. The 
OBP panel of subject matter experts, informed by the results of the AoA 
and their detailed knowledge of the border areas and the threats to 
those areas, conducted a mission analysis and subsequently developed a 
detailed technology deployment plan for Arizona.

    Mr. Price.

          OFFICER CONDUCT AND INTEGRITY ASSURANCE: POLYGRAPHS

    Mr. Price. Thank you, Mr. Chairman.
    I want to develop a couple of previous lines of questioning 
further with Chief Fisher and Assistant Commissioner Winkowski, 
if I might, the first having to do with the important efforts 
to ensure the integrity of the CBP forces; and then, secondly, 
some further questions about the hiring, using supplemental 
funds and hiring in general.
    CBP testified last year that the Mexican drug cartels had 
had some success in infiltrating Federal law enforcement 
agencies along the border. There had been cases of CBP officers 
assisting drug cartels, letting vehicles pass.
    Ms. Roybal-Allard raised earlier the rather alarming 60 
percent polygraph rejection rate that you are seeing with 
current job applicants. That, of course, raises questions about 
who might have been hired when you weren't regularly applying 
polygraph screening. So how big a problem is this, in general?
    There are some cases that are troubling, the case of Border 
Patrol Agent Marcos Manzano, who was illegally harboring a 
previously deported felon who was distributing narcotics from 
the agent's home. It took 15 months from the time FBI received 
the allegations until that agent was arrested.
    Now, we need to tie this, I think, to your plans for the 
coming year and to your budget request. Your 2012 budget 
request includes an additional $26 million for CBP integrity 
programs--polygraphs, background investigations, periodic 
reinvestigations--the idea being to progress toward the 
requirements of the Anti-Border Corruption Act.
    Now, in the past, CBP has not been able to polygraph all 
its new applicants. In fiscal year 2008, only 5 percent 
received a polygraph. I understand that figure has now grown to 
around 25 percent. It seems clear to me that polygraphs and 
background investigations are critical to make sure that you 
have reliable employees.
    What will that $26 million buy? If that increase in your 
budget is enacted, will you be able to polygraph all CBP 
applicants before they come on board? And then, other than 
increasing funding for integrity programs, what actions have 
you taken and do you plan to take to rout out unreliable 
personnel?
    Chief Fisher. Sir, our intent is to polygraph as many 
applicants as we can prior to bringing them on board and 
training them as Border Patrol agents.
    And I will also tell you that, beyond just the polygraph 
and the background investigations that we had mentioned, the 
other thing within our organization----
    Mr. Price. Well, excuse me, but I caught the ambiguity in 
that answer to Ms. Roybal-Allard, and that is why I asked it 
more precisely. What does ``as many as you can'' mean? What 
kind of assurances can you give?
    And there had to be some basis for that $26 million 
request. No doubt it is not just about polygraphs. But what 
kind of assurances can you give that we are really going to 
move to much higher and more reliable rates of screening?
    Chief Fisher. Well, sir, for clarification, it is my 
understanding that we are building capacity to be able to do 
polygraphs up to 100 percent, with the increase in the 
examiners and with the money that was appropriated.
    Mr. Price. Yes, sir. Would either of you want to elaborate 
on further measures, either those that are indicated in this 
budget or efforts that are otherwise under way?
    Mr. Winkowski. Several thoughts, Congressman Price.
    I think the polygraph program, as proposed and in law now, 
is a step in the right direction. I really believe that the CBP 
officers, the Border Patrol agents, the ICE agents, Coast 
Guard, we are national security positions, and we have to be 
treated as such.
    And I think polygraph is good. It is a good start, from the 
standpoint of all new--my understanding and Commissioner 
Bersin's goal, as I understand it, is that every new applicant, 
whether Border Patrol or a CBP officer, would be polygraphed, 
and that would be part of that $26 million.
    I think the other thing, and I mentioned it earlier, was 
that we need to take, I think, a more proactive, a more 
aggressive approach from the standpoint of using the data that 
we have out there. You know, there is a lot of opportunity 
there, and I think we have to keep in mind that we have this 
small group. We have, you know, 60,000 employees in CBP, and we 
are talking about this very, very small group. And we have 
fallen short. There is no doubt about that. And one corruption 
case is one too many.
    But I think, as an office, we need to be more proactive, 
more forward-leaning from the standpoint, at least in the field 
operations area, of using the data, using the processing data 
from the standpoint of data integrity and from the standpoint 
of looking at how those data are used, how that process is 
taking place real-time out on the line, and asking questions 
about it. As I mentioned earlier, why did three cars just go by 
and nobody was queried?
    We have that capability now. And we have an office that has 
been established in which that is part of its function. But I 
think we need to be much more forward-leaning.
    And I personally believe that, you know, polygraphing all 
new applicants is important. And I think it is also important 
that we institute some type of a random system from the 
standpoint of polygraph, if we are going to look at ourselves 
as national security positions.

                    BORDER SECURITY: OFFICER HIRINGS

    Mr. Price. Thank you.
    Let me move quickly to this question of hiring, using the 
supplemental funds. You both gave partial answers to that 
earlier and helped us understand what seems, on the face of it, 
certainly, seems to be a slow pace of hiring.
    I wonder, Chief, if you can elaborate and let us know of 
those thousand Border Patrol agents, what portion will be on 
board by the end of the fiscal year. I am talking specifically 
here, of course, of the ones funded in the 2010 supplemental 
appropriation.
    And Commissioner, the same for the 250 CBP officers.
    Finally, let me just raise an issue, and you may need to 
respond in more detail for the record. There are questions, 
again, on the face of it anyway, about the allocation of these 
officers. The plan that you have submitted, the expenditure 
plan, indicated 500 new Border Patrol hires would be deployed 
in the Tucson sector. The remaining 500 will be part of a 
mobile team disbursed into the largest Border Patrol sectors--
El Paso, San Diego, and the Rio Grande Valley--and will be used 
to rapidly respond to threats and intelligence-driven 
operations.
    How is that determined? How is the deployment of these 
mobile response team members determined?
    El Paso has a very low apprehension rate, yet you are 
deploying up to 187 additional agents there. Rio Grande is 
getting none, although your expenditure plan had indicated it 
would receive some. El Centro sector, which has the second-
highest percent of apprehensions, receives none.
    It just, on the face of it, doesn't seem to add up, or at 
least there is kind of a gap in terms of the rationale. Could 
you say what you can say orally here and then perhaps elaborate 
for the record?
    Mr. Aderholt. Yeah, if you could briefly answer that, and 
then we are going to go on to Mr. Carter.
    Chief Fisher. Yes, sir. The 500 of the 1,000 that are 
earmarked for the mobile response teams [MRTs] along those four 
corridors that you identified--although they would be 
stationed, because we have to put the billets somewhere--are 
going to be on those four locations. The intent is to have that 
capability to be able to move them either within that sector or 
within the corridors to broaden their resource capability 
outside of that location.
    For instance, El Centro, if El Centro has a requirement, 
increased threat or activity or hotspot, the MRTs in San Diego 
could be moved over there up to whatever level of additional 
requirements they would need a lot cheaper than me assigning 
agents from across the Southwest border over to El Centro. So I 
am putting them across the Southwest border and for the primary 
corridors on the basis of threat. They also can be redeployed 
outside of those corridors if need be.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Price. Mr. Chairman, may I just ask, before you turn to 
Mr. Carter, for a quick answer to my main question, which had 
to do with where we could expect these hiring levels to be at 
the end of this year? From each of you, if you don't mind.
    Chief Fisher. Sir, we are on track by September of this 
year to have 21,370 Border Patrol agents. That does include the 
1,000 additional based on the supplemental funds.
    Mr. Price. Does or does not?
    Mr. Fisher. It does, sir.
    Mr. Price. It does include.
    Mr. Fisher. Yes, sir.
    Mr. Winkowski. And we will have the 250 on, by the end of 
the fiscal year.
    Mr. Price. By the end of the fiscal year.
    Thank you.
    Thank you, Mr. Chairman.
    Mr. Aderholt. Okay. Thank you.
    Mr. Carter.

            MARITIME SECURITY: COAST GUARD PRESENCE IN TEXAS

    Mr. Carter. Thank you, Mr. Chairman.
    I think I'd better start off by saying I may have come off 
a little harsh last time. I am an old trial judge, and some of 
you, at least, have dealt with judges in the past. But I want 
you to know that I am a friend of every agency you represent. I 
am a huge supporter of the Coast Guard. I have sat on the 
border with the Border Patrol in the dark. I have worked with 
all of your agencies and highly appreciate you, and I am on 
your side. I think you have a tough job, and I think you can do 
the job. And I asked the questions in a spirit of trying to get 
the job done.
    Now, to shift to a couple of questions. Admiral, I got a 
call last week from Texas State Senator Ogden on behalf of my 
Governor, Governor Rick Perry, asking if the Coast Guard would 
consider putting a permanent presence on our two lakes on the 
Rio Grande. And, even better, they would love to see you have a 
presence at least from the mouth of the Brownsville all the way 
up to the dam.
    If we can provide the resources and any authorization 
language to do so, would that be a mission that the Coast Guard 
could accomplish?
    Admiral Zukunft. Well, certainly, we are seeing what impact 
our surge operations have. Again, about each quarter, we send 
teams to each lake for about a 1-week period to see what 
impacts that has. You know, is this a transitory threat or is 
this one that is going to be there for perpetuity?
    And you did hear Admiral Papp say that, in order to source 
that within our base right now, we would have to rob from one 
mission set to do another. So, if this is clearly the will of 
our Nation, it would take a permanent presence, to include the 
infrastructure, to operate----
    Mr. Carter. I would hope it is the will of our Nation, but 
I can guarantee it is the will of the State of Texas, okay? And 
those folks count on me.
    Admiral Zukunft. Yes, sir.

                 BORDER SECURITY: LOCAL LAW ENFORCEMENT

    Mr. Carter. So I will be in touch with the Coast Guard and 
work with you on getting the additional resources and 
authorization language, if anything.
    Gentlemen, Texas cattle ranchers are the largest cattle-
producing State in the Union. We had 14 percent of the U.S. 
Beef cattle production in 2010. Mexico is a huge beef producer, 
and they purchase a whole lot of our beef. We swap cattle with 
Mexico, about 1.2 million head of cattle a year. And this is 
the normal commerce that goes on.
    In addition, our Rio Grande Valley is one of the highest 
crop-production areas for truck-farming-type crops in the 
entire country, outside of California.
    We are getting reports from our farmers and our ranchers 
that they are frightened and scared. Many of the ranchers are 
reporting that the Border Patrol has pulled back a mile from 
the river, in some instances, leaving them where they feel like 
they are out in ``no man's land''.
    Our Texas ag commissioner has just produced data. It came 
up yesterday, in fact--a Web site called 
www.protectyourtexasborder.com. I would recommend you go look 
at that. They show some of these ranchers and then, with night-
vision, showing you the invasion of their ranches.
    The irrigation farmers are saying they can't turn the water 
on at night in the Rio Grande Valley because they have been 
warned that if they flood the fields when they are coming 
across, they are going to kill them and their families.
    They are frightened on the border. And, you know, 
agriculture is the number-two employer and number-two part of 
the economy of Texas, oil being number one. And we desperately 
need something to protect those folks.
    And we are perfectly willing to give you more resources, we 
are perfectly willing to give the border sheriffs more 
resources, and local law enforcement more resources, whatever 
you think will help allow the citizens of Texas to live safely 
on that border.
    And I will tell you, from having this year visited the 
State of Arizona, God bless the people of Arizona. They don't 
even have a river. And I don't know how they are surviving. But 
I am right now talking about things that have been asked of me 
by my fellow Texans.
    Any place we can give resources to other law enforcement or 
to you, I am willing to do my very best to get that. And I need 
you to tell me how the cooperation is with locals. If it is 
enhancing border sheriffs and deputies from California to the 
Gulf of Mexico, we are willing to do it. You tell me what you 
need.
    So, do you have any suggestions? How about local law 
enforcement? More deputies backing you up, does that help?
    Chief Fisher. Yes, sir. Not only does it help, it is 
critical to our mission to be able to do that. As a matter of 
fact, with Operation Stonegarden grants that the Department 
hands out, that helps them to be able to augment the missions.
    And, again, it is not, you know, having them stand side-by-
side along the river, for instance; it is recognizing, beyond 
sharing of the information, deploying in high-risk areas, for 
them to be able to use their jurisdictional authority to have 
the same impact and help us in our ability to disrupt and 
dismantle those organizations.
    Mr. Carter. Stonegarden is for overtime pay, as I 
understand it. And some of these are really small--and I 
visited with some of them in Arizona, and I visited with them 
in Texas. Some of them are really small departments with big 
counties, as I know you are all aware of. And they need to hire 
more deputies, as well as to give overtime. Some of those guys 
are working a lot of overtime.
    Chief Fisher. Yes, sir.
    Mr. Carter. So I am working on getting something to help 
them hire new deputies, as well as this great program, 
Stonegarden, which I thoroughly approve of.
    Mr. Winkowski. Congressman Carter, don't forget the ports 
of entry, from the standpoint of what the deputies do down 
there for us also. They are working outbound operations. We 
partake in the Stonegarden. If you go down to Hidalgo--I just 
met with the chief of police down there--they have a strong 
presence. They are helping us make millions of dollars in 
seizures every year. So let's not forget the ports of entry 
also.

 IMMIGRATION AND CUSTOMS ENFORCEMENT AGENTS: SECURITY POSTURE IN MEXICO

    Mr. Carter. Well, we think that they are a good backup to a 
great program that you are working diligently. And I will 
testify before any court under oath that the work that the 
Border Patrolman was doing in the dark when I was out there 
with him that night, you can't pay people enough to do that 
job. It is a terrible job.
    And, by the way, I have another question real quickly. ICE 
agents are getting killed in Mexico, and they are unarmed. And 
I asked this of the head of the Department, and I didn't get an 
answer. I might not get an answer today.
    Are you the only unarmed American agents that go into 
Mexico? Are the other agencies also unarmed, like the FBI, the 
Drug Enforcement people and others? Are you the only ones that 
are unarmed, or is everybody unarmed when they go into Mexico?
    Mr. Dinkins. Sir, that is a great question. And rather than 
discuss our security posture overseas in an open forum, I would 
love to sit down and we could brief you.
    Mr. Carter. That is the answer I got last time.
    Mr. Dinkins. I was wondering what answer----
    Mr. Carter. Yeah, that is exactly the same answer your boss 
gave. Okay, well, let's discuss it because----
    Mr. Dinkins [continuing]. Absolutely.
    Mr. Carter [continuing]. I don't like the idea--because San 
Luis Port of Sea is not the border. San Luis Port of Sea is 
deep in Mexico. And for those guys to get ambushed deep in 
Mexico and all they can fight them with is a smile, it is not a 
good place to be.
    Thank you, all of you. God bless you.
    Mr. Aderholt. Thank you, Mr. Carter.
    And thank each of you for appearing before the Subcommittee 
today and providing your insights on the Southwest border and 
the operations there.
    As I mentioned in my opening remarks and I have said, we 
have always made operational needs a priority in this 
Subcommittee. And we take that very seriously, as I know all of 
you do, as well. The safety of the men and women who stand on 
the front lines are a great concern to us.
    Before we close today, I want to hear from each of you, is 
there anything that you need, issues or resources that we need 
to address, to do everything possible to keep your people safe 
in the field?
    Chief Fisher. Mr. Chairman, I want to thank you for the 
opportunity to respond to that question.
    And I don't have anything right off the bat to respond to, 
other than, thank you and your staff for their responsiveness 
in helping us understand what the requirements are and what the 
end state looks like, in terms of a secure border. Your staff 
has been very good, so thank you, sir.
    Mr. Winkowski. The only thing I would add is just a couple 
of issues. You know, we received quite a bit of money under the 
ARRA, with $100 million for our NII equipment that is out there 
at the ports of entry, as well as over $700 million for 
improvements on ports of entry on the Northern border as well 
as Southern border.
    I do think that we need to keep our eye on the ball. We 
have had growth in Field Operations. But, again, we are a 
unique animal, in that we have this dual mission of 
facilitating legitimate trade and travel and also making sure 
that dangerous people and dangerous things don't come in this 
country.
    And, as we continue to open up new ports of entry--I 
mentioned Donna and Anzalduas in Texas--we need to make sure 
that the resources come with that. Oftentimes, they don't. And 
we have to keep our eye on that, as well as a place like San 
Ysidro. We are going to go from 24 booths to 63, and we have to 
staff those.
    You know, there is a big economic engine, and you all are 
mentioning that today, that happens at that port of entry. And 
I think we need to continue to give you the right matrix, we 
need to continue to give you the right data, we need to 
continue to, I think, present our case in that regard.
    Mr. Aderholt. Thank you. And our staff will follow up with 
that.
    Mr. Dinkins. And, sir, I would just like to follow up. I 
want to thank you, as well. I mean, I think ICE has really come 
into its own. What I asked for and we have been working with 
the committee on is really to ensure that we maintain that 
momentum in moving forward into the next future budget years.
    Mr. Aderholt. Okay. Thank you.
    Admiral.
    Admiral Zukunft. And, Chairman, I am just thankful to the 
Committee. You know, on Friday, we decommissioned a 67-year-old 
cutter in Ketchikan, Alaska, the ACUSHNET. Unfortunately, there 
is another 67-year-old cutter that now owns the distinction of 
being the oldest cutter in our fleet. And it is the crews of 
those ships that are keeping us ready. And so, when I say we 
are on life support, that is, you know, it is really on the 
backs of our people right now that are keeping us ready for 
today and tomorrow.
    But the fact that you have supported our recapitalization 
of our fleet, that will better posture us as we look at the 
Southwest border, not just today, but tomorrow as well. So, to 
the committee, I am thankful for your support.
    Mr. Aderholt. Okay. Thank each of you for your candor this 
morning.
    And the hearing is adjourned.

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    


                               I N D E X

                              ----------                              
                                                                   Page
Immigration and Customs Enforcement (ICE)........................     1
Administrative Violations and Removal............................    50
Agents Killed....................................................    41
Alternatives to Detention........................................48, 51
Biography: Morton, John..........................................    27
Biometric Exit...................................................    56
Cost Savings.....................................................    28
Criminal Aliens..................................................    33
Detention Bed Space:
    Cost.........................................................    32
    Specifics....................................................    40
Executive Office for Immigration Review..........................    49
Federal Immigration Law: Enforcement.............................    46
Inspector General Report.........................................    48
Intensive Supervision Appearance Program.........................    53
Jurisdiction.....................................................    53
Opening Statement:
    Assistant Secretary Morton...................................    12
    Chairman Aderholt............................................     1
    Ranking Member Price.........................................     9
Sanctuary Cities.................................................    46
Secure Communities...............................................    37
    Profiling....................................................    55
U.S.-Mexico Cooperation..........................................    38
Vetting of Counterparts..........................................    39
Visa Security Units..............................................    57
Re-Entries.......................................................42, 52
Removal Operations...............................................40, 54

Transportation Security Administration (TSA).....................   195
Advanced Imaging Technology...............................214, 215, 234
    Procurements.................................................   217
    Safety.......................................................   216
    Training Requirements........................................   220
Air Cargo Security.............................................219, 249
Aviation Security Fees...........................................   214
Behavior Detection Program.......................................   234
Biography: Pistole, John.........................................   212
Biometric Identification.........................................   235
Collective Bargaining................................213, 222, 224, 251
Opening Statement:
    Administrator Pistole........................................   205
    Chairman Aderholt............................................   195
    Ranking Member Price.........................................   201
Passenger Screening:
    Identifying High-Risk Travelers..............................   226
    Profiling....................................................   228
Private Screening................................................   230
    Personnel....................................................   223
Secure Flight Program..........................................213, 252
Screening Operations.............................................   249
Transit Security Grants..........................................   221
Trusted Traveler Program.........................................   216
    Expedited Screening..........................................   222
Transportation Security Officer Salaries.........................   229
VIPR Teams.......................................................   235

Southwest Border Enforcement.....................................   439
Air Interdiction.................................................   486
Border Security:
    Apprehensions and Prosecutions...............................   487
    Border Patrol Agent Death in Arizona.........................   484
    Border Patrol Agents & CBP Officers..........................   480
    Local Law Enforcement........................................   506
    Measures of Progress.........................................   475
    Officer Hirings..............................................   501
    Resources & Results..........................................   497
    Tucson Sector................................................   482
    Unified Command Structure....................................   484
Drug Interdiction:
    Detection of Submersibles....................................   493
Immigration and Customs Enforcement Agents: Security Posture in 
  Mexico.........................................................   507
Maritime Security:
    Coast Guard Presence in Texas................................   505
    Office of Professional Responsibility........................   492
Officer Conduct & Integrity Assurance............................   491
    Polygraph....................................................   499
Officer Foreign Language Skills..................................   497
Opening Statement:
    Admiral Zukunft..............................................   454
    Assistant Commissioner Winkowski.............................   451
    Associate Director Dinkins...................................   453
    Chairman Aderholt............................................   439
    Chief Fisher.................................................   450
    Ranking Member Price.........................................   446
Stopgap Funding, Impact of.....................................479, 481
Witness Biographies..............................................   469

                                  <all>

</pre></body></html>
